<html>
<title> - IMPLEMENTING THE 9/11 ACT MANDATES FOR ENHANCING THE VISA WAIVER PROGRAM</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
   IMPLEMENTING THE 9/11 ACT MANDATES FOR ENHANCING THE VISA WAIVER 
                                PROGRAM

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON BORDER, MARITIME,
                      AND GLOBAL COUNTERTERRORISM

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 16, 2008

                               __________

                           Serial No. 110-127

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                     U.S. GOVERNMENT PRINTING OFFICE
45-173 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012008


                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman

Loretta Sanchez, California          Peter T. King, New York
Edward J. Markey, Massachusetts      Lamar Smith, Texas
Norman D. Dicks, Washington          Christopher Shays, Connecticut
Jane Harman, California              Mark E. Souder, Indiana
Peter A. DeFazio, Oregon             Tom Davis, Virginia
Nita M. Lowey, New York              Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
Columbia                             David G. Reichert, Washington
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Donna M. Christensen, U.S. Virgin    Ginny Brown-Waite, Florida
Islands                              Gus M. Bilirakis, Florida
Bob Etheridge, North Carolina        David Davis, Tennessee
James R. Langevin, Rhode Island      Paul C. Broun, Georgia
Henry Cuellar, Texas                 Candice S. Miller, Michigan
Christopher P. Carney, Pennsylvania
Yvette D. Clarke, New York
Al Green, Texas
Ed Perlmutter, Colorado
Bill Pascrell, Jr., New Jersey

                    I. Lanier Lavant, Staff Director

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

     SUBCOMMITTEE ON BORDER, MARITIME, AND GLOBAL COUNTERTERRORISM

                LORETTA SANCHEZ, California, Chairwoman

Jane Harman, California              Mark E. Souder, Indiana
Zoe Lofgren, California              David G. Reichert, Washington
Sheila Jackson Lee, Texas            Michael T. McCaul, Texas
James R. Langevin, Rhode Island      Gus M. Bilirakis, Florida
Henry Cuellar, Texas                 Mike Rogers, Alabama
Al Green, Texas                      Peter T. King, New York (Ex 
Bennie G. Thompson, Mississippi (Ex  Officio)
Officio)

                         Alison Rosso, Director

                         Denise Krepp, Counsel

                       Carla Zamudio-Dolan, Clerk

        Mandy Bowers, Minority Senior Professional Staff Member

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California, and Chairwoman, Subcommittee on 
  Border, Maritime, and Global Counterterrorism..................     1
The Honorable Mark E. Souder, a Representative in Congress From 
  the State of Indiana, and Ranking Member, Subcommittee on 
  Border, Maritime, and Global Counterterrorism..................     2

                               Witnesses
                                Panel I

Dr. Richard C. Barth, Ph.D., Assistant Secretary, Office of 
  Policy Development, Department of Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
Mr. Robert A. Mocny, Director, US-VISIT Program, Department of 
  Homeland Security:
  Oral Statement.................................................     9
  Prepared Statement.............................................     6
Mr. Stephen A. ``Tony'' Edson, Deputy Assistant Secretary for 
  Visa Services, Bureau of Consular Affairs, Department of State:
  Oral Statement.................................................    11
  Prepared Statement.............................................    12

                                Panel II

Mr. Douglas E. Lavin, Regional Vice President for North America, 
  International Air Transport Association:
  Oral Statement.................................................    24
  Prepared Statement.............................................    26
Mr. Greg Principato, President, Airports Council International--
  North America:
  Oral Statement.................................................    32
  Prepared Statement.............................................    33
Mr. Nathan A. Sales, Assistant Professor of Law, George Mason 
  University School of Law:
  Oral Statement.................................................    36
  Prepared Statement.............................................    38

                                Appendix

Questions From Chairwoman Loretta Sanchez........................    49


   IMPLEMENTING THE 9/11 ACT MANDATES FOR ENHANCING THE VISA WAIVER 
                                PROGRAM

                              ----------                              


                        Wednesday, July 16, 2008

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border, Maritime, and Global 
                                          Counterterrorism,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:08 a.m., in 
Room 311, Cannon House Office Building, Hon. Loretta Sanchez 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Sanchez, Harman, Langevin, 
Cuellar, and Souder.
    Ms. Sanchez. The Subcommittee on Border, Maritime and 
Global Counterterrorism will come to order.
    The subcommittee is meeting today to receive testimony on 
implementing the 9/11 Act mandates for enhancing the Visa 
Waiver Program. Welcome to today's hearing.
    Our first panel today consists of State and Homeland 
Security officials familiar with the US-VISIT and Visa Waiver 
Program. I am anxious to hear their testimony in regards to the 
implementation of the 9/11 Commission Act with regards to the 
Visa Waiver Program.
    Our second panel includes members of airport and air 
transport associations that are affected by the implementation 
of the Visa Waiver Program. I am equally anxious to hear their 
testimony in regards to the changes to the Visa Waiver Program, 
and particularly the implementation of the US-VISIT Exit piece.
    The goal of this hearing will be to examine the US-VISIT 
Exit proposal and the Electronic System for Travel 
Authorization implementation. We will also look at the demands 
both of these programs will place on the two Departments 
implementing them and the effects on the airlines and the ports 
of entry that will need to adhere to them.
    Because of the possibility of potential terrorists entering 
the United States through a visa waiver country, this committee 
has required several new security measures through the 9/11 
Commission Act. US-VISIT Exit is also an essential tool to 
identify visa overstays and to ensure that visitors who enter 
the country actually leave, by obtaining their biographic and 
biometric data upon departure.
    However, recent GAO reports have shown that the Department 
of Homeland Security's US-VISIT pilot program had a low 
compliance rate, was poorly planned, and had inadequate 
evaluations by senior officials.
    Last April, DHS issued a notice for proposed rulemaking 
that would require the airline industry to be in charge of 
collecting and maintaining travelers' sensitive biometric 
information. Chairman Thompson and I have fully opposed this 
rulemaking, as we believe that it not only imposes an 
additional burden on an already-stressed industry, but that it 
will also cost the industry over $12 billion to implement the 
program and to train their employees.
    Last month, Chairman Thompson and I submitted written 
comments addressing four key concerns about the proposed 
rulemaking.
    First, collecting biometric data on travelers leaving and 
entering this country, I believe, is inherently a governmental 
responsibility. CBP collects the information for incoming 
travelers, so there is really no reason to hand off that 
responsibility to the airline industry.
    Second, this proposed rule offers no training for the 80 to 
138 airlines that will be affected by this rule. So penalizing 
these airlines for not adequately transmitting that biometric 
data I think would be highly inappropriate.
    Third, the proposed rule asks for airlines to collect and 
store fingerprints and digital images. DHS is asking the 
airline industry to store and to transmit information that 
requires very high privacy safeguards.
    Fourth, the Department of Homeland Security should consider 
a combination of alternatives that adequately meets every 
performance standard, such as the alternative proposed by Mr. 
Thompson and me. That would require the Department of Homeland 
Security, through the use of a kiosk, to collect travelers' 
biometrics at the TSA checkpoint and verify their departure 
with the airlines.
    Although the US-VISIT Exit notice of proposed rulemaking is 
a major concern, it is not the only concern that we have in 
this subcommittee. The implementation of the Electronic System 
for Travel Authorization also must be looked over carefully. We 
must ensure that that program is introduced to the public 
through an intensive outreach program. This should be done in 
conjunction with the development of contingency plans in case 
the ESTA does not meet performance standards. We must also 
ensure that the Government does not duck its responsibilities 
with respect to these programs by placing the burden on private 
citizens or on private industry.
    So I look forward to hearing from our witnesses today, and 
now will yield to my Ranking Member, Mr. Souder, for his 
opening statement. Thank you.
    Mr. Souder. Thank you, Madam Chairwoman. I appreciate your 
leadership of this committee and for holding this important 
hearing.
    One of the most important charges that the Committee on 
Homeland Security has is to ensure that the Department of 
Homeland Security has the tools, resources and authority to 
continually address new terrorist travel threats.
    The two programs that we are discussing in today's hearing 
promise to add important security layers, once fully 
implemented. The United States' national security depends on a 
robust system of screening and tracking foreign visitors. The 
establishment and implementation of the US-VISIT biometric 
screening program is a cornerstone of border security and 
border management.
    The Data Management Improvement Act of 2000 first set 
specific deadlines for the implementation of an entry and exit 
system at all air, land and sea ports of entry. According to 
this law, the entire system was to be complete by the end of 
2005. After 9/11, additional legislation was passed to require 
the system to include biometrics.
    I applaud the Department for completing the entry portion 
of the requirement according to the mandated deadlines. Albeit 
significantly past the deadline, I am encouraged that progress 
is being made on the air and sea exit programs.
    I am sure that the notice of proposed rulemaking issued in 
April will be one of the major discussion points during this 
hearing, and I have a number of questions on the methodology 
DHS used to select the proposal for the carriers to collect and 
transmit exit data, as well as the kiosk alternative.
    Unfortunately, similar progress has not been achieved 
implementing land exit. I have been extremely disappointed that 
very little effort has been dedicated to an exit solution, and 
there appears to be a lack of will within the Department to 
address this security vulnerability. I hope that DHS witnesses 
will be able to provide an update on the land exit solution.
    In fact, one of the most discouraging things to me is that 
9/11 occurred in 2001; we are now to 2008; airports should be 
the easiest to implement, as opposed to all the water entries 
and all the land entries. There are finite numbers. Yet here we 
are still battling on how to do it at the airports.
    I am also concerned that the spending bills moving through 
both the House and Senate contain language that could 
significantly delay the US-VISIT Exit solution. I am interested 
in hearing from the witnesses about the impact the required 
pilots in the House bill and the reduction in funds in the 
Senate bill could have on the program. I believe that with the 
absence of a DHS authorization bill, this committee has little 
opportunity to legislatively address problems and policies 
within the Department and is abdicating our responsibility to 
the appropriators.
    The other program on the table for today's hearing is the 
Visa Waiver Program. Approximately 15 million travelers come to 
the United States each year under the Visa Waiver Program. 
Under the VWP expansion authority included in H.R. 1, that 
number would increase by 6 million. None of these travelers 
need apply for a visa at a U.S. consulate prior to coming to 
the United States.
    To address the diplomatic pressure to expand VWP and add 
important new security measures to the program, the 
administration requested language that was included in H.R. 1 
to waive the strict requirements that nations must meet before 
they are eligible for VWP participation.
    There are several criteria in the legislation that must be 
met before the Secretary can use the waiver authority, which 
promised to add important security measures to that program. 
This includes a new requirement that VWP travelers use a new 
electronic system of travel authorization. This will allow DHS 
to vet passengers coming into the United States under the VWP 
several days in advance. Additionally, the legislation requires 
new VWP nations to share lost and stolen passport data with 
Interpol and increase security cooperation with the United 
States.
    I look forward to hearing from the witnesses about the 
program's progress in implementing these additional security 
measures.
    Thank you, Madam Chair, for calling this hearing, and I 
join you in welcoming the witnesses on both panels, and yield 
back.
    Ms. Sanchez. I thank my Ranking Member.
    I will remind the rest of the Members on the subcommittee 
that, under committee rules, opening statements may be 
submitted for the record.
    I now welcome our first panel of witnesses.
    Our first witness, Dr. Richard Barth, was appointed 
Assistant Secretary for the Office of Policy Development in the 
Department of Homeland Security on August 28, 2006. He is the 
principal action officer for coordinating policy among 
Department entities, State and Federal agencies, and foreign 
governments.
    Our second witness is Robert Mocny, director of the US-
VISIT program. He has served in several senior Federal 
Government positions related to U.S. immigration policy and 
operations, including director of the Entry/Exit Project and 
Acting Assistant Commissioner and Assistant Chief Inspector 
with the former Immigration and Naturalization Service.
    Welcome.
    Our final witness is Steven Edson, Deputy Assistant 
Secretary for Visa Services in the State Department's Bureau of 
Consular Affairs. Mr. Edson served as managing director of visa 
services and senior advisor for strategic planning to the Visa 
Services Directorate from 2001 until 2005. Mr. Edson entered 
the Foreign Service in 1981.
    So, welcome.
    Without objection, your full statements will be inserted 
into the record. I will now ask each of you to please summarize 
your statement in 5 minutes or less.
    Let's begin with Assistant Secretary Barth.

  STATEMENT OF RICHARD C. BARTH, PH.D., ASSISTANT SECRETARY, 
 OFFICE OF POLICY DEVELOPMENT, DEPARTMENT OF HOMELAND SECURITY

    Mr. Barth. Thank you. Chairwoman Sanchez and Representative 
Souder and distinguished Members of the committee, I would like 
to thank you for the opportunity to appear today to discuss how 
the Department of Homeland Security is implementing the 
9/11 Commission Act, signed into law last August.
    A modernized Visa Waiver Program that strengthens our 
country's national security, law enforcement and immigration 
interests is a top priority for this administration. We are 
enhancing security for the United States and our VWP partners 
in many ways that I will address today, while also enabling the 
entry into the program of new member nations. I would note that 
these goals are mutually reinforcing.
    The first point I would make is to thank you and other 
Members of Congress who joined forces to pass a VWP 
Modernization Act that enhances our security and gives the 
President flexibility in admitting new members. The Congress 
also is to be commended for providing adequate funding for a 
significant new security tool, the Electronic System for Travel 
Authorization, or ESTA.
    The next point I would like to make is that we are on track 
to improve security and welcome new members into the VWP this 
year. Despite the claims that assert the opposite, DHS will 
facilitate travel for key allies, and they are excited about 
the partnership that has led to this likely outcome this year.
    I would like to spend a few minutes reviewing the 
complexities of the VWP program and the way DHS and its partner 
agencies, including the DNI, the State Department, and Justice 
Departments primarily, are dealing with these complexities. 
Then I will focus a little on where we are with the nine 
countries with whom we have had an active dialogue to enter the 
VWP program, possibly, as I said, as early as the end of this 
year.
    The chart on the screen above you there shows the many 
steps that are required to achieve VWP status for the aspirant 
countries and, also, what has to be done with current VWP 
countries to ensure that we are managing a single VWP program 
with all the security enhancements called for in the new law.
    This chart basically starts on the left, with the passage 
of the new law by Congress last August, and then the funding of 
the ESTA at the end of December. The color code on the upper-
right corner highlights whether these steps in the flow chart 
relate to new members or to all VWP members. A couple key steps 
I will point out.
    One important one is that the DNI, the Intelligence 
Community, needs to report to us on the threat posed by new 
entrants particularly. To date, we have these reports on three 
countries and are on track to complete all the DNI reports this 
year.
    Comprehensive reviews of the security of the aspirant 
countries is also a critical factor. That is largely spelled 
out in the chart. As you can see, we have completed eight out 
of the nine reviews. Our very extensive reports on border 
security in those countries are being finalized and, again, are 
on target for delivery this year.
    Data-sharing on key aspects of CWP travelers is critical to 
this program. We are in active discussions with all nine 
countries on data-sharing agreements for known and suspected 
terrorists; criminal information, up to and including that 
which would be a felony here in the United States; and date on 
asylum rejections and asylum applicants.
    ESTA, of course, is another core requirement that is on 
track for implementation on August 1 of this year and with 
full-capability rollout in October of this year. We intend to 
require ESTA approvals for all VWP travelers as of January 12, 
2009. Let me emphasize: All VWP travelers. That includes 
travelers from France, Germany, the United Kingdom and Japan, 
as well as all the other VWP travelers from existing VWP 
members.
    ESTA is essential to transforming the VWP program from 
evaluating security threats on a country-by-country basis to a 
capability that allows us to make traveler-by-traveler 
judgments. In addition to enhancing security, ESTA will provide 
for greater efficiencies in the screening of international 
travelers, and reduce traveler delays at the ports of entry.
    As discussed in other hearings, we are also on track to be 
able to certify that there is matching biographic data on those 
who exit the country. This is a particularly complicated topic, 
but we commit to the Congress to share very transparently the 
way that we calculate the data that allow the Secretary of DHS 
to certify that this requirement in the statute has been met 
before admitting new member countries to VWP.
    Allow me to mention some of the security enhancements that 
we are already benefitting from as a result of the effective 
implementation of this law.
    First, we are concluding agreements with foreign 
governments to share data on known and suspected terrorists. 
Those data elements from some countries are already being used 
in our screening databases. That would not be the case if we 
hadn't had the new tools enabled by the legislation.
    Second, we are already receiving significantly improved 
data from a number of countries on lost and stolen passports, 
even in advance of them coming into the VWP program. They have 
been sharing data on lost and stolen passports with us, whether 
issued or blank passports. These data are accessible to our 
Customs officers in real time to ensure that people who would 
do us harm cannot come into the country using a false identity 
or traveling under their own identity but on falsified 
documents.
    Next, collaboration in the air marshal programs and airport 
security is also increasing due to the effective implementation 
of this law. There is a steady increase in our security, which 
directly relates to the passage of this legislation. We are 
committed by the end of the year to strengthening the VWP 
program in a substantive way, admitting new qualified members 
into the program, and meeting the security enhancements of the 
law.
    As we have outlined, the Department is well on its way to 
achieving this, and we look forward to answering any questions 
you will ask today.
    Thank you, Chairwoman.
    [The joint statement of Mr. Barth and Mr. Mocny follows:]

       Prepared Statement of Richard C. Barth and Robert A. Mocny
                             July 16, 2008

    Chairwoman Sanchez, Representative Souder and distinguished Members 
of the subcommittee: We would like to thank you for the opportunity to 
appear today to discuss how the Department of Homeland Security (DHS or 
the Department) is implementing the provisions of the Implementing 
Recommendations of the 9/11 Commission Act of 2007, Pub. L. 110-53 (9/
11 Act). A modernized Visa Waiver Program (VWP) that strengthens our 
country's national security, law enforcement, and immigration interests 
is a top priority for the administration. Section 711 of the 9/11 Act 
supports this objective by concurrently enhancing the VWP's security 
requirements and expanding opportunities for countries to become VWP 
members. Similarly, the 9/11 Act mandates the establishment of a 
biometric exit system to complement the entry system already in place. 
Our ability to measure and track those who overstay their lawful 
periods of admission is necessary for immigration enforcement, and is a 
valuable homeland security tool as well.
    Enhancing the VWP's security requirements and expanding membership 
opportunities are mutually reinforcing goals. As a result, both current 
and prospective VWP members will continue to contribute to a secure 
environment for international travel as well as deepen their 
cooperation with the United States on security-related issues.
    As you know, the Department has formalized a number of security 
enhancements, including those mandated by the 9/11 Act, into memoranda 
of understanding (MOUs) and--in collaboration with our colleagues from 
the Departments of State and Justice--is actively discussing 
implementing arrangements and agreements that detail the terms of the 
new security measures. DHS is requiring each member and aspirant 
country to sign an MOU and to agree to the appropriate implementing 
arrangements or agreements, unless other arrangements or agreements 
already in place fulfill the new security requirements of the VWP 
legislation.\1\
---------------------------------------------------------------------------
    \1\ To date, eight countries have signed MOUs--the Czech Republic, 
Estonia, Hungary, the Republic of Korea, Latvia, Lithuania, Malta, and 
Slovakia. Talks are also underway with several current VWP members on 
compliance with the new requirements.
---------------------------------------------------------------------------
    We believe that the bilateral arrangements and agreements under 
discussion--which include requirements to provide certain information 
on air passengers, serious crimes, known or suspected terrorists, 
asylum and migration matters, and timely reporting of lost and stolen 
passport data, as well as cooperation on airport and aviation 
security--will provide our operators and analysts with new tools to 
secure our Nation as well as help prevent terrorist and criminal 
activities in our VWP partner nations. In fact, we are seeing tangible 
security benefits well in advance of adding new members to the VWP. As 
a result, the Department can more effectively screen arriving 
passengers to detect, apprehend, and limit the movement of terrorists, 
criminals, and other mala fide travellers.
    The Department has also taken the appropriate steps to ensure that 
VWP expansion will not negatively impact U.S. security, law 
enforcement, or immigration interests. Over the past 4 months, DHS-led 
interagency teams have traveled to the Czech Republic, Estonia, Greece, 
Hungary, Slovakia, Latvia, Lithuania, and South Korea to 
comprehensively review their counterterrorism capabilities; 
immigration, citizenship and naturalization laws; passport production 
and issuance controls; efforts to combat crime; law enforcement 
cooperation with the United States; and border control mechanisms.\2\ A 
country cannot be admitted into the VWP until it is designated for 
admission by DHS, in consultation with the Secretary of State. DHS has 
also commissioned the required independent Director of National 
Intelligence (DNI) assessment of these countries to inform the 
designation process.
---------------------------------------------------------------------------
    \2\ Although DHS is actively engaged with each of the roadmap 
countries, Greece is the only VWP-candidate country that has been 
formally nominated for designation by the Department of State.
---------------------------------------------------------------------------
    As noted earlier in this testimony, the goals of security and 
expansion are complementary. The 9/11 Act gives the Secretary greater 
flexibility with regard to the level of the aspirant countries' 
nonimmigrant visa refusal rate, provided that the Department: (1) 
Certifies that an air exit system is in place that can verify the 
departure of not less than 97 percent of the foreign nationals who exit 
through U.S. airports; and, (2) certifies that an Electronic System for 
Travel Authorization (ESTA) is fully operational.
    As to the first requirement, DHS continues to evaluate and consider 
various methodologies to verify the departure of at least 97 percent of 
foreign nationals who exit through U.S. airports. DHS will continue to 
review these options to ensure the accurate and timely receipt of 
passenger manifest information and to improve the methodology 
underpinning air exit calculations. DHS expects to make this 
certification later this year.
    The development of the ESTA program is also well underway. The ESTA 
program will strengthen substantially the security of the VWP by 
providing DHS with the capability to conduct enhanced advance vetting 
of VWP travelers. Under the ESTA, VWP travelers will be required to 
submit electronically biographic and other information as required by 
the I-94W Nonimmigrant Alien Arrival/Departure Form to DHS prior to 
their departure for the United States. ESTA applications will then be 
queried against appropriate databases, enabling DHS to make a 
determination on each individual's eligibility to travel to the United 
States under the VWP. Travelers denied a travel authorization via ESTA 
will be referred to the appropriate U.S. embassy or consulate to apply 
for a visa.
    In support of ESTA, DHS is developing a Web-based application and 
screening mechanism for direct access by VWP travelers. The system is 
designed for future volume increases and for peak periods of travel. 
DHS published an Interim Final Rule on June 9, 2008, following a June 
3, 2008, announcement by Secretary Chertoff outlining the new system. 
DHS intends for ESTA to go on-line on August 1, 2008, in English only 
and with limited capacity. This fall, DHS anticipates that ESTA will 
have full capacity and will be available in multiple languages. On 
January 12, 2009, DHS anticipates that all VWP travelers will be 
required to have a travel authorization via ESTA to travel to the 
United States under the VWP. With support from the Departments of State 
and Commerce, as well as from the travel and tourism industries, DHS 
has initiated an extensive public outreach campaign to promote ESTA 
awareness among VWP travelers.
    ESTA is essential to transforming the VWP from one that evaluates 
security threats on a country-by-country basis to one that is capable 
of making traveler-by-traveler judgments. In addition to enhancing 
security, ESTA will provide for greater efficiencies in the screening 
of international travelers by reducing traveler delays at the ports of 
entry.
    Equally critical to DHS efforts to promote secure and legitimate 
travel is the United States Visitor and Immigrant Status Indicator 
Technology (US-VISIT) Program. The establishment of US-VISIT and the 
creation of an integrated immigration and border screening system 
represent major achievements, not only in efforts to reform the 
Nation's immigration and border management system, but also in the 
enhancement of our Nation's security. Through its use of biometrics, 
the US-VISIT Program collects, stores, and shares digital fingerscans 
and photographs for subsequent verification. This biometric information 
is paired with biographics pertaining to a particular individual to 
verify that person's identity.
    US-VISIT's Automated Biometric Identification System (IDENT) plays 
an important role in biometric screening and verifying the identity of 
non-U.S. citizens for other Federal agencies. For example, US-VISIT 
directly supports the DOS' BioVisa program and shares information with 
the Federal Bureau of Investigation (FBI) on expedited removals.
    US-VISIT deployed biometric entry procedures to airports and 
seaports on January 5, 2004. The original scope of this effort covered 
only those individuals applying for admission with nonimmigrant visas. 
Starting on September 30, 2004, US-VISIT expanded biometric entry 
procedures to include those individuals applying for admission under 
the VWP. US-VISIT's deployment of biometric capabilities focused on 
entry for security reasons but also because infrastructure and 
processes on which to build already existed. In contrast, the exit 
process at air, sea, and land ports has little or no established 
infrastructure, processes, or available Government personnel. As a 
result, deployment of biometric capabilities for recording exit 
requires substantially more planning and innovation.
    To that end, DHS has performed significant planning and testing 
over the past 3 years, examining possible solutions for integrating US-
VISIT biometric exit requirements into the international air and sea 
departure process. The options of deployment at airline ticket 
counters, TSA checkpoints, and airline boarding gates, and in airport 
terminals were considered. Between 2004 and 2007, US-VISIT ran 
biometric exit pilots at 14 air and sea locations. These pilots 
evaluated the use of both automated kiosks and mobile devices in port 
terminals. The pilots ended in May 2007. While the pilots demonstrated 
that the technology works, they also revealed the need to embed 
biometric exit procedures into the traveler's existing departure 
process to address low voluntary compliance by travelers.
    Based on the analysis of these pilots, review of a range of other 
potential options, pre-existing biometric exit requirements, and the 9/
11 Act's mandate to establish a biometric air exit program by June 2009 
or face suspension of the Secretary's VWP waiver authority, DHS 
published a proposed rule on April 24, 2008 to establish a biometric 
exit system at all air and sea ports of departure in the United 
States.\3\ The proposed rule would require commercial air carriers and 
cruise line owners and operators to collect and transmit international 
visitors' biometric information to DHS within 24 hours of their 
departure from the United States. Carriers are already required to 
transmit biographic information for these passengers to DHS.\4\ DHS is 
committed to protecting the privacy of international visitors and will 
require that any new systems meet the Department's transmission 
capability and data security requirements. The proposed rule does not 
designate a specific location within the port of departure for 
biometric collection and does not apply to small carriers or vessel 
owners and operators or to general aviation.
---------------------------------------------------------------------------
    \3\ On April 24, 2008, DHS published a Notice of Proposed 
Rulemaking (NPRM) requesting public comment. This will be followed by a 
Final Rule addressing public comments, as required by the 
Administrative Procedure Act, 5 U.S.C. 553. Depending on the final 
decisions resulting from the NPRM, the Final Rule will need to amend 
the Code of Federal Regulations in a number of places.
    \4\ The NPRM relies on section 402 of the Enhanced Border Security 
and Visa Entry Reform Act of 2002 (EBSVERA), Pub. L. No. 107-173, as 
does the collection of information from carriers through the Advance 
Passenger Information System (APIS). EBSVERA revised section 231 of the 
Immigration and Nationality Act (INA) (8 U.S.C.  1221) to make 
statutory that each commercial vessel or aircraft taking passengers on 
board at any seaport or airport in the United States destined for any 
place outside the United States provide certain manifest information 
concerning each passenger, crew member, and other occupant to be 
transported. Subsection 231(c) of the INA, as revised by EBSVERA, 
expressly identifies certain items of identifying information that 
carriers must provide to DHS, including: (1) Complete name; (2) date of 
birth; (3) citizenship; (4) gender; (5) passport number and country of 
issuance; (6) country of residence; (7) U.S. visa number, date, and 
place of issuance; (8) alien registration number, as applicable; and 
(9) U.S. address while in the United States. Paragraph (10) requires 
carriers to provide ``such other information the . . . [Secretary of 
Homeland Security] determines as being necessary for the identification 
of the persons transported and for the enforcement of the immigration 
laws and to protect safety and national security.''
---------------------------------------------------------------------------
    The proposed rule does not require carriers to process exit data 
but only to collect and forward that information to DHS. The ultimate 
shape of the Air/Sea Biometric Exit solution will be the result of an 
open and thorough vetting through the public rulemaking process. During 
the comment period that ended on June 23, 2008, DHS received numerous 
and detailed comments in response to the NPRM, both in written form and 
during a public hearing on June 13, 2008. The Department is in the 
process of reviewing these comments and will publish a final rule this 
year, in accordance with the Administrative Procedure Act, other 
applicable statutes, and established policy.
    Once DHS begins receiving the biometric exit data, it will pair 
that data with corresponding biographic exit data; match entry and exit 
records; determine overstay status; vet against, and update, watch 
lists; and forward information that may be appropriate for further 
investigation to U.S. Immigration and Customs Enforcement. In addition 
to identifying those individuals who have not left the country in 
accordance with the terms of their admission, overstay information is 
important for other purposes. For example, information on individuals 
who overstayed but then departed the United States is relevant to 
future immigration determinations, such as a subsequent application for 
admission to the United States, visa renewal, or other immigration 
benefits. Overstay information also plays a role in counterterrorism. A 
critical aspect of counterterrorism efforts is recording the arrival of 
travelers from areas of the world with significant terrorist or 
criminal activity. Awareness of travelers from these areas coupled with 
knowledge about the terms of their admission, including overstay 
information, is essential to assessing risk and to enhancing the 
integrity of the immigration and border management system. Finally, 
comprehensive trend analysis is likely to assist DHS and DoS in 
identifying specific visa-issuing posts, visa categories, VWP 
countries, and other criteria that might be common to an unacceptably 
high overstay rate. This knowledge will enable DHS and DoS to increase 
scrutiny and to focus efforts according to any identified threat.
    DHS is committed by year's end to strengthening the VWP in a 
substantive way, admitting new, qualified members into the program, and 
implementing the biometric exit system. As we have outlined today, the 
Department is well on its way to achieving these goals. We appreciate 
your continued support of programs that help secure U.S. borders, 
strengthen the U.S. economy, improve relations with our closest allies, 
and promote a safer international travel environment.
    Chairwoman Sanchez, Representative Souder and Members of the 
subcommittee, we want to thank you for the opportunity to present this 
testimony today. We would be pleased to respond to any questions you 
might have at this time.

    Ms. Sanchez. Thank you.
    Our next witness will be Mr. Mocny, for 5 minutes or less.

   STATEMENT OF ROBERT A. MOCNY, DIRECTOR, US-VISIT PROGRAM, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Mocny. Madam Chairwoman Sanchez, Ranking Member Souder, 
distinguished Members of the committee, thank you for the 
invitation to discuss how US-VISIT is improving our Nation's 
security and working to fulfill a mandate from Congress and the 
9/11 Commission to biometrically record the departure of 
international visitors from the United States.
    Madam Chairwoman, I think it is safe to say that we all 
agree that exit control is a priority for the securing of our 
Nation's borders. From the inception of the US-VISIT program, 
we have sought to apply the power of biometrics to an automated 
exit capability. Today I would like to focus specifically on 
our efforts at the airports and the seaports.
    Generally speaking, collecting biometrics from visitors 
upon departure presents many more hurdles than collecting 
biometrics upon entry. Unlike at entry, our airports and 
seaports have little or no established governmental 
infrastructure, processes or available Government personnel to 
collect biometrics from departing travelers. As a result, 
deployment of biometric exit capabilities has required 
significantly more planning and innovation than entry.
    Over the past 3 years, DHS has examined possible exit 
solutions for the airport and seaport environments. From 2004 
to 2007, US-VISIT evaluated the use of both automated kiosk and 
mobile devices in port terminals in 14 air and sea locations. 
While the pilots demonstrated that the technology works, with 
no Government infrastructure or processes in which to embed the 
procedures, traveler compliance was low. Our final evaluation 
of the pilot determined that to achieve 100 percent compliance, 
biometric exit procedures need to be incorporated into the 
current departure process for international travelers.
    Within 12 months of completing our pilots at airports and 
seaports, we were ready to publish a notice of proposed 
rulemaking to establish a biometric exit system. DHS's proposal 
would require airlines and cruise lines to collect biometric 
data from departing visitors and transmit it to DHS, as they 
currently do with biographic data.
    As part of the NPRM, we examined our proposal's economic 
impact, its impact upon the ports, its impact upon travelers 
and their privacy. The NPRM also outlined a number of 
alternatives to generate discussion about other possible 
approaches. During the public comment period, we heard from 
carriers and others, both in writing and at a public hearing, 
and we were gratified by the number and substance of the 
responses. We are currently considering and analyzing all 110 
comments as we chart a path forward.
    We have always said that a comprehensive, long-term 
biometric exit strategy for the United States is an exceedingly 
complex and costly challenge. The NPRM acknowledges that 
meeting this challenge will require the commitment of 
significant investments and close coordination between DHS, the 
airlines, the cruise lines and our intergovernmental partners.
    Let me be clear: We are committed to deploying the best 
solution available within the timetable Congress has outlined 
in the 9/11 Act.
    Thank you for the opportunity to address you today. I look 
forward to your questions.
    Ms. Sanchez. Thank you, Director Mocny.
    Now I would like to recognize Deputy Assistant Secretary 
Edson to summarize his statement for 5 minutes or less.

   STATEMENT OF STEPHEN A. ``TONY'' EDSON, DEPUTY ASSISTANT 
   SECRETARY FOR VISA SERVICES, BUREAU OF CONSULAR AFFAIRS, 
                      DEPARTMENT OF STATE

    Mr. Edson. Thank you, Chairwoman Sanchez, Ranking Member 
Souder and distinguished Members of the subcommittee. I am 
delighted to be here this morning and appreciate this 
opportunity to discuss the role the Department of State plays 
in the Visa Waiver Program and the Electronic System for Travel 
Authorization under the new legislative requirements of section 
711 of the Implementing the 9/11 Commission Recommendations Act 
of 2007.
    We welcome the congressional initiative to modernize the 
VWP and the passage of the 9/11 Act last summer, particularly 
the additional VWP security measures. The new law not only 
strengthens the security framework of the program, but it also 
creates a path for expansion for the Visa Waiver Program to 
include some of our closest allies. These enhancements will 
help secure U.S. borders and promote a safer international 
travel environment.
    As my DHS colleagues have noted, the USG is negotiating 
memoranda of understanding with all VWP governments, both 
existing and prospective. The USG has now signed MOUs with 
eight VWP roadmap countries and is negotiating one with Greece. 
We will be negotiating similar agreements with the current VWP 
countries next.
    We are working closely on the second part of the MOU 
process, the expansion of information-sharing with VWP members 
and aspirant countries. Terrorist and criminal information-
sharing is a high priority.
    As part of the Department of State's responsibility to 
obtain terrorist screening information from foreign partners, 
pursuant to Homeland Security Presidential Directive 6, we have 
signed agreements with five visa waiver countries and four 
roadmap countries. We are in varying stages of negotiations 
with 25 additional countries, including 17 VWP countries and 
six more roadmap countries. We anticipate that several more 
agreements will be signed within the next few months.
    The Secretary of State has delegated authority to negotiate 
agreements to exchange criminal history information to prevent 
and combat serious crime jointly to DHS and DOJ. The successful 
conclusion of operational arrangements for an increased level 
of cooperation in both areas has been stimulated by the 
dialogue on the Visa Waiver Program.
    We are fully engaged with DHS on the implementation of 
their ESTA, the electronic system through which visa waiver 
travelers will apply online for preapproval to board a ship or 
plane bound for the United States. Those travelers denied an 
ESTA are instructed to make an appointment at their nearest 
embassy or consulate to apply for a visa. DHS has provided us 
with data simulations that indicate that the number of ESTA 
denials will likely be less than 1 percent. We have used that 
data to project potential workload changes to VWP member 
country and aspirant posts.
    We anticipate that we would generally be able to absorb an 
increase in workload of 1 percent without additional resources 
in most VWP countries, with the exception of Japan and the 
United Kingdom, which send the largest numbers of visa waiver 
travelers to the United States. Even in the United Kingdom and 
Japan, however, only minor adjustments to resources would be 
needed to handle the workload caused by an ESTA denial rate of 
1 percent or less, as predicted by DHS simulations.
    We worked closely with the Government Accountability Office 
on their recent report on workload planning for visa waiver, 
and we are doing contingency planning for ESTA denial rates 
much higher than those predicted by DHS. We have looked at 
resource requirements for rates of 2 and 3 and up to 10 
percent. We agree with GAO that an ESTA denial rate above 3 
percent would cause greater difficulty at some of our larger 
posts. But all the models we have seen from DHS indicate that a 
refusal rate that reaches even the 1 percent level is unlikely.
    The Department already responds to staffing needs with a 
flexible and responsive workforce. These increased staffing 
needs for this purpose can be met with various staffing tools 
and strategies already in use, both in the short term and in 
the long term. We will closely monitor post workload as ESTA is 
implemented and adjust resources and temporary assistance as 
needed. We will also send our posts additional guidance about 
managing their applicant streams to assist those who are denied 
ESTAs and need to apply for visas.
    We have worked closely with DHS in the planning process and 
will continue this collaboration.
    In closing, the Department appreciates Congress's passage 
of the VWP provisions of the 9/11 Act. We see the new 
requirements as a positive means to strengthen the security of 
visa-free travel, permit some of our closest friends and allies 
to join the Visa Waiver Program, and thereby enhance our 
cooperation and ties with those countries over the long term. 
The Department is committed to working with our partner 
agencies and with this committee toward that goal.
    Of course, I am happy to answer your questions.
    [The statement of Mr. Edson follows:]

            Prepared Statement of Stephen A. ``Tony'' Edson
                             July 16, 2008

    Thank you, Chairwoman Sanchez, Ranking Member Souder, and 
distinguished Members of the subcommittee. I am delighted to be here 
this afternoon and appreciate this opportunity to discuss the role the 
Department of State plays in the Visa Waiver Program (VWP) and the 
Electronic System for Travel Authorization (ESTA) under the new 
legislative requirements in Section 711 of ``Implementing 
Recommendations of the 9/11 Commission Act of 2007'' (the 9/11 Act).
    While visiting Tallin, Estonia, in November 2006, President Bush 
announced his initiative to revamp and strengthen the VWP. As I have 
testified before, we welcomed the congressional initiative in 
modernizing the VWP and the passage of the 9/11 Act last summer, 
particularly the additional VWP security measures. The new law not only 
strengthens the security framework of the program but it also creates a 
path for expansion of the VWP to include some of our closest allies. 
These enhancements will help secure U.S. borders and promote a safer 
international travel environment.
    Together with our colleagues at the Department of Homeland Security 
(DHS), we strive constantly both to protect America's borders and to 
preserve America's welcome to legitimate international visitors. 
Section 711 of the 9/11 Act, ``Modernization of the Visa Waiver 
Program,'' supports these efforts by making clear that the security 
provisions of the VWP must be enhanced before VWP participation can be 
extended to any additional countries.
    With the advancement of both new security technologies and new 
security risks, we can and must ensure that for VWP participants and 
aspirant countries, we are able to assess the risks posed by 
individuals, not countries, as threats. The changes in the VWP in the 
9/11 Act give us the tools to do this. The Department of State believes 
these enhanced security measures promote safer international travel.
    I want to discuss briefly the role of the non-immigrant visa 
refusal rate in the context of VWP. Provisions requiring a non-
immigrant visa refusal rate of less than 3 percent remain in the law, 
but the 9/11 Act gives the Secretary of Homeland Security a new waiver 
authority for countries with a refusal rate of at least 3 percent but 
less than 10 percent in the previous fiscal year. This waiver authority 
is conditioned on a number of factors, including DHS implementation of 
the Electronic System for Travel Authorization (ESTA) and an air exit 
verification system, and the aspirant country's fulfillment of the 
enhanced security requirements of the new law. The Department of State 
monitors and reports on these visa refusal rates annually on our Web 
site at www.travel.state.gov.
    For purposes of the VWP, the nonimmigrant visa refusal rate is 
based only on the number of visitor (``B'') visa applications submitted 
worldwide, by nationals of that country. (B visas are issued for short-
term business or pleasure travel to the United States.) The Department 
adjusts the refusal rate to exclude the number of visa refusal cases 
that are overcome and subsequently issued. Adjusted visa refusal rates 
for nationals of current VWP countries reflect only visa applications 
submitted at U.S. embassies and consulates abroad. They do not take 
into account persons who travel to the United States without visas 
under the VWP. VWP country published refusal rates therefore tend to be 
higher than they would be if the VWP travelers were included in the 
calculation, since such travelers would in all likelihood have been 
issued visas had they applied.
    The revised VWP legislation also gives the U.S. Government (USG) 
the means to increase security information-sharing with our closest 
allies. The USG is negotiating memoranda of understanding (MOUs) with 
all VWP governments, both existing and prospective. The USG now has 
signed MOUs with eight ``VWP roadmap'' countries (The Czech Republic, 
Estonia, Hungary, Latvia, Lithuania, Malta, Slovakia, and South Korea) 
and is negotiating one with Greece. We will negotiate similar 
agreements with current VWP countries next.
    We are working closely on the second part of the MOU process, the 
expansion of information-sharing with VWP members and aspirant 
countries. Terrorist and criminal information-sharing is a high 
priority. As part of State's responsibility to obtain terrorist 
screening information from foreign partners, pursuant to Homeland 
Security Presidential Directive 6 (HSPD-6), we have signed agreements 
with five VWP countries and four ``VWP roadmap'' countries. We are in 
varying stages of negotiations with 25 more countries, including 17 VWP 
and 6 roadmap countries, and we anticipate several more agreements will 
be signed within the next few months. The Secretary of State has 
delegated authority to negotiate agreements to exchange criminal 
history information to prevent and combat serious crime jointly to DHS 
and DOJ. The successful conclusion of operational arrangements for an 
increased level of cooperation in both areas has been stimulated by the 
dialog on VWP.
    By statute, DHS has the lead for the VWP program and works in close 
coordination with the Department of State on all aspects of the 
program. The Department of State must consult with DHS regarding the 
designation of a VWP program country. We formally document this through 
the Secretary of State's nomination of a country for consideration for 
VWP membership. We are the primary conduit for guidance on VWP issues 
to our posts abroad. State Department officers at these posts, in turn, 
are the primary interlocutors with host governments, the travel 
industry, the media and public on issues related to VWP. We provide 
input on DHS's evaluations of a VWP aspirant country's law enforcement, 
immigration, and security cooperation, as well as during DHS's 
statutorily mandated country reviews for both initial and continuing 
participation in the VWP. We have participated in the negotiations 
throughout the year with the ``roadmap'' countries on the VWP accession 
process, and have given them guidance on meeting the new statutory 
requirements.
    We are fully engaged with DHS on the implementation of their ESTA, 
the electronic system through which VWP travelers will apply on-line 
for pre-approval to board a plane or ship bound for the United States. 
Those travelers denied an ESTA are instructed to make an appointment at 
their nearest embassy or consulate to apply for a visa. DHS has 
provided us with data that indicate that the number of ESTA denials 
will likely be less than 1 percent. We have used that data to project 
potential workload changes at VWP member country and aspirant posts. We 
anticipate that we would generally be able to absorb an increase in 
workload of 1 percent without additional resources in most VWP 
countries with the exception of Japan and the United Kingdom, which 
send the largest numbers of VWP travelers to the United States. Even in 
the United Kingdom and Japan, only minor adjustments to resources would 
be needed to handle the workload caused by an ESTA denial rate of 1 
percent or less, as predicted by DHS.
    We worked closely with the Government Accountability Office (GAO) 
on their recent report on workload planning for VWP. We are doing 
contingency planning for ESTA denial rates much higher than those 
predicted by DHS and have looked at the resource requirements for rates 
of 2 and 3 percent. We agree with the GAO that an ESTA denial rate of 
above 3 percent could cause greater difficulty at some of our larger 
posts, but all of the models we have seen from DHS indicate that a 
refusal rate that reaches even 1 percent is unlikely. The Department 
already responds to staffing needs with a flexible and responsive work 
force, and these increased staffing needs for this purpose can be met 
with the various staffing tools and strategies already in use, both in 
the short-term, and in the long-term. We will closely monitor post 
workload as ESTA is implemented and adjust resources and temporary 
assistance as needed. We will also send posts additional guidance about 
managing their applicant streams to assist those who are denied ESTAs 
and need to apply for visas. We have worked closely with DHS in the 
planning process for ESTA and will continue this collaboration. DHS has 
indicated they would consult closely with us on the need for changes to 
ESTA operations if screening outcomes are significantly different from 
those predicted.
    We realize that with ESTA being a new and unknown process, some 
people may choose the surety of having a visa in their passport instead 
of applying for an ESTA. However, the number of people who take this 
approach--and the size of the resulting workload increase--will depend 
largely on public perception of the certainty, effectiveness, 
convenience, and cost of the ESTA program. Therefore, we have worked 
closely with DHS, CBP, and Commerce to create a widespread and robust 
outreach program. ESTA information is posted on embassy Web sites in 
both English and local languages, and is prominently featured on our 
public Web site, www.travel.state.gov with a link to CBP's official 
ESTA Web site. We have conducted significant press and travel industry 
outreach through our embassies abroad. Embassy public affairs sections, 
consular sections, and DHS offices abroad are collaborating to hold 
meetings with and make presentations to travel stakeholder groups and 
news media. Staff members are utilizing DHS/CBP's fact sheets and 
sample screens of ESTA to communicate not only that ESTA will increase 
the security the program provides for all travelers, but also that ESTA 
is user-friendly, quick, and secure. We have been monitoring our posts 
for increases in volume from ``just-in-case'' applicants, and have yet 
to see any significant up-tick in applications.
    We are working hard to ensure that the visa process is a complement 
to the ESTA process. We have coordinated with our colleagues in CBP and 
DHS as the ESTA system has been planned and are ensuring that we expand 
State's already robust information-sharing arrangements with DHS to 
include ESTA information. DHS advises that our consular officers will 
be able to see whether an applicant for a visa has been denied an ESTA, 
and why. This will assist us in determining eligibility for a visa. 
There may be cases when the visa interview resolves the reason for the 
ESTA denial and therefore the traveler will qualify for a visa. In 
other cases, the applicant may need to apply for a waiver of 
ineligibility. And in a few cases, that person may not be allowed to 
travel to the United States. It is important to clarify that the visa 
process is an entirely separate process from the ESTA process; 
travelers denied an ESTA would not be able to resolve their ESTA case 
at an embassy or consulate. What they will be able to do is apply for a 
visa, at which time we will include the ESTA information to assist us 
in determining eligibility.
    In closing, the Department appreciates Congress' passage of the VWP 
provisions in the 9/11 Act. We see the new requirements as a positive 
means to strengthen the security of visa-free travel, permit some of 
our close friends and allies to join the VWP, and thereby enhance our 
cooperation and ties with those countries over the long term. The 
Department is committed to working with our partner agencies and with 
this committee toward that goal. I will be happy to answer your 
questions.

    Ms. Sanchez. I thank you, Mr. Edson.
    I now thank all the witnesses for their testimony.
    I will remind each Member that he or she will have 5 
minutes to question the panel.
    I will now recognize myself for some questions. My first 
one is for Mr. Mocny.
    Some people in Congress have suggested that we should 
suspend the Visa Waiver Program altogether, in the interest of 
national security. However, I think that this subcommittee has 
tried to balance the critical national security concerns with, 
obviously, the workload and efficient flow of travelers coming 
to and from the United States. It also, of course, has 
implications with those nations that we have this Visa Waiver 
Program with, with respect to visas required for our citizens 
when they go to visit.
    So my question to you is, what are the contingency plans 
that are in place if Congress decides to suspend the Visa 
Waiver Program altogether?
    Mr. Mocny. I don't know that I am the best person on this 
panel to answer that question. I mean, the contingency plans 
would, of course, have a large effect on the Department of 
State, so I would like Mr. Edson to talk about what would 
happen in the event that it were to be suspended.
    Ms. Sanchez. Mr. Edson.
    Mr. Edson. We have, both on our own and then in cooperation 
with GAO, we have looked at this issue.
    The numbers themselves point out the difficulty here. We 
will probably receive about 8.6 nonimmigrant visa applications 
this year. The number of visa waiver travelers to the United 
States in a given year exceeds 14 million. So we would 
effectively be tripling our workload if the Visa Waiver Program 
were to end.
    Immediately, we would have to respond by dealing with it as 
best we could. These missions in visa waiver countries, many of 
them are fairly small physical plants. We have had the Visa 
Waiver Program in place for enough years now that the physical 
plant in these European capitals and in Japan has not expanded, 
has never dealt with huge volumes of visa travelers. So it 
would be--the contingency plan has involved muddling through, 
to be honest with you, as best we can.
    Ms. Sanchez. So you have no contingency plan.
    Mr. Edson. No, we have run all the numbers, but there is no 
way for us to triple facilities and staffing in any reasonable 
amount of time. It would take years, and it would impact travel 
and commerce in this country.
    Ms. Sanchez. So you wouldn't be ready for a large increase 
in number of visa applications.
    Mr. Edson. Correct. Tripling the number of visa 
applications is not something we could handle.
    Ms. Sanchez. So, do you have a plan? Do you actually have a 
written plan if we should suspend the Visa Waiver Program? I 
mean, do you have a written plan, or do you just--I mean, I 
understand that you have gone through the numbers and you said 
it would triple, you know, our requirement of personnel and 
resources in France, let's say.
    Mr. Edson. Right. We have projected what it would mean for 
facilities and officers and local national staff in each of the 
countries where we now have the visa waiver in place.
    In terms of responding to that, however, at that level, we 
are funded by fees, and so we would go into that increasing 
workload without capital to make the investments to meet that 
demand in resources.
    Ms. Sanchez. The roadmap countries' entrance into the Visa 
Waiver Program would be delayed if the Department of Homeland 
Security does not meet the June 30, 2009, deadline for the 
implementation of the US-VISIT biometric exit system.
    What kind of difficulties would that pose, diplomatic-wise, 
on the State Department if we could foreseeably see that these 
roadmap countries would not get visa waiver?
    Mr. Edson. Thank you for the question.
    The roadmap countries--in each of these roadmap countries, 
visa waiver membership is a prominent domestic political issue 
and, in most cases, a key issue in their bilateral 
relationships with the United States. They expect and hope, 
they have expected and hoped for a couple of years, that they 
might be in the Visa Waiver Program in the immediate future.
    If there are further delays, then we will work closely with 
them to help explain, make sure they understand why those 
delays are necessary.
    Ms. Sanchez. I was just at a Helsinki Commission OSCE 
meeting in Kazakhstan, where we had a lot of our European 
allies, some who are in the Visa Waiver Program, obviously some 
who want to be. They are very angry about this whole issue of 
the Visa Waiver Program, you know, especially those who deem 
themselves in the European Union, that some have it and some 
don't.
    Mr. Edson. Right.
    Ms. Sanchez. So I think it is really high on their list 
when our counterparts talk to us up there.
    I have one last question for Mr. Barth and Mr. Mocny. If 
your rulemaking is rejected, what plan do you have? If we 
decide, for example, if the Congress says it is unacceptable 
for you to lay all this work on the airlines.
    Mr. Mocny. We don't have a plan. We don't have a 
contingency plan if it is not. I mean, we are trying to follow 
the APA, the Administrative Procedures Act. We published the 
NPRM. We have the comments now. We are taking a look at what 
the final rule would look like. We want to publish the final 
rule in a timely fashion. We do want to meet the congressional 
deadline of June of 2009, to give the Secretary of Homeland 
Security the ability to waive the visa refusal rate. It is a 
large part behind some of the thinking.
    So if that doesn't go forward, we would have to, of course, 
replan, retool, reschedule and look at it from a budgetary 
standpoint and from a deployment standpoint.
    But we are, at this point, moving confident that we can 
publish a final rule in the time frame. But we have no 
alternative plan, other than to look at--and, again, in the 
NPRM, I think as you know, we did put several other 
alternatives in there. We costed those out, as well. We may 
pull from one of those. I think we would have to go back into 
planning mode and see what we might be able to put out there in 
the time frames that we have been given by Congress.
    Ms. Sanchez. Mr. Barth, do you have anything to add to 
that?
    Mr. Barth. No. I think the Department is very much 
committed to meeting the timetables. It is going to be a 
challenge, the longer it takes to implement the final rule and 
give airlines adequate time to adjust to what is required in 
that rule.
    We are still, as Mr. Mocny mentioned, we are still 
reviewing the over a hundred comments that came in, some of 
them very substantive, with alternative scenarios provided. So 
once that review is completed, we will be in a better position 
to, I think, answer your question, both primarily will we be 
able to do it and when we will be able to do it and how we will 
be able to do it.
    Ms. Sanchez. Thank you, Mr. Barth.
    My Ranking Member for 5 minutes, Mr. Souder.
    Mr. Souder. Thanks.
    I want to focus on the US-VISIT question. If somebody comes 
in through land and exits air--Mr. Mocny, I guess you would 
probably take the lead; Mr. Barth, if you have any comment--
that if somebody comes in land and exits air, will you be able 
to pick them up?
    Mr. Mocny. If we implement the final rule as we have in the 
proposed rule, yes.
    Mr. Souder. But if they come in land illegally, because we 
don't quite have it all sealed yet, and then try to exit--and 
that was an understatement--if they come in illegally and then 
try to exit through an airport, would we catch them?
    Mr. Mocny. We would. In the pilot programs we did. Because 
the infrastructure is there, the people are kind of funneled 
into the process, then that is how our guarantee of capture of 
the information is. They can't get on board the plane without 
getting the biometrics taken.
    So, yes, if they came in illegally and left through the 
airports, if the airlines do what is required of them per the 
final rule, if it goes the way as the NPRM goes, then, yes, 
they would be so identified.
    Mr. Souder. If they come in air and exit land, we would 
have no proof.
    Mr. Mocny. At this point, no, we don't have a land exit in 
place.
    Mr. Souder. Which shows the importance of the 
interrelationship of the programs.
    Mr. Mocny. Absolutely.
    Mr. Souder. Clearly, the kiosk alternative is the lowest 
cost. There are challenges, because the airlines are in 
financial distress, would be the best way to say it. Not as 
though the Government isn't in financial distress either; we 
can just print money to cover our financial distress. This is 
an incredible challenge.
    What I am having trouble understanding from the beginning--
and this whole process has been very educational. First off, 
the American people need to understand that we are safer than 
we were. Just because we don't have it done doesn't mean that 
the financial tracking, the intelligence tracking, the 
clearance, where the Visa Waiver Program was. I mean, we have 
made incredible progress. But we are not where we need to be.
    In the challenge of looking at the different airports--I 
went behind the scenes in Miami, which is the highest percent 
international, and, I mean, every gate in every place has 
international wings. The airports are saying, look, where are 
you going to put this stuff? It depends how we redo the 
airport. So some of them have gone ahead and had to make 
certain assumptions.
    The different airports are jammed at DHS clearance, 
different ones where you check in, different ones at the gate. 
There is no uniform system that is going to be easy. Our 
indecision here has complicated that.
    I personally feel that the data is the responsibility of 
the Government. What I have--and as we have had these hearings, 
the airlines have pointed out that, yeah, I get some of my 
tickets on-line, some of them I do at a kiosk, some of them I 
do at the manual check-in, particularly if it is at the last 
minute.
    What I am having trouble understanding is why in a 
Government interconnected system in the computer era we can't 
have an automatic pop-up that feeds in, whether you are going 
on-line or at a kiosk or through the airlines, that says you 
have a problem, and then it moves.
    Why are we spending so much time arguing about the method? 
Because it could be done by the airlines if the data is in the 
Federal Government, but there is a flag if there is a problem, 
and then it kicks over. What is the problem with that?
    Mr. Mocny. Well, you certainly outlined a series of the 
challenges that we are faced with.
    If I can somewhat break that down, I mean, the scenario 
that you paint basically says that all of these 70-some-odd 
airports from which people can leave internationally from are 
not all the same size. They are different configurations. They 
are different locations where TSA can be present. Some can 
leave from various gates, as you outlined.
    So the thinking was, and given the time frame that the 
Congress had given to us of June 2009, we are going to have to 
use existing infrastructure. We can't make it up in the time. 
We can't put departure control booths, like we have in Europe 
and Asia. We don't have the personnel to automatically stand 
these situations up.
    So the thinking behind it was that the airlines today are 
required to validate the information on the passport. Anybody 
leaving internationally, whether you check in on-line at home 
or you check in at the counter at the airport or you go through 
TSA and check in perhaps at some point beyond that in the gate 
area, wherever else you might do it, or transfer in the gate 
area, the airlines are the ones that are going to have to 
validate that individual's passport information.
    Given that fact and given the fact that the airlines are 
required to submit manifest information to us, we were of the 
mind that it was that process, that known process, so as least 
disturbing to the traveler so that they don't get confused of 
where am I supposed to go, something different than what I am 
used to, that that known process is the best place to capture 
the information.
    The airlines are required, as I said, to capture the 
passport information. They are required to submit manifest 
information. So what we are asking the airlines to do is append 
to that manifest biometric data. Given the time frame, it seems 
to us to be the most efficient way of dealing with 
biometrically verifying the individual.
    So, given the complexity you outlined, the various 
different airports, the various gates, the various ways in 
which someone can go through a different airport, the known 
process, what is known, the known process is someone goes from 
point A to point B and then gets on-board the plane.
    It is through those various touch points that the airlines 
have the most control of the individual with respect to 
information that they are required to give. So that is why we 
have the proposed rule written as we do.
    Mr. Souder. If we have more questions, I have a follow-up.
    Ms. Sanchez. We will do a second round.
    Ms. Harman, are you ready for 5 minutes of questioning?
    Ms. Harman. Yes. Thank you, Madam Chairwoman.
    Welcome to our witnesses.
    I was a member of the National Commission on Terrorism, 
which wrote a pretty lengthy report before 9/11. One of the 
things that we highlighted was our flawed visa system. We were 
focusing mostly on visas to study in the United States. But 
there is no question that on 9/11 our visa system was exploited 
by people who wanted to kill as many of us as possible.
    So I care a lot about this, and I care a lot about doing it 
right. I commend you for holding the hearing, and I commend our 
witnesses for struggling with some good answers.
    The 9/11 Act enables the Secretary of Homeland Security, in 
consultation with the Secretary of State, to increase 
membership in the Visa Waiver Program if certain criteria are 
met. That is why we are having this conversation.
    One of them is the ability to get your arms around who is 
leaving our country. That is a critical part of the Visa Waiver 
Program, because if we don't know who leaves, we aren't having 
a program that is granting temporary rights to visit the United 
States.
    So I have been listening to this conversation. I understand 
that there are all kinds of problems with technology and time 
and resources and people, but it doesn't seem to me that the 
right answer is to say, oh, the airlines, who are struggling 
with incredible fuel costs and survival, ought to take on this 
project.
    My question is whether you have thought as creatively as 
possible. For example, if the kiosks in airports where you get 
your ticket--and maybe this has been explored, Madam 
Chairwoman; I apologize if it has--where you get your ticket 
that also has some other feature that included, you know, push 
here for entering biometric data, and you had to do this on 
entry and exit, then you would have that data, and the airlines 
would just verify that the ticket was properly embossed and had 
this little box checked.
    Why wouldn't that be an answer to this problem?
    Mr. Mocny. Thank you for the question.
    That may very well be an answer to the question. In fact, 
what we have told the airlines is that we don't really care how 
or where you collect the information. It might be at the 
counter for those people who are checking baggage. It might be 
at a kiosk for those people who use a kiosk. It might be at the 
gate. It could be in one of the lounges.
    So we are agnostic as to where the biometrics are collected 
by the airlines. We are simply saying that, as part of this 
departure process, collect that biometric, append it to the 
departure manifest, and then send that information to us.
    Ms. Harman. Well, as I am thinking about this, I wasn't 
assuming they would bear all the freight for putting this 
feature on the kiosk. I think it is a Federal responsibility--
it certainly is under the 9/11 Act--to have this information.
    So why couldn't you put this feature on kiosks, either the 
ticket-printing kiosks or some other easy-to-use piece of 
technology at the airports?
    Mr. Mocny. I think the short answer is, ma'am, that we 
don't have the funding for that. So we don't have the dollars 
to do the up-front costs of putting out the actual devices 
themselves.
    Mr. Harman. How much would this cost?
    Mr. Mocny. Our estimates range somewhere in the $60 million 
amount for the deployment of biometric exit at all the 
airports. That is a rough figure, and I wouldn't want to be 
quoted on that for the end of the day. But it is approximately 
what we determined a couple of years ago. It might be as high 
as $70 million or more.
    But, again, we have broken down the costs in the NPRM, so I 
would, I guess, use that as the definitive. We did put several 
alternatives, and kiosks are in there. We did cost these out 
according to the cost-estimating processes, did it over 10 
years. So that is the best place, I think, to determine what it 
really would cost us to do the work.
    Ms. Harman. Well, I don't want to minimize the value of $60 
million or $70 million, but I think the cost of having--let's 
just be bold about this--another terrorist attack because this 
program has been abused are a lot greater than $60 million or 
$70 million. I don't think it is fair to have the airlines bear 
the whole freight. I do think it is a Federal responsibility to 
make sure that our immigration laws are observed properly.
    Madam Chairwoman, I am glad you are pushing on this. I 
think we need better answers here. If we have to give up this 
Visa Waiver Program, which I would hate to do, because we can't 
implement it properly, that may have to be one of the costs 
here.
    I yield back.
    Ms. Sanchez. I thank the gentlewoman from California. I 
know you have a lot of experience in that. Again, there are 
many people on this committee who see the airlines struggling 
and wonder why we are pushing it off to them when really it is 
a Government responsibility.
    Mr. Souder, you had a couple more questions to ask before 
we get to the second panel.
    Mr. Souder. Yes, I wanted to follow up directly with that. 
Because the question here is who should bear primary 
responsibility for what is, in effect, Government data 
collection and implementation.
    In looking at the options, did the administration ever 
propose to Congress that we pay this?
    Mr. Mocny. I don't believe that we submitted an air exit. 
We have for the land border, but we have not submitted as part 
of the President's budget an air exit budget.
    Mr. Souder. Because, in the question, every kiosk wouldn't 
have to handle this. You could have a principle that you are 
not going to be able do this on-line. If you are going to exit, 
you are going to have to go to a kiosk.
    You had an alternative for--I remember at Detroit, in their 
pilot program, even though the kiosks were tried at several 
locations, it wasn't necessarily easy to find them.
    Mr. Mocny. Correct.
    Mr. Souder. I understand that challenge. It would be easy 
to find them if you said, this is international travel, this 
kiosk is cleared for this type of thing. At some airports it 
would be more expensive. For example, in my hometown of Fort 
Wayne, it wouldn't be very expensive.
    You could even have in the smaller airports, where they 
have a lot of cooperative airline type of things already, have 
one kiosk that--because they are already doing all kinds of 
partnerships, that clears in if you are clearing international.
    The question is, is that I don't believe, and we are 
finding this in several categories, that in order for the 
Government to save money, we merely cost-shift Government 
responsibility. We are seeing this in veterans health care. Oh, 
we are going to send them to the bigger cities. So even though 
gas mileage has gone up immensely, we are not going to give 
them local health care, we are going to make the veteran pay 
the cost of driving to a major city, we are going to make the 
veteran get the motel overnight. That saved the Government 
money, but it didn't save the individual money. We are seeing 
this cost-shifting occurring in general.
    Look, I am a believer in this program. I am a believer that 
we need to have background checks. I am concerned about 
penetration in the European Union. Based on public information, 
Qadhafi clearly was trying to put people in the Caribbean as 
latent people to do his work, and try to get E.U. citizenship 
to penetrate. I have concerns about the program. But our 
international travel will drop. Our ability to trade will drop. 
In this type of world, it is not acceptable. We have to move 
ahead with these kind of programs.
    But it has to be a fair way to do it, so we don't sink our 
airlines. I am disturbed that we are not hearing some kind of a 
compromise, creative way to do this.
    Mr. Mocny. I think it is fair to say that, again, we are 
letting the APA, the Administrative Procedures Act, kind of 
play out. We have not yet published a final rule. So I 
appreciate the comments, and we are certainly taking the 
comments, and those are not--I think many people share your 
concerns. So, as we move forward with the decision to put a 
final rule out there, all these comments have to be taken into 
consideration. So while I can't say for sure what that will 
look like, those concerns have been voiced, and in writing, and 
we are hearing them from you.
    So it is, as I said, a challenge for us. We have the June 
2009 time frame. We want to be compliant with the congressional 
mandates. I think we all recognize that we don't have the same 
type of departure control systems that many European and Asian 
countries do. So given those challenges, it was, ``Well, gosh, 
then what is the best and most efficient and effective process, 
given that reality?'' That is the fact that, since we don't 
have the budget for it, we could not commit to a time frame of 
June 2009, therefore we used existing infrastructure.
    If I could, just to clarify my comment to Congressman 
Harman here, and I would like to use this for the record, $1.3 
billion is the Government cost for kiosks, not the $60 million 
to $70 million. That is kind of an old number that we had for 
just buying kiosks out there. There are infrastructure costs, 
there is people to staff them. So $1.3 billion is what we have 
in the NPRM cost factor.
    Mr. Souder. But that wouldn't necessarily be the cost of 
operating, because if you have kiosks--and depending upon the 
capability of the kiosk, we are really talking about software 
upgrades. If you used existing kiosks, you are basically 
talking about software upgrades inside kiosks that are already 
hooked up, that are already there.
    Can I request on behalf of the committee that we get some 
kind of an estimate or understanding of whether that figure was 
fundamentally, you know, putting hard wire in? What does that 
figure mean, as opposed to try to use existing infrastructure 
and adapt the software?
    Ms. Sanchez. We will ask Mr. Mocny to provide maybe a 
breakdown of whatever the figure is, the $1.3 billion or 
whatever you think it is at this point, and what that entails.
    Mr. Mocny. We can certainly do that.
    That is new kiosks, Congressman Souder. It is new kiosks, 
with enough to be out there so people can't miss them. It is 
people to man and staff those booths.
    So it did not contemplate taking the existing kiosks and 
putting what might be called a sidecar on there, which would be 
a biometric verification. So that was not considered as part of 
this. It was kind of a clean, new kiosk, with new software, and 
look and feel of the whole process.
    Ms. Harman. Would the gentleman yield to me?
    Mr. Souder. Be happy to.
    Ms. Harman. I would just suggest that that submission also 
include other ways to achieve the same function. It doesn't 
have to be a kiosk. There might be three or four flavors here, 
so that we can assess what the range of costs is.
    Obviously, we are not interested in doing the most 
expensive thing here. We are interested in getting a result.
    I yield back.
    Mr. Mocny. I appreciate that. Again, I think the NPRM was 
fairly clear. We have four alternatives, which envisioned a 
series of alternatives, including mobile devices, as well, that 
the airlines might be able to use.
    So it did look across the plane, as far as various 
technologies that are out there, but it did make some 
assumptions in the proposed rule, that the airlines would be 
the ones paying for and maintaining the system.
    Ms. Sanchez. My suggestion to you, Mr. Mocny, would be that 
this committee--and I would assume once we educate the rest of 
our Members of Congress here--that we are not very interested 
in passing along these cost to the airlines at this point. So 
it would be wise to maybe start taking a look at costing out 
some of the alternatives either that Mr. Thompson and I 
proposed to you in our information we sent over or maybe some 
of the comments from this committee.
    Because I have a feeling that if you decide to move forward 
with the rule that would require the airlines to take on the 
financial responsibility of doing this, you may get blocked 
pretty quickly by this body.
    Mr. Souder. Could I ask for one further clarification?
    Ms. Sanchez. Yes, Mr. Souder.
    Mr. Souder. Because part of this is a question of how much 
of the burden falls to people who don't use air travel? All 
taxpayers of the United States. How much falls to the people 
who use air travel? Then how much does the general society 
benefit in their jobs and so on from the air travel? Because 
everybody benefits some. What is the trade-off here, in 
addition to this?
    But when you said you looked at different alternatives, my 
understanding is, from what you said, you didn't look at a 
blended alternative, where you used existing kind of capability 
but the Government would enhance it. Did any of your 
alternatives include that? Or was it kind of like either/or?
    Mr. Mocny. No, the four alternatives other than the 
proposed rule, just very quickly, we said at the check-in 
counter, where the airlines pay for it, so that is purely 
check-in counter; at the security checkpoint, at the TSA, where 
the Government pays for that; and then at the location where 
the carriers want to do it, so at the gate or at a lounge or 
anywhere else in the airport, and we pay for it, the Government 
pays for it; and then the fourth was the kiosk solution.
    So we did look at a combination of we pay for, they 
implement; we pay all for. That is where, again, just according 
to how the APA works out, we chose the most effective, least 
costly alternative. As you indicated, the kiosk for us, in our 
experience, wasn't the most effective, and so we went to then 
the most effective----
    Mr. Souder. Let me clarify. Least costly for the 
Government?
    Mr. Mocny. Correct. Well, no, no, no, least costly all 
across the board. The kiosk was, in fact, the least costly, but 
it wasn't the most effective, because people weren't checking 
out, therefore people wouldn't check out. So which one was the 
next least costly that was effective? That was the carrier 
implements and carrier pays for. That was the least cost. It 
started getting higher with the Government costs, Government 
TSA, and others. So that is simply how the rule worked out.
    Ms. Sanchez. Thank you, Mr. Mocny.
    I have another question with respect to the Electronic 
System for Travel Authorization. How is DHS planning for 
countries that may not be Internet-savvy?
    Mr. Barth. Thank you. That is a question we have addressed, 
I think, pretty thoroughly in our plans for the ESTA rollout. 
You have countries like Estonia, which expects to be in the VWP 
program this year, that is extremely net-savvy, very high 
bandwidth and Internet user country. You have others that are 
not at that position at all. We expect over time to roll out 
capabilities to enable ESTA to be applied for at the time of 
purchasing a ticket through the airline, at the time of 
purchasing a ticket through a travel agent, or any other way 
that a traveler generally arranges to fly, that they will have 
a linkup to that ticket purchasing as the way to acquire an 
ESTA.
    Ms. Sanchez. So if I am in a visa waiver country and I do 
ESTA and I go to my airline agent, my travel agent, your 
assumption is, because I don't have a connection at home, I am 
going to get it at the time that I am purchasing my ticket, I 
am going to give them my biographic information, et cetera.
    Mr. Barth. That is correct. That is what we call a third-
party application for the ESTA. The current design of the 
system allows for that. I can't give you a specific time when 
that particular capability will be introduced, but it is part 
of the rollout plan.
    Ms. Sanchez. When the program becomes voluntary on August 
1, 2008, what are the steps that have been taken to ensure that 
foreign countries and their citizens are aware that this is a 
program and that it will actually become a requirement?
    Mr. Barth. That is a very good question, Chairwoman. We 
have already accomplished more than a dozen briefings in 
different foreign capitals around the world. We have been in 
media interviews around the world to brief, through the media, 
the public as to what this new requirement will be as it comes 
along.
    At over 24 U.S. Embassy Web sites, when you go to obtain 
information on applying for a visa, we have a link to ESTA and 
what it will be like and what will be required when. We expect 
to ramp up, as we get closer to the August, September time 
period, advertisements in travel magazines, Travel & Leisure, 
you know, ways that will reach the entire general public.
    I think we have an excellent public relations rollout 
campaign that is funded adequately to make sure the word gets 
out.
    Ms. Sanchez. Thank you, gentlemen. Thank you so much for 
being before us. You are excused.
    We will ask the second panel to come forward.
    Our first witness is Douglas Lavin, Regional Vice President 
for North America, International Air Transport Association. 
IATA represents 230 airlines, comprising over 90 percent of the 
scheduled international air traffic, and Mr. Lavin joined IATA 
after the Federal Aviation Administration.
    Welcome.
    Our second witness, Greg Principato, is president of the 
Airports Council International--North America, which represents 
local, regional, and State governing bodies that own and 
operate commercial airports in the United States and Canada. 
His involvement with aviation and transportation infrastructure 
spans more than 25 years.
    Welcome.
    Our final witness, Nathan Sales, is an assistant professor 
of law at George Mason University School of Law, where he 
teaches national security law and administrative law. Before 
coming to George Mason, Mr. Sales held positions in the 
Department of Homeland Security and the Department of Justice.
    Welcome.
    Without objection, the witnesses' full statements will be 
inserted into the record.
    I will ask Mr. Lavin to summarize his statement for 5 
minutes or less.

  STATEMENT OF DOUGLAS E. LAVIN, REGIONAL VICE PRESIDENT FOR 
     NORTH AMERICA, INTERNATIONAL AIR TRANSPORT ASSOCIATION

    Mr. Lavin. Thank you, Madam Chairman, for allowing us to 
share the views of the International Transport Association on 
the 9/11 Act's Visa Waiver Program. IATA considers the Visa 
Waiver Program to encourage millions of people to visit the 
United States that might otherwise have not done so. IATA and 
its 78 members that serve the U.S. market strongly support the 
VWP and initiatives to protect its continuing viability and 
expansion to additional countries.
    Given this, we are very concerned that DHS is prepared to 
hold this important VWP hostage to its goal of forcing the 
aviation industry to implement a US-VISIT Exit program.
    I am here today representing IATA and its member airlines. 
However, I am also here on behalf of the 21 U.S. regional and 
global aviation, cruise line, and tourism associations that 
have joined IATA in our strong opposition to the US-VISIT Exit. 
This global coalition has fundamental concerns about the 
program as envisioned, many of which you have outlined in your 
previous questions.
    First, IATA believes that border and immigration controls 
are core Government responsibilities that DHS should not be 
allowed to offload to the private sector. Simply arguing that 
fingerprints are another APIS field for airlines to fill out is 
both illogical and insulting. Airline employees cannot be 
drafted involuntarily to support what amounts to a DHS 
fingerprint dragnet.
    Second, DHS does not have the authority to require airlines 
to design, implement, manage, and finance the US-VISIT Exit 
system. Since 1996, Congress made it clear that it wanted the 
U.S. Government to implement a system to better track people 
arriving and departing our country. Congress never gave DHS the 
authority to transfer this obligation to the private sector. We 
also believe that this program, as envisioned, would violate 
U.S. bilateral obligations, international law, and consumer 
privacy protection laws.
    Third, a centralized Government collection process similar 
to that already trialed by DHS is vastly superior to a proposal 
that the airline industry collect biometrics as part of the 
current passenger processing system. DHS's own regulatory 
impact analysis favors Government-led and -financed programs.
    Fourth, we believe that DHS has significantly 
underestimated the cost of this program to the aviation 
industry. Rather than $3.5 billion over 10 years, IATA 
estimates that it will cost airlines a total of $12.3 billion 
over that time period. Most of that cost increase is driven by 
the requirement that airlines deploy secure networks and 
storage facilities for what we anticipate will be between 350 
and 800 times more data than is currently collected by APIS.
    Fifth, as was noted earlier, industry is not in a position 
to fund the proposed US-VISIT Exit program. Over the next 12 
months, IATA members could see an additional bill of $99 
billion in fuel above that which they paid last year. Already, 
in 2008, we have seen 24 airlines go bust, a number we expect 
to grow substantially following the end of this summer travel 
season.
    Whether it is $3.5 billion or $12.3 billion, the airline 
industry simply cannot afford to pay this bill. To require them 
to do so will only hasten the arrival of airline bankruptcies, 
reductions in international service, and resulting damage to 
the U.S. and global economy.
    Madam Chairwoman, US-VISIT Exit would represent the sixth 
separate data exchange program that has either been implemented 
or announced since 9/11. From PNR Access and APIS to the fast-
approaching APIS Quick Query, TSA's Secure Flight and, most 
recently, ESTA, carriers are being forced to send essentially 
the same data about passengers to various DHS agencies at 
different times via nonaligned transmission formats.
    Today, governments and the aviation industry are challenged 
more than ever to come up with the resources necessary to 
protect our infrastructure from threats. We can no longer 
tolerate Government's implementing different security programs 
to gather the same information on the same passengers in 
different ways. This is particularly galling when, as here, 
these programs are all being pursued independently by different 
agencies in the same Department.
    We urge the Congress to direct DHS to harmonize all their 
passenger data programs to promote efficiency and reduce costs. 
The airlines would be pleased to consult with DHS on the best 
way to bring these programs together. Biometric identification 
should only be discussed in the context of developing such a 
comprehensive and consistent passenger screening system.
    Then, finally, before I close, I would like to note for the 
record that, as you heard from Mr. Mocny earlier, DHS has not 
asked for the funding for this program. So absent congressional 
direction, they will implement a program and require the 
airlines to fund this program. So I urge you to consider very 
quick action in this regard.
    Thank you.
    [The statement of Mr. Lavin follows:]

                 Prepared Statement of Douglas E. Lavin
                             July 16, 2008

    Madam Chairwoman, distinguished Members of the subcommittee.
    My name is Douglas Lavin. I am the Regional Vice President for 
North America for the International Air Transport Association (IATA).
    IATA represents 228 carriers engaged in scheduled international 
transportation of passengers, mail and cargo by air. Seventy-eight of 
those airlines fly into and out of the United States on a scheduled 
basis. All of the major U.S. network carriers are members of IATA.
    IATA appreciates the opportunity to brief the subcommittee on 
IATA's position relating to the proposal by the U.S. Department of 
Homeland Security (DHS) to require commercial air carriers to collect 
biometric data from certain foreign citizens upon exit from the United 
States at airports of departure (US-VISIT Exit). IATA and its member 
airlines are directly impacted by this DHS proposal.
    IATA and its member airlines are strongly opposed to an industry-
implemented and funded US-VISIT Exit program for the following reasons:
    1. Border protection and immigration are core U.S. Government 
        responsibilities that cannot be outsourced to private industry;
    2. DHS does not have the legal authority to require airlines to 
        fund this program;
    3. Before introducing a new biometric collection program, DHS 
        should harmonize its five separate and duplicative passenger 
        data collection procedures;
    4. The centralized collection by DHS of biometric data at a single 
        point in the passenger flow is more efficient, secure and cost-
        effective than making significant amendments to every point of 
        airline/passenger contact;
    5. DHS has significantly underestimated the cost associated with 
        airlines designing, implementing, running and maintaining a 
        biometric collection process; and,
    6. Airlines are not in a financial position to fund this program.

                              INTRODUCTION

    Since 1996, Congress has on numerous occasions mandated that the 
Federal Government develop an entry and exit control system to collect 
the records of arrivals and departures of non-U.S. citizens leaving the 
United States. DHS' Notice of Proposed Rulemaking on US-VISIT Exit 
(``NPRM'') \1\ lists seven different laws since 1996 that call for the 
creation of an entry/exit program. In January 2004, DHS implemented US-
VISIT as a Government-owned and -operated system and has fingerprinted 
over 100 million visitors entering the United States. From 2004 to 
2007, US-VISIT also fingerprinted over 6.5 million visitors exiting the 
United States as part of the US-VISIT Exit Pilot Program. Between 2003 
and 2006, DHS reports allocating $250 million for US-VISIT Exit-related 
efforts.
---------------------------------------------------------------------------
    \1\ Collection of Alien Biometric Data Upon Exit from the United 
States at Air and Sea Ports of Departure; United States Visitor and 
Immigrant Status Indicator Technology Program (``US-VISIT''), 73 Fed. 
Reg. 22065.
---------------------------------------------------------------------------
    Rather than implementing this Government program on its own, DHS 
published an NPRM on April 24, 2008 calling for airlines to design, 
implement, manage and maintain a process to collect fingerprints from 
most foreign citizens leaving the United States by air or sea. The NPRM 
asked the public to provide extensive comments on the feasibility of 
the proposed airline collection process, a detailed review of the cost 
assumptions reached by DHS for this program, and any alternatives to 
the DHS proposed system. DHS denied more than 16 requests for a 
reasonable extension of time to complete these comments, offering 
instead the opportunity for interested parties to testify for 2-3 
minutes in front of a panel of lower-level DHS technical experts.
    Despite having worked on this program since 1996, the NPRM said 
that congressional deadlines make it imperative that DHS ``establish'' 
an Exit system by July 25, 2008 and have it up and running by July 1, 
2009.\2\ As discussed below, there is no congressional mandate that the 
airline industry meet these congressional deadlines. Indeed, it is 
ludicrous for DHS to now insist that the airline industry establish an 
Exit system 90 days after the publication of the NPRM when DHS and its 
predecessor agencies have failed to do so over the past 12 years. 
Equally troubling is the fact that US-VISIT Exit will be only one of 
five uncoordinated DHS passenger data collection processes that has 
either been implemented or proposed by DHS since 9/11.
---------------------------------------------------------------------------
    \2\ According to the DHS NPRM, Section 711 of the 9/11 
Recommendations Act directs DHS to establish an exit system within 1 
year of enactment (July 25, 2007). It also notes that the DHS Secretary 
loses the ability to waive restrictions on the Visa Waiver Program 
(VWP) if it does not have the US-VISIT Exit system operational by July 
1, 2009. 73 Fed. Reg. 22068.
---------------------------------------------------------------------------
    As we demonstrate below, there are insurmountable physical, 
technological and financial challenges that make it impossible for the 
airlines to meet these unreasonable DHS demands. We therefore urge this 
committee and the Congress in general to step in and to prevent DHS 
from continuing to pursue this program as envisioned.
1. Border and Immigration Controls Are Core U.S. Government Functions
    DHS has argued consistently that a US-VISIT Exit program is an 
essential tool in determining whether an alien has overstayed the terms 
of his or her visa. Indeed, in the NPRM, DHS suggests that several of 
the 9/11 hijackers would not have been able to carry out the attacks in 
the United States if a US-VISIT Exit system were in place.\3\ Given 
this statement, it is not surprising that DHS has dedicated significant 
resources to develop and implement the US-VISIT program and, 
additionally, has initiated a 3-year trial of a U.S. Government-
developed and implemented US-VISIT Exit program. We find it illogical 
for DHS to now propose that US-VISIT Exit, which according to DHS is a 
critical immigration control tool, be developed and implemented not by 
the Federal Government, but by untrained, ill-equipped and 
underfinanced airlines and their personnel. This outsourcing of core 
immigration and border control functions to the airline industry makes 
no sense and should be abandoned.
---------------------------------------------------------------------------
    \3\ 73 Fed. Reg. 22066.
---------------------------------------------------------------------------
    The NPRM and senior DHS officials have suggested that the 
collection of fingerprints by airlines is part of the cost of operating 
an airline in the United States and merely an extension of already 
existing data-gathering responsibilities under the Advanced Passenger 
Information System, or APIS program. However, US-VISIT Exit, as 
proposed in the Rule, would place new and unprecedented, onerous 
operational and legal obligations on carriers. Airlines and their 
employees cannot and should not be expected to accept these new 
responsibilities. Airline staff are not trained Government agents 
capable of undertaking law enforcement duties and airlines do not have 
the systems in place to meet the transmission, security and storage 
requirements set forth in the DHS proposal. DHS' own Regulatory Impact 
Analysis (RIA) demonstrates that U.S. Government-led and financed 
alternatives enjoy a better cost-benefit outcome than the carrier-led 
proposals outlined in the NPRM.\4\ These Government-led alternatives 
also optimize data privacy and IT security and, depending on the 
alternative, minimize disruption to the passenger and the carrier. 
Simply passing off a bad proposal as a ``cost of doing business'' is 
not acceptable, particularly given DHS' own regulatory impact analysis.
---------------------------------------------------------------------------
    \4\ Air/Sea Biometric Exit Project Regulatory Impact Analysis, 
April 17, 2008, at 80.
---------------------------------------------------------------------------
2. DHS Does Not Have the Authority To Outsource This Program
    There is no law, regulation, report language or congressional 
suggestion that US-VISIT Exit should be designed, implemented, managed 
and funded by the airline industry. Instead, the language of the laws 
cited by DHS as justification for their effort to outsource this core 
Government function makes it clear that the U.S. Congress intended DHS 
to be responsible for all aspects of the Exit program.
    For example, the Intelligence Reform and Terrorism Prevention Act 
of 2004 (IRTPA), states that ``completing a biometric entry and exit 
data system as expeditiously as possible [was] an essential investment 
in efforts to protect the United States by preventing the entry of 
terrorists.''\5\ It seems logical to assume that had the Congress 
decided that the private sector should bear the cost and responsibility 
for this ``essential investment,'' it would have drafted the law in 
such a way that would expressly and unequivocally reflect that 
intention. In fact, the same law states that ``the [DHS] shall operate 
the biometric entry and exit system . . .''.\6\ The IRTPA does not 
include any language providing for a delegation of this statutory 
obligation in favor of third parties, which would be required before 
any such delegation takes place.
---------------------------------------------------------------------------
    \5\ Public Law 108-458, 3827 (December 17, 2004).
    \6\ Id at 3821.
---------------------------------------------------------------------------
    DHS argues that its authority to require airlines to fund US-VISIT 
Exit stems from Congress' requirement that airlines collect and provide 
DHS specific passenger manifest data under Section 231 of the 
Immigration and Naturalization Act.\7\ However, DHS offers no 
legislative language or history to suggest that when Congress 
authorized DHS to require airlines to collect APIS information that it 
also authorized the collection of fingerprints from outgoing 
passengers. To the contrary, Congress passed separate legislation 
directing DHS (and no one else) to establish a US-VISIT program, 
distinct from the APIS program. IATA strongly believes that the 
inherent differences between the airlines' collection of biographical 
APIS information and the collection and transfer of fingerprints are 
significant enough that specific congressional authorization is 
required before moving forward with this program. Unlike APIS 
information, which is flight-specific, biometric information would be 
stored for up to 75 years and could potentially be used to impose 
sanctions during ``subsequent encounters'' with U.S. Government 
officials.\8\ From a technical, operational and privacy perspective, 
this proposal envisions a totally new collection process that cannot be 
reasonably justified as simply another data element to be collected by 
the airlines.
---------------------------------------------------------------------------
    \7\ 8 USC 1221(c)(10).
    \8\ 73 Fed. Reg. 22067, 22071.
---------------------------------------------------------------------------
    In addition to a lack of any U.S. law authorizing outsourcing of 
this core Government function, DHS' proposal also raises significant 
implications in terms of U.S. bilateral and multilateral obligations. 
From a bilateral perspective, IATA believes that the transfer of 
responsibility outlined in US-VISIT Exit is contrary to the spirit of 
most U.S. air services agreements as it would, in effect, compel air 
carriers operating in this country to provide additional services and 
facilities, such as border control, that are an inherent Government 
responsibility. This would have the same effect as imposing 
unreasonable user charges on air carriers, something not allowed under 
our bilateral air agreements. On the multilateral level, ICAO has 
developed standards and recommended practices in the field of 
facilitation (Annex 9) that are binding upon all Contracting States to 
the Chicago Convention. Those internationally agreed provisions 
stipulate that facilities used for clearance controls should be 
provided at public expense.\9\ In contrast, under the DHS proposal, 
carriers would have to procure the space and facilities at their own 
expense to carry out border control duties. Finally, one cannot 
discount the possibility that the DHS program as envisioned would 
violate a number of jurisdictions' data privacy laws, including EU 
Directive 95/46/EC which provides significant protections for 
passengers from this type of intrusive data collection. Further, 
airlines are not in the position to accept the liability associated 
with the collection and storage of this most highly private, personal 
data. Additionally DHS does not address the issue of refusal by a 
passenger--because of data privacy concerns--to give their biometric to 
an individual airline employee rather than to a Government agent.
---------------------------------------------------------------------------
    \9\ Annex 9, Facilitation, Chapter 6, Section 6.58.
---------------------------------------------------------------------------
3. Harmonize the Five Passenger Screening Programs
    Since September 11, 2001, five separate passenger data exchange 
programs have been either initiated or announced by various DHS 
agencies. From PNR Access and APIS to the fast-approaching APIS Quick 
Query, TSA's Secure Flight and, most recently, the Electronic System 
for Travel Authority (ESTA)--carriers are being forced to send 
essentially the same data about passengers to various DHS agencies at 
different times and using non-aligned transmission formats.
    In reality, each of these programs has essentially the same goal--
enabling DHS to know more about passengers arriving in and departing 
from the United States. Unfortunately, as each program has been 
developed independently and has been designed to respond to a very 
narrow objective, little attention has been paid to ensuring that data 
being submitted under one regulation can or is used to satisfy 
requirements imposed under another.
    We believe that it is time for DHS to reevaluate and rationalize 
its regulatory structure relating to passenger data exchange program 
requirements. The potential for up to five wholly separate programs 
designed to collect essentially the same data concerning the same 
passengers simply cannot be justified in today's environment of linked 
systems and instant communication. For the air transport industry, the 
costs--in terms of program development and operational impact--can no 
longer be borne at a time when both U.S. and foreign-flagged carriers 
are struggling for economic survival.
    It is now time for a change in approach. We implore DHS to join 
with the industry to optimize and consolidate existing passenger data 
exchange systems and to ensure the most efficient use of carrier 
provided data, instead of continuing to introduce entirely independent 
niche programs. Biometric identification should only be discussed in 
the context of developing such a comprehensive passenger-screening 
rule.
4. Centralized Collection by DHS at a Single Point in Passenger Flow
    Despite the fact the DHS RIA favors a Government biometric 
collection system, DHS proposes to require airlines to include this 
collection as part of the passenger check-in and/or boarding process. 
DHS justifies this conclusion in part by indicating they found it 
difficult to collect biometrics effectively during their 3-year US-
VISIT Exit Pilot program. However, even a cursory review of the impact 
an Airline-implemented US-VISIT Exit program would have on airline 
passenger processing demonstrates that the introduction of biometric 
collection during the existing passenger check-in and boarding process 
would have significant negative impact on international air travel:
  <bullet> Airline check-in desk.--IATA estimates it will take at least 
        1-2 minutes to collect a set of fingerprints, increasing 
        processing time by up to 50 percent for those affected by the 
        requirement and thereby lengthening line wait times for all 
        passengers, regardless of nationality. Additionally, this delay 
        raises airport capacity concerns and could result in increased 
        security threats to passengers in the non-secure area of the 
        airport.
  <bullet> Boarding gate.--Airport boarding gates are not designed for 
        the collection of additional passenger information. Adding any 
        additional processes, such as biometric collection, would 
        result in unacceptable delays.
  <bullet> Kiosk check-in.--IATA and its member airlines have spent 
        millions of dollars in recent years to automate the check-in 
        process. Self-service check-in kiosks are increasingly the norm 
        at U.S. airports, including for use by international 
        passengers, and do not require the need for intervention by 
        airline staff. Introduction of a biometric collection process 
        here would disrupt the efficiency gains resulting from this 
        self-service process.
  <bullet> Remote check-in.--Today, as a result of airline technology 
        investments and Web access, a growing percentage of passengers 
        (domestic and international) check-in online, check their 
        baggage via a common airport collection site, and interact 
        directly with airline personnel only when presenting themselves 
        for boarding at a gate. Requiring airlines to collect biometric 
        information as part of this process will negate the positive 
        impact self-service check-in has on the airport environment, 
        the passenger experience, the efficiency of international 
        aviation and U.S. competitiveness in that system.
    DHS should implement a system, under Government control, that 
allows for the collection of biometrics at a single point in the 
passenger flow. A Government-run biometric data collection process 
should utilize the existing infrastructure already in place at the 119 
U.S. Airports where US-VISIT arrival processing occurs. We believe 
there are two alternative approaches that DHS can consider in this 
regard. In each of the following scenarios, additional benefits ensue 
once DHS consolidates its internal data systems to provide for real-
time response.
            Central Kiosks
    As tested over a 3-year period, centrally located US-VISIT Exit 
registration kiosks in each of the 119 airports where US-VISIT is 
active today would provide for fairly widely disbursed collection of 
biometric data, and would respond effectively to concerns that 
biometrics should be collected only at the airport from which U.S. 
departure occurs. In addition to fixed kiosk installations, this method 
could also be supplemented by mobile registration facilities that could 
be located immediately adjacent to international departing flights. A 
centralized collection is efficient in many ways--the number of 
collection points is vastly reduced, thus providing a secure, cost-
effective mode of data collection.
            TSA Security Screening Points
    Another option would be to incorporate biometric data collection as 
part of the TSA Security Screening Point activity. There are several 
benefits to this approach:
  <bullet> TSA Infrastructure is already in place at all airports;
  <bullet> All persons entering the aviation system at a U.S. airport 
        could be checked;
  <bullet> Collection at TSA Security Screening locations at all 
        domestic and international airports, or at least in the 119 
        U.S. airports where US-VISIT is currently operating, would 
        spread the impact of data collection across more airport 
        facilities;
  <bullet> Final APIS (or AQQ) manifests would confirm actual 
        departure.
    IATA believes that either approach described above effectively 
responds to the congressional mandate, which is to implement a 
biometrically based entry and exit system that can identify those who 
have violated the terms of their visas.
5. DHS Has Significantly Underestimated the Cost of Implementing This 
        Program
    The US-VISIT Exit NPRM estimates that carriers would incur costs 
ranging from $3.5 billion to $6.4 billion to fund the proposed US-VISIT 
Exit program. Unfortunately, DHS does not offer any methodology or 
expense categories to fully justify their calculations.
    IATA has worked with our member airlines, network service providers 
and hardware manufacturers to scope out the cost of both the NPRM and 
the additional requirements set forth in the associated RIA. IATA 
believes that the proposed rule could cost the airline industry as much 
as $12.3 billion over 10 years. This represents an increase of 
approximately $5.9 billion above the highest 10-year cost estimate by 
DHS. A complete accounting of IATA's $12.3 billion estimate is attached 
at the end of this testimony.
    One of the critical erroneous assumptions contained in the NPRM is 
the apparent DHS belief that airline networks have the same data 
transmission capabilities as Internet-based networks. In fact, airlines 
maintain or lease highly specialized networks, which are optimized to 
transmit character-based data and are not capable of transmitting 
biometrics. Thus, DHS' assumption that you could simply upgrade 
existing airline networks to support fingerprint transmission is 
incorrect.
    In addition to this fundamental misunderstanding of airline 
networks, we are particularly concerned about three critical costs 
omitted by DHS in the NPRM:
  <bullet> Data transmission.--Under this NPRM, carriers would be 
        required to transmit 350 to 800 times more data to the U.S. 
        Government per flight than is currently being transmitted to 
        support the APIS program. IATA estimates that each year, 
        impacted airlines would have to spend an additional $750 
        million to transmit the additional data.
  <bullet> Dedicated secure networks.--The PIA indicates that DHS will 
        require the airlines to operate secure and encrypted data 
        transmission lines for the fingerprints. Airlines currently do 
        not have this capability between airports and each airline's 
        DCS and overseas data processing facilities. IATA estimates the 
        installation and maintenance of these additional secure 
        connections will exceed $150 million over 10 years.
  <bullet> Specialized secure data warehouses.--The PIA indicates that 
        DHS will also require airlines to operate secure fingerprint 
        storage data warehouses to hold the fingerprints prior to their 
        being transmitted to the U.S. Government. These facilities 
        would need physical security and access controls, back-up 
        capabilities and specialized data encryption hardware and 
        software--costs for which that are not accounted by DHS in the 
        NPRM. We estimate it will cost over $1 billion over 10 years to 
        build, equip, connect and operate these warehouses.
    The DHS regulatory impact analysis estimates that the gross 10-year 
benefits of US-VISIT Exit would be approximately $1.09 billion. Given 
DHS's own estimate of a $3.5 billion cost over 10 years, one must 
question how you could reasonably conclude that DHS has met the 
regulatory requirement for a sustainable cost/benefit analysis. This 
analysis becomes even less sustainable when you consider the 10-year 
cost is likely closer to IATA's $12.3 billion estimate.
6. Airlines Cannot Fund This Program
    As noted above, IATA believes DHS has significantly underestimated 
the cost of the proposed US-VISIT Exit program. However, while one can 
argue whether the cost of the program would be $3.5, $6.4 or $12.3 
billion over 10 years, no one can reasonably argue that the airline 
industry can afford to fund any such U.S. Government program.
    The airline industry is today facing an unprecedented crisis with 
the advent of dramatically increasing fuel prices. IATA airlines are 
expected to face an additional financial burden of $99 billion over the 
next 12 months over our 2007 fuel bill. Furthermore, 24 airlines have 
ceased operations or filed for bankruptcy in the last 5 months, and 
many more are expected not to survive the year. Softening demand has 
also increased the impact of this crisis, and airlines have not been 
able to recoup oil costs in revenue. In the last 4 months, the 2008 
financial forecast for the global industry has swung from a $5 billion 
profit to a $2.3 billion loss. IATA has called on governments around 
the world to refrain from imposing unnecessary and punitive costs on 
the industry. Any additional costs to the industry will only cause 
further, irreparable damage to cost management practices, to bottom 
lines and to the survivability of the industry.
    In the best of times, airlines are limited in their ability to pass 
increased security costs on to their passengers. There is no business 
model one could envision that would allow airlines to pass between $3.5 
and $12.3 billion onto their passengers to support fingerprint 
collection. Instead, if DHS is successful in outsourcing this 
Government program, we can expect this cost to increase the likelihood 
of airline bankruptcy (Chapter 11 and Chapter 7) and a reduction in 
international service from the United States. Today, the international 
airline industry contributes $3.5 trillion, or 7.5 percent, of global 
GDP and generates 32 million jobs. Is this the time to threaten this 
economic engine in order to alleviate DHS of its statutory mandate?

                               CONCLUSION

    IATA appreciates the fact that DHS has been directed by the U.S. 
Congress to implement a system to collect biometric information from 
passengers as they leave by air or sea. IATA also accepts that 
collection of this information could provide some benefit in terms of 
border control. However, IATA cannot accept a proposal that suggests 
that the airline industry should take on this core Government function, 
particularly at a time when airlines are facing a financial crisis 
deeper than has been seen since before 9/11. We strongly urge DHS to 
withdraw this proposal and to work with Congress and industry to find a 
more reasonable solution to meet this border control data requirement. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Sanchez. Thank you, Mr. Lavin.
    Now Mr. Principato for 5 minutes.

   STATEMENT OF GREG PRINCIPATO, PRESIDENT, AIRPORTS COUNCIL 
                  INTERNATIONAL--NORTH AMERICA

    Mr. Principato. Thank you, Chairwoman Sanchez, Ranking 
Member Souder, for the opportunity to testify on behalf of 
Airports Council International--North America.
    We applaud both this subcommittee and the full committee 
for your work on the Visa Waiver Program and oversight of the 
proposed implementation of US-VISIT Exit. The requirement to 
verify the departure of foreign visitors who exit by air is a 
worthy goal that we support. However, we do not support the 
recent DHS proposal that airlines collect the biometrics of 
foreign visitors as they are departing the United States. This 
is an inherently governmental function that DHS should perform 
and fund.
    The implementation of US-VISIT Exit is not only a challenge 
to air carriers; it is a serious challenge to airports. ACI--
North America believes the adoption of six principles would 
create the best approach to a US-VISIT Exit system.
    Principle No. 1: This is a DHS responsibility. Immigration 
and border control functions are inherently Government 
responsibilities. US-VISIT Exit is an immigration enforcement 
program. It should, therefore, be operated and staffed directly 
by DHS on a contractual program similar to the TSA screening 
partnership program.
    Principle No. 2: It should be federally funded. We 
associate ourselves with Mr. Lavin's final comment there. DHS 
must secure additional staffing and funding resources to 
implement the program. Both TSA checkpoints and CBP arrival 
inspections already suffer from understaffing, congestion, and 
often unacceptable wait times. Shifting personnel from these 
functions to US-VISIT Exit will place an unacceptable 
additional strain on an already stressed system.
    Principle No. 3: We believe that collection should occur at 
the final point of departure. This would greatly reduce the 
costs of the program by limiting the number of airports at 
which DHS needs to place biometric collection equipment. DHS 
acknowledges that such a system would reduce the number of 
impacted airports from 450 to 73. Likewise, this will reduce 
the number of air carriers impacted from 268 to 138 and, we 
believe, would be a more effective use of DHS resources.
    Principle No. 4: The collection should occur in a sterile 
area to ensure the security and integrity of the US-VISIT Exit 
system. Conducting the exit process in a sterile area decreases 
the impact on those passengers who are not subject to US-VISIT 
Exit rules and ensures that those passengers connecting to 
their last point of departure from a domestic flight do not 
have to leave the sterile area in order to comply.
    Principle No. 5: There should be consultation with airport 
proprietors and airlines. U.S. airports were not designed or 
constructed to accommodate such a departure process for foreign 
visitors. Cooperation between DHS and the aviation industry is 
vitally important for the success of the program.
    Principle No. 6: We believe that fingerprint collection 
should be accomplished via mobile devices and should not be 
hardwired, which will permit them to be quickly and easily 
relocated should airport or airline operations necessitate a 
change of gate. Many gates are used for both international and 
domestic departures depending on the carrier and the time of 
day, and it is important that the US-VISIT Exit program is able 
to easily respond to changing situations. Mobile devices would 
reduce costs and increase efficiency, as well as minimize the 
impact on airport facilities.
    Also, importantly, we recognize that once US-VISIT Exit is 
implemented, there may be changes to the program based on 
lessons learned. In light of this possibility, DHS should not 
take an approach which will require costly facility changes to 
implement those lessons learned.
    In closing, ACI--North America would urge that DHS 
undertake an extensive public outreach and education campaign 
about the new Exit requirements when the final rule is issued. 
The economic benefits, as you have already discussed, from 
international visitors traveling to the United States are 
significant, and there are political benefits as well. We must 
ensure that US-VISIT Exit is an efficient system that does not 
endanger continued travel and tourism to our country.
    ACI--North America and our member airports look forward to 
working with you as we move forward on this important program. 
Thank you again for this opportunity.
    [The statement of Mr. Principato follows:]

                 Prepared Statement of Greg Principato
                             July 16, 2008

                              INTRODUCTION

    Chairwoman Sanchez, Ranking Member Souder, thank you for the 
opportunity to testify before you today on behalf of Airports Council 
International--North America (ACI-NA). My name is Greg Principato and I 
serve as the President of ACI-NA. ACI-NA represents State, local, and 
regional government entities that own and operate commercial service 
airports in the United States and Canada. ACI-NA member airports 
enplane more than 95 percent of the domestic scheduled air passenger 
and cargo traffic and virtually all scheduled international air traffic 
in North America. In addition, nearly 400 aviation-related businesses 
are also members of ACI-NA.

                          VISA WAIVER PROGRAM

    We applaud both this subcommittee and the full committee on 
Homeland Security for its work on the Visa Waiver Program and oversight 
of the proposed implementation of US-VISIT Exit. Although a majority of 
my testimony today is dedicated toward US-VISIT Exit, it is important 
that I also take a moment to comment on the larger Visa Waiver Program, 
or ``VWP,'' as it is commonly known, which has developed into a vital 
contributor to our Nation's economy.
    To this end, ACI-NA is concerned regarding the potential suspension 
of the Secretary of Homeland Security's waiver authority to expand the 
VWP on July 1, 2009 if the biometric air exit system is not fully in 
place. The Department of Commerce ranks international travel as one of 
the United States' largest exports, exceeding even agricultural goods 
and motor vehicles. This includes money spent by international 
travelers on lodging, food, goods, services, gifts, and recreation. 
Travel receipts for 2006 were $107.4 billion, with more than $50 
billion of that coming from 18 million VWP participants. In fact, of 
the top ten countries in expenditures in the United States, six were 
VWP participants in 2006. While we understand that existing VWP 
countries would not have their privileges revoked should the Department 
not meet the July 2009 deadline, we are concerned that the program 
would not grow. As Assistant Secretary Richard Barth testified on May 
14 before the House Foreign Relations Subcommittee on Europe, the 
economic benefits of the Visa Waiver Program apply to each of this 
country's 50 States and will continue to grow as the program expands.

                             US-VISIT EXIT

    The requirement mandated by the 9/11 Act of 2007 to verify the 
departure of foreign visitors who exit the United States by air is a 
worthy goal supported by ACI-NA. We understand the pressures that DHS 
is operating under to meet the mandate of the 9/11 Act to have a 
biometric exit system in place. Airports are prepared to partner with 
the airlines, with Congress, and with DHS in this endeavor as it is 
vitally important to ensure that there is a system in place to 
determine whether or not a foreign visitor has overstayed the terms of 
his or her visa or other travel authorization.
    However, ACI-NA does not support the Department of Homeland 
Security's (DHS) recent proposal that airlines collect the biometrics 
of foreign visitors as they are departing the United States. DHS should 
perform the inherently governmental function of collecting the 
biometrics, implementing the system, and funding the associated costs. 
Additionally, airlines are simply unable to assume this substantial 
financial burden, especially in the current economic climate. For these 
reasons, it is now more important than ever before that airports, 
airlines, and the U.S. Government work together.
    Additionally, we are concerned that DHS has no current plans for 
implementation of an equivalent biometric exit system at U.S. land 
borders. This will create a problem for visitors who arrive in the 
United States by air but depart via the land border to Canada or 
Mexico. For example, a foreign visitor may arrive in the United States 
by air, travel to Canada by car, and then return to their home country 
by air from Canada. As currently constructed, that visitor would likely 
be flagged as not having properly ``checked-out'' if they return to the 
United States on a subsequent trip. ACI-NA believes it is important 
that before an exit system is implemented, DHS must establish a 
protocol for how visitors in such circumstances could demonstrate their 
compliance with US-VISIT Exit procedures. Without a clear protocol, 
foreign visitors may face delays, confusion, or may be denied entry 
into the United States through no fault of their own. This clearly 
shows we must be conscientious in our approach and ensure that US-VISIT 
Exit does not degrade the travel experience of visitors to the United 
States to the detriment of the U.S. aviation industry, local and 
national economies, and the public image of the United States.

              DHS COLLABORATION WITH INDUSTRY IS CRITICAL

    ACI-NA, along with the rest of the aviation industry, has expressed 
strong concern over the lack of communication that occurred between DHS 
and industry stakeholders during the development of the recent Notice 
of Proposed Rule Making (NPRM) entitled, ``Collection of Alien 
Biometric Data Upon Exit from the United States at Air and Sea Ports of 
Departure.'' It is critical that we return to the level of frequent and 
productive communication that existed between the US-VISIT Program 
Office and the aviation industry during the earlier rollout of the US-
VISIT Exit pilot program as the Department seeks to implement this 
important border security tool.

      AIRPORT PERSPECTIVE/ACI-NA SIX PRINCIPLES FOR US-VISIT EXIT

    The implementation of US-VISIT Exit is not only a challenge to air 
carriers; it is also a serious challenge to airports. We have a vested 
interest in seeing US-VISIT Exit implemented in an efficient, 
effective, and timely manner. Any solution by DHS must therefore be 
pursued in full consultation with airports, airlines, and other 
interested parties.
    Unfortunately, there are no easy solutions to capturing the 
fingerprints of departing foreign visitors at U.S. airports. However, 
ACI-NA believes that the adoption of six principles would create the 
best approach to a US-VISIT Exit system.

                  PRINCIPLE NO. 1--DHS RESPONSIBILITY

    First and foremost, we believe that immigration and border control 
functions are inherently governmental responsibilities. US-VISIT Exit 
is an immigration-enforcement program which would serve to confirm, 
based on biometric information, that foreign visitors to the United 
States depart in accordance with their visas or other authorizations 
for being in the United States. It should therefore be operated and 
staffed directly by DHS or in a contractual program similar to the 
Transportation Security Administration Screening Partnership Program, 
or ``SPP.''

                   PRINCIPLE NO. 2--FEDERALLY FUNDED

    Second, all costs associated with procurement, implementation, 
operation, maintenance, and staffing of the program must be borne by 
the Federal Government, reflecting the national interest of the 
program. DHS must secure additional staffing and funding resources to 
implement the US-VISIT Exit process in order to avoid diverting 
Transportation Security Administration (TSA) or Customs and Border 
Protection (CBP) officers from their current duties at U.S. airports. 
Both TSA checkpoints and CBP arrival inspections already suffer from 
understaffing, congestion, and often unacceptable wait times. Shifting 
personnel from these functions to US-VISIT Exit will place an 
unacceptable additional strain on an already stressed system.

                PRINCIPLE NO. 3--LAST POINT OF DEPARTURE

    Third, the collection of biometrics from departing foreign visitors 
should take place at the airport where the traveler is ultimately 
departing the United States, or what we refer to as the ``last point of 
departure.'' This would greatly reduce the costs of the program by 
reducing the number of airports at which DHS needs to place biometric 
collection equipment and staff to only those with non-stop 
international service. According to DHS, such a system would reduce the 
total number of impacted airports from 450 to 73. Likewise, this will 
reduce the number of air carriers impacted from 247 to 138. By only 
collecting biometrics at the last point of departure, the entire 
process will become more streamlined and consistent, helping to 
eliminate confusion for those visitors who will go through the exit 
process.

                     PRINCIPLE NO. 4--STERILE AREA

    Fourth, fingerprints should be collected from departing visitors 
within the sterile area of an airport to ensure the security and 
integrity of the US-VISIT Exit system. Conducting the exit process in 
the sterile area decreases the impact on those passengers who are not 
subject to US-VISIT Exit rules and ensures that those passengers 
connecting to their last point of departure from a domestic flight do 
not have to leave the sterile area in order to comply.

  PRINCIPLE NO. 5--CONSULTATION WITH AIRPORT PROPRIETORS AND AIRLINES

    ACI-NA believes that it is critical that DHS consult with airport 
proprietors and airlines prior to the determination of specific 
solutions. U.S. airports were not designed or constructed to 
accommodate a departure process for foreign visitors. Such cooperation 
is vitally important for the success of the program not only for 
individual airports but for the entire US-VISIT Exit system.

             PRINCIPLE NO. 6--COLLECTION VIA MOBILE DEVICES

    Finally, we believe that the devices used to collect fingerprints 
should be mobile and should not be ``hard-wired,'' which will permit 
them to be quickly and easily relocated should airport or airline 
operations necessitate a change of gate. Many gates are used for both 
international and domestic departures depending on the carrier and time 
of day, and it is important that the US-VISIT Exit program is able to 
easily respond to changing situations. Mobile devices would reduce 
costs and increase efficiency, as well as minimize the impact on 
airport facilities. Also importantly, we recognize that once US-VISIT 
Exit is implemented, there may be changes based on lessons learned. In 
light of this possibility, DHS should not take an approach which will 
require structural changes.

                               CONCLUSION

    In closing, ACI-NA would urge that DHS undertake an extensive 
public outreach and education campaign about the new exit requirements 
when the final rule is issued. The economic benefits from international 
visitors traveling to the United States are significant, both for 
airports and for the U.S. economy. We must ensure that US-VISIT Exit is 
an efficient and effective system that does not endanger continued 
travel and tourism to our country.
    ACI-NA and our member airports hope to work closely with this 
subcommittee and with the Department on this important program.

    Ms. Sanchez. Thank you, sir.
    Now we will hear from Mr. Sales for 5 minutes or less.

   STATEMENT OF NATHAN A. SALES, ASSISTANT PROFESSOR OF LAW, 
             GEORGE MASON UNIVERSITY SCHOOL OF LAW

    Mr. Sales. Chairwoman Sanchez, Ranking Member Souder, and 
Members of the subcommittee, thank you for the opportunity to 
be here today to testify before you.
    I would like to begin with a few thoughts on the continuing 
need to modernize the Visa Waiver Program. As you know, the 9/
11 Act changed the program in two important ways.
    First, it added a number of new tough security requirements 
to the program. Second, the legislation made it possible for 
certain close American allies to join the program for the first 
time. We have heard today that the administration has begun to 
make great progress in implementing these changes. It should 
continue to do so, and quickly.
    Expectations in the roadmap countries are now extremely 
high.
    Madam Chairman, you asked earlier in the hearing about 
delay. If American policymakers begin to get cold feet, these 
allies justifiably will feel that the United States has pulled 
the rug out from under them. That would be worse than if the 
reforms had never been enacted at all. This is no time to go 
wobbly.
    Diplomatic considerations are important, but to my mind, 
they are secondary. What matters most is national security. 
Until the new security measures are deployed, the Visa Waiver 
Program will continue to represent a glaring vulnerability in 
this Nation's defenses. Consider convicted al Qaeda member 
Zacarias Moussaoui is a citizen of France. Shoe Bomber Richard 
Reid is a Briton. The attempted Heathrow bombers all held 
British passports. Each of them was able to exploit the Visa 
Waiver Program to fly to this country with little, if any, 
advanced scrutiny. DHS needs to act quickly to bring the new 
security requirements on line.
    Next, let me say a few words about the other side of the 
coin, exit. Frankly, exit controls are less vital than entry 
controls. It is more important to know whether we are keeping 
terrorists out of the country than to know whether terrorists 
have left the country.
    So why develop an exit system at all? Well, for starters, 
that is what the law requires. Congress has been calling for a 
system that can track departures from this country at least 
since 1996. In the 9/11 Act, Congress began to turn up the 
heat. DHS is now required to deploy a biometric exit system by 
August 3 of this year. If it fails to do so by the following 
July, it can't add any new countries to the Visa Waiver 
Program.
    Congress has been waiting for US-VISIT Exit a long time, 
and its impatience is understandable. But there are also sound 
policy reasons for exit controls. US-VISIT Exit helps Federal 
officials enforce the immigration laws. If authorities know 
that an alien previously overstayed his welcome in the United 
States, they can stop him if he later tries to return to the 
country. It is also conceivable that officers could use exit 
data in conjunction with other information to track down 
overstays who are still here and have them deported.
    US-VISIT Exit isn't just about immigration; it is also 
about national security. According to the 9/11 Commission, at 
least three of the September 11 hijackers previously had 
overstayed in the United States, including Mohamed Atta, the 
plot's operational ring leader. If border officials had known 
this when those hijackers returned, they might have been turned 
away.
    Finally, I would like to discuss the role of airlines and 
other private sector entities in DHS's new biometric system. My 
sense is the proposal doesn't break a whole lot of new ground. 
Instead, builds on existing legal rules that already direct 
carriers to compile different types of information and to share 
that information with the Government.
    For instance, the law already requires airlines to collect 
and share a passenger's full name, birth date, gender, passport 
number, visa number, and a fairly wide range of other personal 
information. DHS is simply proposing to add another type of 
data to the list, fingerprints.
    It might be appropriate to ask airlines to play a role, but 
that doesn't mean the airlines should be stuck with the tab. 
You have already heard today that the bill for US-VISIT Exit 
could run from $3.5 billion on the low end to as high as $12.3 
billion. That is billion with a ``B.'' In an era of record fuel 
prices and looming airline bankruptcies, it seems gratuitous to 
pile new costs on the travel industry.
    If airlines help the Government track departures, the least 
the Government can do is help airlines foot the bill. There are 
at least as many ways to do that as there are people in this 
room. One approach would be for carriers to offset their costs 
by raising their rates. Or, Congress might authorize carriers 
to impose a separate exit surcharge, something like the 9/11 
security fee. A third option would be for Congress to 
appropriate funds to reimburse airlines' costs.
    Madam Chairwoman, thank you again for the opportunity to 
testify today. I would welcome any questions.
    [The statement of Mr. Sales follows:]

                 Prepared Statement of Nathan A. Sales
                             July 16, 2008

    Chairwoman Sanchez, Ranking Member Souder, and Members of the 
subcommittee, thank you for inviting me to testify on this important 
issue. My name is Nathan Sales. I am a law professor at George Mason 
University School of Law, where I teach national security law and 
administrative law. Previously, I was Deputy Assistant Secretary for 
Policy Development at the United States Department of Homeland 
Security. The views I will express today should not be attributed to 
any past or present employer or client.
    My testimony will discuss the important steps that Congress and the 
administration have begun to take to secure the Visa Waiver Program, or 
VWP, against terrorists who might exploit it to gain entry to the 
United States. Among the most important new security standards are the 
measures that provide DHS with advance information about persons who 
are traveling to the United States from VWP countries. I also discuss 
DHS's efforts to develop an exit system capable of tracking whether or 
not visitors to this country have departed on time. In particular, I 
will examine some of the reasons to deploy exit controls, including 
their potential benefits for immigration enforcement and national 
security. Finally, I will consider what role private sector entities 
such as airlines should play in tracking alien departures, and will 
offer some suggestions to improve the DHS exit proposal.

            I. TERRORIST TRAVEL AND THE VISA WAIVER PROGRAM

    Before turning to the Department's specific biometric exit 
proposal, I'd like to spend a few moments discussing a more general 
issue: Congress's efforts to modernize the Visa Waiver Program and the 
recurring problem of terrorist travel. The VWP has served the United 
States and our allies well since Congress first established it on a 
pilot basis in the late 1980's.\1\ The program was designed to 
encourage travel between this country and our partners, thereby 
spurring trade, economic growth, and cross-cultural interactions. It 
has lived up to Congress's expectations. Originally limited to just two 
members--Japan and the United Kingdom--the VWP was made permanent in 
2000 \2\  and now includes nearly 30 countries, mostly in Western 
Europe but also around the Pacific region.\3\ In 2007, some 13 million 
people entered the United States under the Visa Waiver Program.\4\
---------------------------------------------------------------------------
    \1\ See Pub. L. No. 99-603,  313, 100 Stat. 3359 (1986).
    \2\ See Visa Waiver Permanent Program Act, Pub. L. No. 106-396, 114 
Stat. 1637 (2000).
    \3\ The 27 VWP members are: Andorra, Austria, Australia, Belgium, 
Brunei, Denmark, Finland, France, Germany, Iceland, Ireland, Italy, 
Japan, Liechtenstein, Luxembourg, Monaco, the Netherlands, New Zealand, 
Norway, Portugal, San Marino, Singapore, Slovenia, Spain, Sweden, 
Switzerland, and the United Kingdom.
    \4\ See Government Accountability Office, Report No. GAO-08-458T, 
Visa Waiver Program: Limitations With Department of Homeland Security's 
Plan To Verify Departure of Foreign Nationals 4 (2008).
---------------------------------------------------------------------------
    Despite its successes, the VWP in many ways is a relic of the 
September 10 world. The program suffers from two major flaws. First, it 
slights some of the United States' closest allies in the war on 
terrorism. Countries like the Czech Republic, Estonia, Poland, and 
South Korea have been steadfast partners in America's efforts to keep 
al Qaeda at bay. Yet these and other nations are unlikely to satisfy 
the statutory criteria for VWP membership in the foreseeable future. A 
country is not eligible to join the program unless, among various other 
requirements, it achieves a nonimmigrant visa refusal rate of 3 percent 
or lower.\5\ (A country's visa refusal rate aggregates decisions by 
State Department consular officials on whether to grant visas to 
citizens of that country; it is a rough way of measuring the likelihood 
that a country's citizens might overstay in the United States.) Because 
some U.S. allies' visa refusal rates exceed 3 percent, their immediate 
prospects for membership are dim.
---------------------------------------------------------------------------
    \5\ See 8 U.S.C.  1187(c)(2)(A).
---------------------------------------------------------------------------
    Even more importantly, the VWP's security standards are inadequate 
in an era of global terrorism. The 9/11 Commission has emphasized that, 
for terrorists, the ability to travel is ``as important as 
weapons.''\6\ Yet the VWP was not designed as a national security tool. 
Instead, its traditional focus has been the threat of illegal economic 
migration--i.e., the risk that citizens of less prosperous nations 
might relocate to the United States in search of better financial 
prospects. Moreover, to the extent the VWP does try to measure security 
risks, the manner in which it does is quite imprecise. The program 
screens for threats on a country-by-country basis, not a passenger-by-
passenger basis. In other words, it assumes that citizens of non-
members represent a greater security risk, and that citizens of members 
pose a lesser risk.
---------------------------------------------------------------------------
    \6\ The 9/11 Commission Report 384 (2004).
---------------------------------------------------------------------------
    Experience since 9/11 shows how wrong, and dangerous, those 
assumptions are. The terrorist threat from Western Europe--which 
accounts for the bulk of the VWP's membership--is chillingly real. 
Convicted al Qaeda member Zacarias Moussaoui is a citizen of France. 
Shoebomber Richard Reid is a Briton. The men who allegedly plotted to 
bomb planes flying between London's Heathrow airport and the United 
States held British passports. All of them could have exploited--and in 
some cases did exploit--the Visa Waiver Program to fly to this country 
with little, if any, advance scrutiny.
    Fortunately, Congress and the administration have been working 
together to remedy these shortcomings. Last year, as part of the 9/11 
Act, Congress enacted legislation that adds seven new security features 
to the VWP; it also gives DHS more flexibility to admit countries that 
have not reached the 3 percent visa refusal rate requirement.\7\ 
Critically, DHS has announced its intention to apply the new security 
standards not just to aspiring members--the so-called ``roadmap'' 
countries--but to current participants as well. That seems reasonable 
from a fairness standpoint. VWP members should be subject to the same 
standards regardless of whether they happened to join the program in 
1989 or in 2009. It seems even more reasonable from a threat 
standpoint. Western Europe is home to significant and increasingly 
assertive populations of radicals, and it is here that the new security 
measures have the potential to do the most good.
---------------------------------------------------------------------------
    \7\ See Implementing the Recommendations of the 9/11 Commission Act 
of 2007, Pub. L. No. 110-53,  711, 121 Stat. 266, 339 (2007).
---------------------------------------------------------------------------
    While each of the new requirements is important, my sense is that 
the most vital of all are the ones that provide DHS with more 
information about passengers flying to the United States. Unlike 
ordinary travelers, citizens of VWP members are not required to 
complete detailed visa application forms. They don't participate in 
interviews with consular officials. And there is no requirement that 
they provide fingerprints before traveling. As a result, authorities 
know very little about them before they arrive at a port of entry, 
seeking to be admitted to this country.
    The VWP reforms help close that information gap. For instance, 
Congress has directed DHS to create an Electronic System for Travel 
Authorization, or ESTA. ESTA is modeled on a system pioneered by 
Australia more than a decade ago, and it enables visitors to give U.S. 
authorities certain basic information before they travel--for instance, 
their names, nationalities, passport numbers, and other types of data 
passengers currently provide when they complete a Form I-94 upon 
arrival in the United States. DHS can run this information against 
watch lists of known or suspected terrorists or analyze it to find ties 
between known terrorists and their unknown associates. The 9/11 Act 
also calls on VWP members to share more information about U.S.-bound 
travelers, such as their own terrorist watch lists, airline reservation 
data, and information about suspects who are wanted in those countries 
for serious crimes. By enriching the data available to U.S. border 
officials, the 
9/11 Act enables them to make better decisions about which passengers 
should be allowed to board flights for this country, and which should 
not.

                   II. US-VISIT EXIT: LAW AND POLICY

    Since 2004, the Department's US-VISIT program has overseen the 
collection of biometric identifiers--fingerprints and digital 
photographs--from most aliens who arrive at air or sea ports of 
entry.\8\ In April of this year, the Department issued a Notice of 
Proposed Rulemaking outlining its plan to collect biometrics from 
aliens who are exiting the United States by air or sea.\9\ Under the 
DHS proposal, airlines and other carriers would be responsible for 
taking the fingerprints of departing aliens and transmitting them to 
DHS within 24 hours of their departure. DHS would match the data 
against entry records to verify whether aliens who were admitted to the 
United States left on time.
---------------------------------------------------------------------------
    \8\ See Implementation of the United States Visitor and Status 
Indicator Technology Program (``US-VISIT''), 69 Fed. Reg. 468 (Jan. 5, 
2004); United States Visitor and Immigrant Status Indicator Technology 
Program (``US-VISIT''), 69 Fed. Reg. 53,318 (Aug. 31, 2004).
    \9\ See Collection of Alien Biometric Data Upon Exit From the 
United States at Air and Sea Ports of Departure, 73 Fed. Reg. 22,065 
(Apr. 24, 2008).
---------------------------------------------------------------------------
    Exit controls are not as vital as entry controls. It is more 
important to prevent a terrorist from entering the United States than 
to know whether a terrorist has left. So why develop an exit system at 
all? The short answer is: Because Congress has required one. In fact, 
Congress has been calling for a system that can reliably track the 
departures of foreign visitors for more than a decade. The Illegal 
Immigration Reform and Immigrant Responsibility Act of 1996 directed 
the Attorney General, within 2 years, to ``develop an automated entry 
and exit control system that will . . . collect a record of departure 
for every alien departing the United States and match the records of 
departure with the record of the alien's arrival in the United 
States.''\10\ Congress's most recent instructions came in 2007, in the 
9/11 Act. That legislation set a hard and fast deadline of August 3, 
2008 for DHS to deploy a system that uses biometric data to confirm 
that aliens participating in the Visa Waiver Program have left the 
United States.\11\ The 9/11 Act also forbids DHS from adding any new 
countries to the program after June 30, 2009 if it fails to deploy an 
exit system by that date.\12\ At the risk of understatement, exit has 
been a long time coming.
---------------------------------------------------------------------------
    \10\ Illegal Immigration Reform and Immigrant Responsibility Act of 
1996, Pub. L. No. 104-208,  110(a), 110 Stat. 3009, 3558 (1996).
    \11\ See Implementing the Recommendations of the 9/11 Commission 
Act of 2007, Pub. L. No. 110-53,  711(d)(1)(F), 121 Stat. 266, 345 
(2007) (codified at 8 U.S.C.  1187(i)) (``Not later than 1 year after 
the date of the enactment of this subsection, the Secretary of Homeland 
Security shall establish an exit system that records the departure on a 
flight leaving the United States of every alien participating in the 
visa waiver program established under this section.'').
    \12\ See ID  711(c), 110 Stat. at 339 (codified at 8 U.S.C.  
1187(c)(8)(A)(iii) (``[I]f the Secretary has not notified Congress in 
accordance with clause (ii) by June 30, 2009, the Secretary's waiver 
authority under subparagraph (B) shall be suspended beginning on July 
1, 2009, until such time as the Secretary makes such notification.'').
---------------------------------------------------------------------------
    Apart from the legal mandate that DHS develop exit controls, there 
are sound policy reasons for doing so. One of the principal advantages 
of exit has to do with immigration: An exit system enables the 
Government to verify that visitors to this country have departed on 
time and have not overstayed the terms of their admissions. Federal 
immigration officers could use exit data to locate violators who are 
still in the country and have them deported. State and local police 
could access Federal exit databases to check whether aliens they 
encounter during routine law enforcement activities--for example, 
aliens who have been pulled over for traffic stops--are out of status. 
And if border officials know that a particular visitor previously 
overstayed in the United States, they can bar him from entering if he 
later tries to return to this country.
    While the most obvious advantages are immigration-related, an exit 
system also offers important national security benefits. Vigilant 
enforcement of routine U.S. immigration laws is an effective way of 
detecting and incapacitating terrorist operatives. According to the 9/
11 Commission, at least three of the September 11 hijackers--including 
Mohamed Atta, the plot's operational ringleader--previously had 
overstayed in the United States.\13\ Ziad Jarrah--who would go on to 
commandeer and then pilot United Flight 93--was out of status when a 
Maryland State trooper gave him a speeding ticket just 2 days before 
the attacks.\14\ With an exit system, border officials might have been 
able to turn away Atta and other hijackers when they subsequently tried 
to reenter the United States. And if police had known that Jarrah was 
out of status, they could have taken him into custody in the course of 
a routine traffic stop.
---------------------------------------------------------------------------
    \13\ See The 9/11 Commission Report 564 n.33 (2004) (``Mohamed Atta 
overstayed his tourist visa and then failed to present a proper 
vocational school visa when he entered in January 2001 . . . [T]wo 
hijackers overstayed their terms of admission by 4 and 8 months 
respectively (Satam al Suqami and Nawaf al Hazmi).'').
    \14\ See ID at 253; ID at 564 n.33 (``Ziad Jarrah attended school 
in June 2000 without properly adjusting his immigration status, an 
action that violated his immigration status and rendered him 
inadmissible on each of his six subsequent reentries into the United 
States between June 2000 and August 5, 2001.'').
---------------------------------------------------------------------------
    A few caveats are in order. First, this is an argument for exit 
controls; it is not necessarily an argument for biometric exit 
controls. One could just as easily imagine an exit system that uses 
biographic indicators--e.g., travelers' names, passport numbers, and so 
on--to verify whether foreign visitors have departed on schedule. 
Biometric exit controls probably would be significantly more reliable 
than biographic ones. For instance, it could be difficult to match 
biographic entry and exit records if a traveler uses one passport when 
arriving and a different one when departing. (This could be the case 
with diplomats, travelers with dual citizenship, and others who 
legitimately hold multiple passports, as well as persons who have 
different sets of travel documents for less benign reasons.) Another 
problem could arise if a traveler's biographic data is corrupted when 
keyed into the system--for example, an operator might inadvertently 
type ``George Maosn'' instead of ``George Mason.'' Biometric exit 
controls would reduce the difficulties with matching entry and exit 
records; it's harder to game the system when fingerprints are involved. 
Reasonable minds certainly could differ on whether the additional 
reliability of a biometric exit system is sufficient to justify the 
additional costs. But, since biometric exit is required by law, the 
point is probably moot.
    Second, the benefits of any exit system necessarily will be 
diminished by the absence of exit controls at the land border. DHS's 
decision to focus initially on air and sea is prudent, given the 
presently prohibitive costs of land exit. Yet that choice is not 
without operational consequences. A system that does not capture land 
exits can be expected to generate a significant number of false 
positives. For instance, an air/sea exit system would not record the 
departure of a European traveler who flies to New York, crosses the 
land border into Canada, and returns home on a flight from Toronto. 
Nevertheless, my sense is that deploying a limited exit system is still 
worthwhile, for several reasons. Experimenting with exit at air and sea 
ports might inspire new ideas for tracking departures at land borders. 
Also, many of the travelers who visit the United States under the Visa 
Waiver Program arrive and depart via air. If nothing else, air/sea exit 
controls would be a useful way of verifying departures for this subset 
of visitors.

               III. US-VISIT EXIT AND THE PRIVATE SECTOR

    Perhaps the most noticeable feature of DHS's exit proposal is that 
it asks the private sector to play a prominent role in monitoring the 
departure of aliens from the United States. One's initial reaction 
might be to wonder why air carriers, cruise lines, and other private 
companies are charged with collecting departing visitors' fingerprints 
on behalf of DHS. After all, maintaining control of the border is a 
quintessentially governmental duty; it is indeed one of the most basic 
functions that any government performs. Why should the Department be 
outsourcing that responsibility to the private sector? Moreover, other 
countries that operate exit systems--Japan and South Korea, for 
example--collect data from departing aliens themselves. They do not 
place that responsibility on private entities' shoulders. Why should 
the United States take a different approach?
    On further examination, DHS's proposed reliance on the private 
sector seems justified--subject to an important qualification that I 
will offer in a moment. Part of the reason is legal. Federal law 
already requires private entities to gather a fairly wide range of 
information about the passengers they carry and to share it with the 
Department. For instance, Congress has directed airlines flying to or 
from the United States to collect, and provide the Government with, the 
``full name of each passenger and crew member,'' the ``date of birth of 
each passenger and crew member,'' the ``sex of each passenger and crew 
member,'' the ``passport number and country of issuance of each 
passenger and crew member,'' the ``United States visa number or 
resident alien card number of each passenger and crew member,'' and 
``[s]uch other information as the [Government] determines is reasonably 
necessary to ensure aviation safety.''\15\ Congress also has mandated 
that carriers provide DHS with passenger name record information, or 
PNR.\16\ PNR can include, among other types of data, a passenger's 
phone number, home address, frequent flyer number, seat assignment, 
other names on the reservation, and so on. Seen in this light, the DHS 
exit proposal doesn't break much new ground. It simply adds another 
type of passenger information--fingerprints--to the list of data that 
carriers are already responsible for collecting.\17\
---------------------------------------------------------------------------
    \15\ 49 U.S.C.  44909(c)(2).
    \16\ See ID  44909(c)(3).
    \17\ To be sure, air carriers compile much of this information in 
the ordinary course of business (e.g., passenger names and credit card 
numbers), so the statutory collection mandates do not impose much of a 
burden. However, airlines probably would not compile other types of 
data (e.g., birthdates, passport numbers, and ``other information to 
ensure aviation safety'') in the absence of a legal requirement that 
they do so. Hence there is precedent for asking air carriers to gather 
passenger information that is useful principally, if not exclusively, 
to the Government.
---------------------------------------------------------------------------
    Part of the reason for involving the private sector is logistical. 
Realistically, it's difficult to operate exit controls in any other 
way. American airports simply weren't built with exit in mind. Unlike 
facilities in other countries that operate exit systems, U.S. airports 
typically do not have outbound passport control stations, and it 
probably would be prohibitively expensive to retrofit existing 
facilities with the requisite physical plant. Another unattractive 
option would be to take fingerprints at Transportation Security 
Administration passenger screening checkpoints. Not to put too fine a 
point on it, few travelers look forward to standing in the airport 
security line, and adding exit to the mix would make for an even less 
pleasant customer service experience. Moreover, asking already 
overburdened TSA screeners to collect departing aliens' biometrics 
potentially could distract them from their job of keeping weapons off 
planes. A final alternative would be to require aliens to give their 
fingerprints using kiosks located throughout airport concourses. This 
option has its shortcomings as well. Allowing aliens to check out at 
out-of-the-way airport kiosks--which DHS tried in an early exit pilot 
program--virtually guarantees low passenger compliance.\18\ There are 
no good choices for air and sea exit, but involving the private sector 
might be the least bad.
---------------------------------------------------------------------------
    \18\ See Collection of Alien Biometric Data Upon Exit From the 
United States at Air and Sea Ports of Departure, 73 Fed. Reg. 22,065, 
22,069-70 (Apr. 24, 2008).
---------------------------------------------------------------------------
    It might be appropriate to ask airlines to help make exit a 
reality, but that doesn't mean they should be stuck with the tab. In an 
era of record fuel prices and looming airline bankruptcies, it seems 
gratuitous to pile new costs on the travel industry. Under the 
Department's proposal, airlines are on the hook for, among other 
responsibilities, buying fingerprint scanners, taking prints, and 
sending large data files to DHS. That won't be cheap. DHS estimates 
that the tab could run as high as $3.5 billion over 10 years; other 
knowledgeable observers put the figure at $12.3 billion.\19\ If 
airlines help the Government track departures, the least the Government 
can do is help airlines foot the bill.
---------------------------------------------------------------------------
    \19\ See Spencer S. Hsu, Plan to Fingerprint Foreigners Exiting 
U.S. Is Opposed, Wash. Post., June 22, 2008, at A08.
---------------------------------------------------------------------------
    Such an arrangement could take any number of forms. The most basic 
way to reimburse carriers' exit-related costs would be for them to pass 
their expenses on to passengers in the form of higher fares. While this 
approach has the virtue of simplicity, the airlines may well balk at 
it, sensing that consumers who have already endured several rounds of 
fuel-related jumps in ticket prices might not tolerate yet another 
hike. Another disadvantage is that the costs of the exit system would 
be borne not only by the alien passengers who use it, but by American 
travelers who by definition are exempt from biometric exit controls. A 
second alternative would be for Congress to authorize carriers to 
assess a line-item surcharge, akin to the 9/11 security fee, on foreign 
visitors to the United States. One upside to this approach is that the 
cost of the exit system would fall squarely on those who use it. 
Airlines might find the user fee option unattractive for the same 
reasons as the direct pass-through. But since American citizens would 
not be subject to the exit surcharge, the effects on U.S. airlines' 
customer goodwill probably would be less. A third option would be for 
Congress to appropriate funds to offset carriers' costs. An advantage 
of this plan is that it makes the airlines whole with few, if any, 
consequences for their customer goodwill. An obvious downside is that 
this approach would amount to a subsidy of foreign visitors by American 
taxpayers. The costs of operating exit controls would be borne almost 
entirely by U.S. citizens; the foreign travelers who use the system 
would get a free pass. Of course there are many other options, and each 
will have its own unique advantages and disadvantages. My intention 
here is not to express an opinion on which approach is preferable, but 
rather to highlight the wide range of policy choices available to 
decisionmakers in Congress and at the Department.
    Let me offer one final recommendation. In its current form, the 
exit proposal could engender confusion among travelers. The 
Department's plan gives carriers the discretion to choose the point in 
the departure process at which they will take exiting aliens' 
fingerprints.\20\ This desire to give carriers flexibility is laudable, 
but it virtually assures they will adopt different solutions.\21\ 
Passengers flying out of JFK might have their fingerprints taken at the 
check-in counter, aliens returning home from San Francisco might use a 
kiosk before the TSA screening checkpoint, and visitors leaving Dulles 
might give their prints at the gate. Even more confusion would result 
if different airlines adopted different practices at the same airport.
---------------------------------------------------------------------------
    \20\ See Collection of Alien Biometric Data Upon Exit From the 
United States at Air and Sea Ports of Departure, 73 Fed. Reg. 22,065, 
22,072 (Apr. 24, 2008) (``DHS therefore proposes to permit the air 
carriers latitude in where they collect biometrics from their departing 
alien passengers.'').
    \21\ See ID (``DHS expects that, in some instances, an alien will 
be directed to an air carrier's check-in counter or kiosk prior to 
security screening by TSA . . . In other instances, DHS expects that 
air carriers will choose to collect biometrics from aliens at their 
international departure gates.'').
---------------------------------------------------------------------------
    My suggestion is that Department, in consultation with Congress and 
interested parties from the travel industry, should pick a uniform 
standard on where departing aliens will have their fingerprints taken. 
Perhaps the best option is to do it at the departure gate. If aliens 
give their prints at the ticket counter or a kiosk, it would be 
possible for them to check out but then abscond from the airport 
without actually leaving the United States. It would be more difficult 
for an alien to trick authorities into thinking he has departed if 
travelers' fingerprints are taken as they board their planes. Gateside 
collection probably offers the strongest assurances that aliens in fact 
leave the country.
    Chairwoman Sanchez, thank you again for the opportunity to testify 
this morning. I would welcome any questions you or your colleagues 
might have.*
---------------------------------------------------------------------------
    * Graphic has been retained in committee files.

    Ms. Sanchez. Thanks.
    I am now going to remind Members that they have 5 minutes 
to question our witnesses.
    I will start with myself.
    I wanted to ask Mr. Principato to go over No. 4. You said 
you had six principles. I didn't catch--you were talking about 
the sterile area, and I didn't--you went through it fairly 
quickly, so I couldn't envision what you were proposing.
    Could you go over that one more time for me?
    Mr. Principato. Sure. The idea would be that the 
fingerprint collection would occur not out in the lobby 
someplace but actually occur in the sterile area where you have 
people going to their flights and be part of the travel 
experience that the customer is going through.
    Ms. Sanchez. So it would be after we pass security but 
before you go to the gate?
    Mr. Principato. It could be at the gate. It really depends 
on the airport.
    Mr. Lavin and I have discussed this often. We don't have 
exactly the same view, but depending on the airport, it could 
be at the gate. It could be right after the checkpoint. It 
depends really on the airport. If you did it just at the final 
point of departure, for example, one of the problems with just 
doing it at the checkpoint, let's say you start in Fort Wayne 
or let's say you start in Roanoke or something, you fly to 
Dulles to fly out. You come in to terminal C out there. You 
would have to take the people mover back to where the 
checkpoint is in the main terminal and do it and then go all 
the way back on the people mover back to get your flight, which 
might be just two gates down.
    So that is why we are proposing doing it in the sterile 
area and also giving some flexibility, where it might be at the 
checkpoint in certain places; it might be just beyond the 
checkpoint or in the same footprint, or it might be closer to 
the gate or some other place but in the sterile area so you 
don't get--you don't end up with a backed-up lobby.
    Ms. Sanchez. Great. Thank you for that clarification.
    Mr. Lavin, could you explain what the effects of expanding 
the Visa Waiver Program would be on your industry?
    Mr. Lavin. In terms of the impact, certainly, especially in 
these troubling times, the more visitors we have come into the 
United States, when I think 30 or 40 percent of the world's 
traffic is between the United States and Europe in particular, 
would have a significant positive impact on our industry at a 
time when we desperately need it. So we would do anything we 
can to support it, absent funding a Government program to meet 
those deadlines.
    Ms. Sanchez. If we suspended it, and said Congress would 
suspend that, how do you think it would affect your business?
    Mr. Lavin. Well, we estimate that for every additional 
dollar of the cost of fuel is a $1.6 billion cost for the 
industry. You know how the dollars have been going up over the 
last 6 months. So our estimate--and I don't have any exact 
figures, and we can certainly provide those in written 
response, but our estimate is that every penny counts. If there 
is a cutoff of that, and there is frankly, as you suggested 
before, some retaliation by the other governments coming back 
to us, that would significantly slow down air travel at a time 
when we just cannot afford it.
    Ms. Sanchez. Mr. Souder.
    Mr. Souder. First, I want to thank Mr. Sales, because we 
get down into the nitty gritty, and we have to step back every 
so often and go, why do we want this program?
    Quite frankly, visa programs were a disaster pre-9/11, 
particularly with Saudi Arabia and a lot of the Middle Eastern 
countries, the penetration in the European Union. I thought you 
made a terrific point that the entry is more critical than the 
exit, but it doesn't mean that the exit isn't important.
    Mr. Lavin, the point where you say the Government doesn't 
have a right to oppose this. The Government has a right. The 
Government abuses its rights, that we make businesses collect 
taxes, all kinds of perspective data on safety in addition to 
already data on this type of thing. The Interstate Commerce 
Clause is so broad as to basically any more in this era to 
cover everything, even whether you can comb your hair because 
you crossed State lines. It is so elastic.
    The question is: What is the reasonableness of Government 
to do it, and how we do this?
    Mr. Principato, in looking at the costs, that I wanted to 
pursue, because I don't fully understand this. I am a big 
believer that everything is going to ten fingerprints at some 
point, including domestic travel. The immigration pressures, 
which are interrelated which all kinds of smuggling, which are 
interrelated with terrorism, we are headed there even for 
domestic flights.
    You raised a question of hardwiring--and maybe this is Mr. 
Lavin, too--that, do the airlines currently not have the 
hardline capability that if the Government paid for upgrades in 
the software, particularly if we could get this down to the 73 
airports? I mean, that seems like a logical stick thing, but 
you might have to not just do it at the gate; there may be 
other types of ways to do it. But if we could get the number of 
airports down, because I am certain that the problem is 
greatest, on my question, in the smaller airports. But I would 
assume, the bigger the airport, the more likely there is to be 
something, if not hardwired at each check-in, that at least 
some of the airlines would be hardwired, the bigger ones. There 
would be some way to maneuver this.
    Mr. Principato. I think Doug knows more about how the 
airlines are wired, and I am going to really let him deal with 
that.
    But your point about the cost and the smaller airports. You 
talked about before about Fort Wayne. Tory Richardson does a 
great job there, and I have been with him several times with 
him, and they are working hard to keep the air service that 
they have and expand it. The costs for an airport like that 
would be very difficult to absorb. That is why we proposed the 
last point of departure.
    But I think Doug probably has a more compete answer in 
terms of the technical part of your question. I am still trying 
to figure out how to set the time on my VCRs.
    Mr. Lavin. In terms of the technical side, your questions 
earlier about the kiosks themselves, the existing kiosks. The 
existing kiosks are designed to transfer data and not transfer 
images. Biometrics are images. So the current hardwiring 
between the kiosks, the airline kiosks or the airport kiosks, 
they are owned sometimes by airlines and owned other times by 
airports, does not allow for the transmission of biometrics. 
So, therefore, I would be very interested in Mr. Mocny's 
analysis of that, because I think what they would come out with 
is that they should do it in their own kiosks, their own 
separate kiosks, again, in the sterile area.
    The reason there is an advantage there for the U.S. 
Government on that, and for DHS in particular, is CBP already 
has hardwired at 119 airports to submit fingerprints as part of 
the US-VISIT program. So at 119 airports where there is US-
VISIT, they have the capabilities to transmit biometrics. So we 
would recommend that they put their own kiosk system in place 
in the sterile area. We would like to keep it as far as away 
from the boarding area as possible, but we don't have a problem 
with whether it is mobile or fixed, and use the hardwires they 
already have existing to transmit that data.
    We just don't have that. We also don't have secure lines. 
One of the costs of the $12 billion is we currently do not have 
secure lines that are required under the rule to provide the 
fingerprint data.
    Mr. Souder. So, in my earlier question, this is what I have 
never understood, because the security question wouldn't be as 
great if it was just a popup on the screen. In other words, if 
it could be handled in--because if you are exiting and you 
don't have a security question, we have one question which is, 
how much would it cost to increase the capability of the 
hardwire, which you have to hardwire how much of the airport to 
expand the transmission capability to get fingerprints? That is 
one question.
    So the fingerprints, though, that the only reason you would 
have to have a secure question would be if it got some kind of 
negative.
    Mr. Lavin. Well, no. Because, frankly, what they are 
proposing is to collect these fingerprints after the person--
excuse me, collect them from the airlines after the person 
leaves the country and put them in an FBI database in local, 
State, and local authorities' databases for up to 75 years. So, 
they are not, at this point, they are not proposing to stop 
somebody. They say in the future they would like to. But the 
negative is not----
    Mr. Souder. Here is what I am wrestling with, because we 
have this challenge in multiple places. So that information is 
secured, and let's say that is the Government's responsibility 
to secure it. But the transmission, if you have to secure the 
data, now all of a sudden you have to have a whole security 
question. But if the fingerprints go into that system that 
isn't yours and a flag comes up, then you don't have to store 
the data.
    Mr. Lavin. No. Well, we have to store--they would like us 
to establish our own secure data forms----
    Mr. Souder. I know that is what they would like you to do. 
What I am asking is, if they had to store the data, what would 
be the problem if we could come up with a way where you put 
your fingerprints on, and then the only way you would have to 
go to TSA or a security point is if somehow it came up 
negative. That way, you wouldn't have to have the data.
    I am assuming that this is what we are trying to do, it is 
secondary, at port entries. I mean, we are really wrestling 
with the same question as to how we go through entry/exit at 
land ports. What we are going to have with your cruise ships is 
that most people--and this would be classic business 
management. Don't put one, two, three levels when 99-point-
something percent of the people aren't going to hit that. Let's 
get the positives and the false positives and separate that, 
and then our biggest challenge is that there is a false 
positive.
    Mr. Lavin. Well, my understanding is that--I understand 
your question in terms of coming up as a flag or not. But what 
they propose to do is suck out all these fingerprints, put them 
in a database, their own--have us store them. Put them in their 
database. Five years later, a person gets caught for speeding 
and has a child support payment; they can use that fingerprint 
to match that person up. So that is what they are talking about 
here. This, as I described it, is a dragnet over the entire 
process. You know, the privacy issues there are substantial.
    The only other thing I would mention on your kiosk 
example--I am certainly not here representing DHS, as you can 
imagine. But what they believe is that they don't want it, my 
understanding from the NPRM, is they don't want it at the 
check-in kiosks, because they want to make sure the person who 
gives the fingerprint actually leaves the country. So they want 
it as close to the boarding area as possible.
    Mr. Souder. If I may ask one further question with that, 
because I have raised that question at an earlier hearing: How 
do you know it is the same person? There are different ways to 
do this, because I think at the security checkpoint, we are 
also going to wind up with fingerprints, by the way. Which 
leads to your question, how can we consolidate this type of 
thing? That as we move, how much is the wiring capability 
different at the original check-in point from that at gate?
    Mr. Lavin. Right now, they are very similar. All they 
provide for is data. The only people, the only organization 
that has secure capabilities is the US-VISIT program. So at 
this point--I mean, it is important to note that five 
fingerprints is more data than the entire 747 of data that we 
are transmitting now. So one person's fingerprints is more than 
a full 747.
    DHS made the mistake of believing that we had Internet-
based networks, and they just didn't look at it carefully, and, 
frankly, they didn't consult with us. A lot of these problems, 
frankly, could have been solved if 5 years ago or 10 years ago 
when they thought about this or a year ago when they knew they 
had to do it, they would consult with industry. All they told 
us, as soon as you passed the law is: We are going to do it 
this way. Airlines are going to pay. Next question.
    Mr. Souder. That last comment was very helpful, because you 
are saying basically your broadband isn't anywhere near storage 
capacity. We are really looking at a huge challenge, and as I 
believe, particularly after we get another terrorist attack, 
which will happen at some point, there is going to be more 
demands than just this one, and we are going to have to figure 
out what burden of this falls on the private sector on security 
questions.
    Mr. Lavin. We don't have broadband networks, period.
    Ms. Sanchez. Thank you, gentlemen.
    I thank you for your testimony today.
    I will remind the Members of the subcommittee that, if they 
have additional questions, they will put them forth in writing 
to you all.
    I think that you will receive some, by the way. We would 
ask you to respond quickly in writing to those questions.
    Hearing no further business, the subcommittee stands 
adjourned. Thank you, again.
    [Whereupon, at 11:37 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


Questions From Chairwoman Loretta Sanchez for Richard C. Barth, Ph.D., 
   Assistant Secretary, Office of Policy Development, Department of 
                           Homeland Security

    Question 1. Some have expressed concern about terrorists who are 
nationals of Visa Waiver Program (VWP) countries exploiting the VWP to 
enter the United States. Once all the security requirements mandated by 
the 9/11 Act have been implemented, how much confidence can the 
American people have that terrorists will be unable to enter the United 
States through the VWP?
    Answer. The Department of Homeland Security (DHS) recognizes that 
terrorists or individuals with malign intent may attempt to exploit 
visa-free travel. That is why the Department is committed to 
transforming the Visa Waiver Program (VWP) from a program that 
evaluates security threats on a country-by-country basis into one that 
screens for risks on an individual passenger basis. To accomplish this 
objective, DHS is relying on four interrelated elements--advance 
passenger information, enhanced information sharing, secure travel 
documents, and intelligence-based VWP assessments--all of which are 
part of a secure, modernized VWP mandated by the 9/11 Commission Act. 
These elements have been at the forefront of national and international 
initiatives to combat crime and terrorism throughout the world and will 
provide our operators and analysts with new tools to secure the United 
States, as well as help prevent terrorist and criminal activities in 
VWP partner nations.

Advance Passenger Information
    The Department receives Advance Passenger Information (API) from 
air carriers before a plane departs for the United States. This 
information is checked against watch lists and other relevant 
databases. DHS also collects Passenger Name Record (PNR) data from 
carriers pursuant to the Aviation and Transportation Security Act, and, 
in the case of flights to and from the European Union, pursuant to the 
2007 U.S.-EU PNR Agreement. This information enables DHS to identify 
terrorists and criminals known to U.S. law-enforcement and intelligence 
agencies as well as make connections between known and suspected 
terrorists and unknown associates. As part of its efforts to implement 
the 9/11 Commission Act, DHS now requires Memoranda of Understanding 
(MOU) of VWP countries and aspirants. These MOUs reaffirm DHS's intent 
to collect both forms of information.
    DHS will also receive advance passenger information on travelers 
through the Electronic System for Travel Authorization (ESTA). ESTA 
provides an additional layer of advance scrutiny that VWP travelers 
must undergo prior to boarding a carrier bound for the United States. 
ESTA was deployed for voluntary use on August 1, 2008, and is currently 
scheduled to become mandatory in January 2009. Starting in January, all 
VWP travelers will be required to submit to DHS electronically before 
departing for the United States. This information is the same as that 
currently collected via the I-94W Nonimmigrant Alien Arrival/Departure 
Form. ESTA applications are then queried against appropriate law 
enforcement databases and watch lists, enabling DHS to make a 
determination on each individual's eligibility to travel to the United 
States under the VWP before that alien's departure for the United 
States. Travelers denied an ESTA authorization are referred to the U.S. 
embassy or consulate to apply for a visa.

Enhanced Information Sharing
    As required by section 711 of the 9/11 Commission Act, the 
governments of the 27 countries that currently participate in the VWP--
as well as those of any new member countries--will enter into more 
robust data-sharing arrangements with the United States as a condition 
of membership. Under Homeland Security Presidential Directive--6, the 
Department of State has taken the lead in negotiating an agreement with 
both aspirant and current VWP member countries to share data from watch 
lists of known and suspected terrorists that will also fulfill the 
terrorist information-sharing requirements in the 9/11 Commission Act 
for initial and continued VWP designation. To date, HSPD-6 agreements 
have been signed with five current VWP countries and four ``VWP 
roadmap'' countries. The State Department and the Terrorist Screening 
Center currently are engaged in negotiations with 17 current VWP and 4 
VWP roadmap countries and anticipates that several more arrangements 
will be signed within the next few months. In March 2008, DHS and the 
Department of Justice initiated a ground-breaking fingerprint-sharing 
agreement with German authorities. This new agreement will deepen 
counterterrorism and law enforcement cooperation with Germany, where 
last September U.S. and German officials together dismantled a 
terrorist plot. A similar agreement will be a requirement for all VWP 
members and active negotiations are currently underway with several 
current and ``VWP roadmap'' countries.

Secure Travel Documents
    Ensuring the security of travel documents is also integral to a 
modernized VWP. All VWP members report, within 24 hours, the loss or 
theft of both blank and personalized passports. In late 2007, DHS and 
Interpol successfully linked the Interpol Stolen and Lost Travel 
Document database to the screening of arriving passengers. This real-
time sharing capability is now available at all U.S. ports of entry and 
strengthens the ability of frontline officers to identify and interdict 
illicit and mala fide travel documents and the travelers who use them. 
DHS is also working with countries to improve document security more 
generally. To be valid for Visa Waiver travel, a passport issued since 
October 26, 2006, is required to include an integrated biometric chip 
with the facial image and biographical data of the passport holder 
stored electronically. VWP countries intend to work toward issuing 
passports and travel documents through a central issuing authority that 
is subject to strict audit and accountability mechanisms. Similarly, 
they will agree to issue travel documents that have unique, non-
recurring identifying numbers affixed at the time of manufacture.

Intelligence-Based VWP Threat Assessments
    DHS Office of Intelligence and Analysis, on behalf of the Director 
of National Intelligence (DNI), leads--in coordination with other 
intelligence community member agencies--independent intelligence 
assessments of all VWP countries as well as initial threat assessments 
for all ``roadmap'' or prospective VWP member countries as required by 
the 9/11 Commission Act. These assessments are intended to determine 
whether U.S. security, law enforcement, or immigration interests are 
compromised by the country's involvement in the program. These 
assessments specifically analyze the potential for illicit actors, 
including transnational criminals, extremists or terrorists, to exploit 
the country's travel systems and security profile to gain entry into 
the United States under the VWP.
    The above enhancements significantly strengthen the VWP. In 
addition, countries participating in the program will also be 
encouraged to enhance aviation and airport security, including 
permitting the operation of U.S. air marshals. These discretionary 
security measures will continue to be taken into consideration during 
the statutorily mandated VWP initial and continuing designation reviews 
conducted by DHS in consultation with the Department of State. During 
these reviews, DHS comprehensively reviews the following for each VWP 
member country: counterterrorism capabilities; immigration, citizenship 
and naturalization laws; passport production and issuance controls; 
efforts to combat crime; law enforcement cooperation with the United 
States; and border-control mechanisms. In addition to these thorough 
evaluations, DHS has consolidated its monitoring capability to ensure 
awareness of changing conditions in VWP countries, established 
protocols for direct communications with points of contact in the 
relevant embassies, and required periodic updates of law enforcement or 
security concerns related to the VWP.
    Overall, these enhancements will mitigate substantially the 
vulnerabilities of visa-free travel to the United States, and will help 
secure U.S. borders and promote a safer international travel 
environment for our citizens and those of our VWP partners. The 
provisions in the 9/11 Act that gave the administration new flexibility 
to admit new countries into VWP has proven to be an extraordinarily 
effective tool for us in gaining cooperation from many governments, 
including some with no short-term prospect for qualifying for VWP, in 
implementing all of these new security measures.
    Question 2a. Implementing a biometric exit system should improve 
the quality of the information the Federal Government has on overstay 
rates and travelers coming to the United States.
    What does visa overstay information tell us about a country or an 
individual that ``visa refusal'' information does not?
    Answer. ``Visa overstay'' is more accurately described as 
overstaying an authorized length of stay, as a visa is valid only as a 
entry document; the length of stay is determined by CBP inspectors. 
Overstay information is established after the individual has been in 
the United States and stayed beyond the permitted length of authorized 
stay (based on the type of visa ad permissible duration). Visa overstay 
information is currently calculated using biographic departure data 
compared with arrival information.
    State collects visa refusal data based on its electronic records 
(Consular Consolidated Database) and provides it to DHS. Visas can be 
refused for numerous reasons unrelated to whether an alien might 
overstay his or her authorized period of admission. US-VISIT provides 
the additional compliance status of visitors to the United States, 
enabling Department of State adjudicators and Department of Homeland 
Security inspectors to more thoroughly evaluate the visa application 
and the validity of travelers' claims to have complied with the terms 
of admission during previous trips to the United States. Consequently, 
by providing reliable information on overstays, US-VISIT has provided 
an effective tool for United States immigration officials to take 
immediate action against this type of immigration violator, allowing 
DOS adjudicators to deny visa applications, CBP inspectors to deny 
entry, and ICE criminal investigators to deport an individual for 
violating INA  237(a)(1)(B), being unlawfully present in the United 
States.
    Refusal and overstay rates both can be determined with respect to 
an individual and with respect to a country (as with countries 
participating in or pursuing qualification in the Visa Waiver Program).
    Question 2b. If DHS does not have a biometric exit system in place 
by June 30, 2009, what alternative plans does DHS have for improving 
the reliability of overstay rate information?
    Answer. If DHS does not have a biometric exit system in place by 
June 30, 2009 US-VISIT will continue to perform biographic exit 
comparisons as it does today, refining and improving its existing 
operations as a matter of course.
    Question 3a. According to your testimony, DHS is requiring each VWP 
member and aspirant country to sign a Memorandum of Understanding 
(MOU), which outlines a number of security enhancements that must be 
met to enter or stay in the program.
    Are there any security enhancements that an aspirant VWP country 
will be required to meet that a current member country is not required 
to fulfill? If so, which enhancements and under what circumstances 
would they not have to be fulfilled?
    Question 3b. What effect would the lack of a biometric exit system, 
as required under section 711 of the Implementing Recommendations of 
the 9/11 Commission Act of 2007 (Pub. L. 110-53), have, if any, on 
countries that have signed MOUs and are working toward joining the VWP?
    Answer. Both current and aspirant Visa Waiver Program (VWP) member 
countries will be required to meet the same security standards. A 
single tier VWP is essential because security threats are not confined 
to particular corners of the globe. Accordingly, the Department of 
Homeland Security (DHS) is requiring each member and aspirant country 
to implement the same requirements to join or continue to participate 
in the VWP. When necessary to achieve the same standard as aspirant 
countries, current VWP members must enter into new agreements with the 
United States.
    Those countries seeking to join the VWP must comply with all of the 
new security measures before admission; for current participants, DHS 
has a target for them to meet those new requirements no later than 
October 2009. Staggering the times for compliance in this way best 
enables DHS to ensure a smooth and efficient path to uniform security 
standards for all VWP members.
    The 9/11 Commission Act requires DHS to either establish a 
biometric air exit program by June 30, 2009, or face suspension of the 
Secretary's authority to waive the low nonimmigrant visa refusal rate 
requirement for VWP designation. If an aspirant country that requires a 
waiver has not been designated by that date, the lack of a biometric 
exit system would prohibit the Secretary from exercising his waiver 
authority.
    Question 4a. The Interim Final Rule for the Electronic System for 
Travel Authorization (ESTA) did not require travelers to pay a fee to 
use the new system.
    Why did DHS initially choose not to require a VWP applicant to pay 
a fee to use ESTA?
    Question 4b. Under what circumstances would you consider requiring 
VWP applicants paying a fee to use ESTA?
    Answer. The Electronic System for Travel Authorization (ESTA) was 
funded by Congress with $36 million via the Consolidated Appropriations 
Act of 2008. This funding has supported the development of ESTA, 
including the underlying ESTA information technology (IT) 
infrastructure; the establishment of an ESTA project management office; 
the hiring of staff to screen ESTA applications; and a communications 
and outreach initiative to promote ESTA awareness for affected VWP 
travelers and stakeholders, including the travel and tourism 
industries. As a result of this appropriation, DHS has been able to 
implement the ESTA program without initially requiring a fee.
    Once ESTA is mandatory for all VWP travelers, DHS will be better 
able to evaluate and assess all costs associated with the ongoing 
administration of the system, and to determine what fees, if any, 
should be included in the ESTA application process. This assessment 
will examine the IT upgrades and other associated costs that will be 
necessary to incorporate a fee collection program into the ESTA 
application process. If necessary, DHS will implement a fee through a 
separate rulemaking action or such other manner as is consistent with 
the Administrative Procedure Act and applicable statutory authorities.
    Question 5a. ESTA will be available for VWP travelers to use on a 
voluntary basis on August 1, 2008, and will be mandatory for all VWP 
travelers on January 12, 2009.
    When does DHS plan to certify that ESTA is ``in place,'' as 
required by the Implementing Recommendations of the 9/11 Commission Act 
of 2007 (Pub. L. 110-53)?
    Question 5b. How does DHS intend to use the information supplied by 
visa waiver travelers on a voluntary basis between August 1 and January 
12, 2009?
    Question 5c. How will a VWP traveler receive an ESTA at an airport 
if their carrier does not yet have the necessary internet connections 
to provide an ESTA?
    Answer. DHS anticipates that the Secretary will certify that 
Electronic System Travel Authorization (ESTA) is ``fully operational'' 
in November 2008, and further anticipates publishing a notice in the 
Federal Register on November 13, 2008, that will require all Visa 
Waiver Program (VWP) travelers to obtain an ESTA approval for travel to 
the United States effective January 12, 2009.
    On August 1, 2008, DHS began to accept voluntary ESTA applications 
through the ESTA Web site. The period between August 1, 2008, and 
January 12, 2009, will allow DHS, in partnership with the Departments 
of State and Commerce, the governments of VWP countries, and the travel 
and tourism industries, to conduct extensive outreach and communicate 
ESTA requirements to affected VWP travelers and related stakeholders. 
During this period, all voluntary applications will be processed 
through ESTA and approved VWP travelers who receive an approved ESTA 
approval after August 1, 2008, will be eligible to travel to the United 
States under the VWP for the duration of time that their ESTA approval 
is valid.
    Carriers are not required to submit ESTA applications on behalf of 
their customers. If a VWP passenger arrives at an airport en route to 
the United States without having already obtained an ESTA approval, and 
their carrier is unable or unwilling to connect to the internet to 
assist their customer, the passenger may seek to apply for an ESTA 
approval through any vendor that offers internet access, or the 
passenger may also apply for an ESTA approval with the assistance of 
any other third party, such as a relative, a travel agent or a friend. 
A third party may submit an ESTA application on behalf of a traveler 
directly to the ESTA Web site located at https://esta.cbp.dhs.gov/.
    Question 6a. According to the Interim Final Rule for ESTA, it is 
estimated that 0.04 percent of ESTA applicants will be prevented from 
traveling to the United States as a result of the ESTA requirements.
    How did DHS come to the conclusion that roughly 0.04 percent of 
ESTA applicants will be prevented from traveling to the United States 
as a result of the ESTA requirements?
    Question 6b. For applicants that receive a ``Travel Not 
Authorized'' or ``Authorization Pending,'' response from ESTA, what 
recourse will be available, particularly when travelers apply for the 
ESTA at an airport?
    Answer. For the Interim Final Rule, DHS conducted simulated 
Electronic System for Travel Authorization (ESTA) queries using Advance 
Passenger Information System (APIS) data for Visa Waiver Program (VWP) 
travelers to the United States from July 2007 through September 2007. 
The APIS data was screened against the databases against which DHS 
screens ESTA applications; this simulation was unable to account for 
those VWP travelers who may affirmatively respond to the VWP 
eligibility questions on Form I-94W. This simulated query was designed 
to provide estimates that would accurately reflect the anticipated 
number of ESTA application denials during a peak travel period. Of the 
VWP passengers who were queried through this simulation, 0.0403 percent 
would have been found ineligible to travel to the United States under 
the VWP had they applied for an ESTA approval. The results of this 
simulation closely aligned with the 0.0561 percent of VWP travelers who 
were refused admission at our ports of entry during fiscal year 2007.
    On August 1, 2008, DHS began to accept voluntary ESTA applications 
through the ESTA Web site. Through August 13, 2008, ESTA has processed 
38,860 applications and approved 99.53 percent of those applications. 
Twenty of the 38,860 applications (0.0515 percent) have been denied as 
a result of a law enforcement or terrorist watch list match and 163 
applications (0.4195 percent) have been denied as a result of an 
affirmative response to a VWP eligibility question. DHS continues to 
work closely with the Department of State to carefully monitor the 
number of ESTA applications that are not approved, as well as the 
reasons that ESTA applications are not approved, and will coordinate 
any necessary system adjustments.
    ESTA applications may be submitted at any time prior to travel to 
the United States, and DHS encourages VWP travelers to apply for 
authorization as soon as they begin to plan a trip to the United 
States. DHS recommends that the application be made at least 72 hours 
prior to traveling. If an ESTA application is denied and the traveler 
wishes to continue with his or her trip to the United States, the 
traveler will be required to apply for a nonimmigrant visa at a U.S. 
Embassy or Consulate. It is important to note that Embassy and 
Consulate employees will only be able to make a determination on visa 
eligibility; they will not be able to change or resolve the ESTA 
denial. Similarly, while the ESTA Web site will provide a link to the 
DHS Travel Redress Inquiry Program (TRIP) Web site, there are no 
guarantees that a request for redress through DHS TRIP will resolve the 
VWP ineligibility that caused an applicant's ESTA application to be 
denied. For those ESTA applications that are pending, the Web site 
provides the capability for applicants to use their application 
tracking number and passport data to query the system within 72 hours 
to check the status of their application.
    Question 7a. Over the last few years, air carriers have been tasked 
with implementing a number of Federal security initiatives, including 
US-VISIT, ESTA, Secure Flight, and APIS Quick Query.
    What type of overlap (e.g., similar information collected, vetted 
through the same watch lists or databases, same networks used, same 
personnel used), if any, exits among these five different programs?
    Question 7b. How does DHS propose to manage, coordinate, and staff 
all of these different yet related programs?
    Answer. US-VISIT, the Electronic System for Travel Authorization 
(ESTA), and the Advance Passenger Information System (APIS)/APIS Quick 
Query (AQQ) are screening systems through which DHS conducts checks of 
international passengers. Each system is structured differently, 
affects different populations, and is applied at different times in the 
travel continuum.
    Secure Flight is a proposed air passenger screening program that, 
when implemented, will screen domestic and international air passengers 
against the No Fly and Selectee lists to deny the boarding of, and/or 
ensure additional screening is completed for, those travelers who pose 
a potential threat to aviation security.
    As of January 12, 2009, Visa Waiver Program (VWP) travelers will be 
required to obtain ESTA approval prior to travel to the United States 
and are encouraged to apply for travel authorization via ESTA as soon 
as they begin to plan a trip to the United States. ESTA collects basic 
biographical data including name, birth date, and passport information, 
as well as travel-related details. ESTA applicants are also required to 
answer VWP eligibility questions regarding communicable diseases, 
arrests, and convictions for certain crimes, and past history of visa 
revocation or deportation, among others.
    ESTA provides individual security screening in advance of a VWP 
visitor's travel to the United States, and a pre-departure 
determination of an individual's eligibility to travel to the United 
States under the VWP. Before the implementation of ESTA, travelers 
would learn of their ineligibility to travel to, or enter into, the 
United States under the VWP upon their arrival. ESTA will make VWP 
eligibility determinations before travelers depart for the United 
States, reducing the inconvenience for travelers who currently only 
learn of their VWP ineligibility upon arrival in the United States.
    Initial APIS/AQQ checks are completed before an international 
flight departs for the United States and are performed on all 
travelers. Airlines submit APIS/AQQ manifest information to DHS, 
including, but not limited to, full name, date of birth, gender, travel 
document number, travel document country of issuance, and address while 
in the United States for designated non-U.S. citizens. APIS/AQQ data is 
collected to first enable DHS to quickly screen against the No Fly and 
Selectee lists to deny the boarding of, and/or ensure additional 
screening is completed for those travelers that pose a potential threat 
to aviation security. Additional APIS/AQQ checks are performed by U.S. 
Customs and Border Protection (CBP) while the aircraft is en route to 
the United States, to identify those who warrant further scrutiny for 
all admissibility and law enforcement purposes upon arrival at a port 
of entry. Upon implementation, the Secure Flight program will conduct 
No Fly and Selectee screening for international flights, however, APIS/
AQQ checks will continue to be performed by CBP for admissibility and 
law enforcement purposes at the ports of entry.
    The US-VISIT program collects biometric information from designated 
non-U.S. citizens upon their arrival at a United States port of entry. 
The biometric data collected at the ports of entry is checked against 
derogatory data including, but not limited to, terrorism, criminality, 
and immigration status. DHS also has proposed a program that would 
require the non-U.S. citizens who currently provide biometric 
identifiers upon entering the United States in connection with the US-
VISIT program to also provide fingerprints when they depart the United 
States from any airport or seaport. The biometric checks that are 
currently conducted under the US-VISIT program at entry, as well as 
those that DHS has proposed to collect at exit, are separate and 
distinct from the advance biographic checks completed under the ESTA, 
APIS, and AQQ programs.
    The ESTA and APIS/AQQ programs are currently being integrated. 
Carriers will send passenger data through an interactive APIS/AQQ 
message prior to boarding a passenger, and DHS will send back a 
response to the carriers regarding both ESTA and APIS/AQQ indicating 
whether a VWP traveler has a valid travel authorization via ESTA and 
may board a U.S.-bound carrier. When implemented, DHS will also fully 
integrate the Secure Flight program into APIS/AQQ and ESTA, such that 
carriers will have a single set of consolidated requirements, common 
data transmission and messaging standards, and they will not be 
required to send the same information to different DHS components.
    The DHS Screening Coordination Office works closely with all 
related stakeholders, including the US-VISIT program office, CBP, and 
the Transportation Security Administration to ensure that program 
requirements are aligned and that resources are managed effectively. We 
also work very closely with the airlines to implement these programs 
and address any concerns raised regarding coordination.

 Questions From Chairwoman Loretta Sanchez for Robert Mocny, Director, 
           US-VISIT Program, Department of Homeland Security

    Question 1a. Under the proposed rule for air exit, DHS analyzed a 
number of biometric collection alternatives, including a kiosk option, 
but ultimately selected an option that would require air carriers to 
collect and transmit a traveler's biometrics.
    What progress has DHS made in overcoming the concerns voiced by the 
air travel industry?
    Answer. The notice of proposed rulemaking (NPRM) provided a variety 
of alternatives with different risks and benefits, and the Department 
of Homeland Security (DHS) attempted to balance the risks and benefits 
in the NPRM. DHS is currently reviewing public comments and developing 
a final rule. DHS aims to complete the regulatory process and publish 
the final rule by the end of this year.
    Question 1b. If DHS publishes a final rule that requires air 
carriers to collect and transmit a traveler's biometrics, what 
assistance will DHS provide to air carriers to meet the June 30, 2009 
deadline?
    Answer. If the final rule should require air carriers to collect 
and transmit biometrics, DHS would work with carriers to ensure 
understanding of the exit requirements. The types of assistance that 
DHS might consider providing are: (1) Training materials for employees 
on the standards applicable and how to meet those standards, including 
how to acquire the best fingerprint image; (2) best practices for 
collection of biometrics; (3) outreach to the public and various 
stakeholders; and (4) specific guidelines and standards for the 
collection of biometrics.
    Question 2a. As you know, this committee has been very interested 
in DHS's transition planning, particularly because a number of programs 
at the Department, including US-VISIT, will be handed off to the next 
administration for completion.
    How will the change of administrations affect the US-VISIT Program 
Office?
    Answer. The transition to a new administration will be 
straightforward because US-VISIT has been intricately involved in the 
Department of Homeland Security National Protection and Programs (NPPD) 
transition planning effort, which is part of a larger Department-wide 
effort. The Director of US-VISIT is a career executive who has been 
responsible for the US-VISIT program since its inception. This 
continued leadership positively supports the transition.
    US-VISIT will accomplish many of its planned goals by January 20, 
2009, such as deploying the first increment of the Initial Operating 
Capability (IOC) with the FBI IAFIS database and completing 10 Print 
Full Deployment.
    US-VISIT also has appointed a senior manager as a representative to 
work with NPPD to assure program stability during the transition. His 
expertise in contracts, funding, staffing, and logistics, will ensure 
the program office will operate unencumbered during the transition.
    US-VISIT has been briefed on NPPD's transition plans and the 
Director recently participated in a Senior Leaders Transition Exercise 
held at the Federal Law Enforcement Training Center in Glynco, Georgia. 
US-VISIT will continue to participate in future exercises to assist in 
ensuring program stability during the transition. Additionally, all 
contracts, funding, staffing, and logistics are in place and will 
operate unencumbered during the transition.
    Question 2b. What transition plans, if any, are in place to ensure 
that a biometric exit system is a priority in the next administration 
and is completed before the June 2009 deadline?
    Answer. In light of the above measures that have been, and continue 
to be, put into place, including preparation of briefing books of 
important initiatives and issues, the biometric exit effort should not 
be adversely affected by the transition.
    Question 3a. In February 2008, the Government Accountability Office 
(GAO) reported that the various exit pilots DHS conducted for US-VISIT 
exit between 2003 and 2007 were not well planned, defined, or 
justified. Equally troubling was the fact that DHS did not share the 
results of the pilots with the airlines or publically release the 
results of these pilots until June 2008.
    Why did DHS wait so long to publically release the results of the 
air exit kiosks?
    Answer. In response to two formal requests this past May--one from 
ATA's CEO Jim May, and the second from congressional questioning during 
Paul Schneider's confirmation hearing--DHS decided to release the Exit 
Pilot Evaluation Report. Since the document was ``deliberative,'' it 
needed to undergo various Department review processes before public 
release.
    Question 3b. How does DHS justify moving forward with an air exit 
biometric solution that has not been previously tested or piloted?
    Answer. DHS has utilized the lessons learned from the pilot 
evaluation in developing the solution in the proposed rule. 
Additionally, DHS is utilizing the cost/benefit analysis that was 
developed as part of the regulatory impact analysis in conjunction with 
the notice of proposed rulemaking (NPRM). US-VISIT is completing its 
review of the comments to the NPRM and plans to publish a final rule 
later in 2008.
    Question 3c. What improvements has DHS made to ensure that the 
latest air exit proposal is, in fact, well-planned, defined, and 
justified?
    Answer. US-VISIT continues to develop a final rule to establish a 
biometric exit capability within the international air and sea 
passenger environments.
  <bullet> In November 2007, National Protection and Programs 
        Directorate Under Secretary Robert Jamison convened a 
        departmental planning session to ensure a coordinated approach 
        to implementing air and sea exit operations.
  <bullet> On April 24, 2008, DHS published a notice of proposed 
        rulemaking (NPRM) outlining its proposed solution for 
        collecting biometrics from most non-U.S. citizens when they 
        depart the United States from U.S. airports and seaports, along 
        with a regulatory impact analysis, which includes a cost/
        benefit analysis.
  <bullet> In conjunction with the NPRM, US-VISIT completed a 
        regulatory impact analysis for air and sea exit implementation. 
        This analysis includes the costs and benefits of five solution 
        alternatives in the NPRM, providing decisionmakers and the 
        general public with grounded information on which to comment 
        regarding the proposed rule.
  <bullet> US-VISIT is completing its review of the comments to the 
        NPRM and will revise the draft final rule as appropriate.
    Question 4a. The biometric collection alternative chosen by DHS is, 
by your own admission, ``less favorable'' from a privacy and IT 
security standpoint than a DHS collection method.
    Why does DHS insist on moving forward with a proposal that is more 
vulnerable to security breaches and invasions of privacy?
    Answer. The Department of Homeland Security (DHS) recognizes this 
privacy concern, which has also been expressed in the public comments 
received as part of the rulemaking process. DHS considered a wide range 
of factors in the development of the proposed rule, including security 
and privacy considerations. DHS considered and balanced current 
operations, technical requirements, confidence of departure, projected 
percentage of population captured, burdens imposed, costs, efficacy, 
convenience, development time, immigration and other enforcement 
policy, and many other factors in administering DHS' mission. DHS has 
considered those comments and may make adjustments based on privacy and 
security risks that will be discussed in both the updated Privacy 
Impact Assessment and the publication of the Final Rule. The rulemaking 
process is naturally one of balancing competing interests and 
priorities while considering the magnitude and probability of varied 
risks. DHS will respond if any privacy breaches occur on this or any 
other systems.
    Question 4b. The Notice for Proposed Rulemaking for US-VISIT 
biometric air and sea exit states that ``carriers must take steps to 
protect the privacy of information collected.'' What steps do you 
envision the air carriers taking and at what cost?
    Answer. If the proposed rule were finalized without amendment, we 
would expect to issue guidance to the carriers providing specific 
handling procedures. DHS and the carriers take privacy issues 
seriously, and carriers have as great a concern for privacy as DHS. 
Carriers routinely collect, as part of the carriers' reservation 
process, substantial personal data regarding all passengers, such as 
credit card, lodging, and rental car information, none of which would 
be transmitted to or used by DHS.
    Under the proposed rule, the Regulatory Impact Analysis (RIA), 
published with the Notice of Proposed Rulemaking, embedded privacy 
compliance costs within the costs for application development, which 
includes planning, designing, building, testing, and deploying the 
proposed technical solution. These costs will be updated in the final 
rule's RIA.
    Question 4c. If a breach occurs or a carrier is found to be putting 
a traveler's personally identifiable information at extreme risk, how 
would DHS respond?
    Answer. Carriers currently collect substantial personal data as 
part of the carriers' reservation process for all passengers, such as 
credit card, lodging, and rental car information, none of which is 
transmitted to or used by DHS. Carriers currently provide DHS with 
manifest information. The only additional information that would be 
required under the proposed rule is the fingerprint image. DHS will 
treat any violation of an alien's personally identifiable information 
in the same manner as any other breach.
    Although the Privacy Act, 5 U.S.C. 552a, applies only to United 
States citizens and lawful permanent residents (LPRs), DHS, as a matter 
of policy, administratively provides most of the Privacy Act benefits 
to aliens about whom information is maintained by DHS. DHS Privacy 
Policy Regarding Collection, Use, Retention, and Dissemination of 
Information on Non-U.S. Persons, Memorandum 2007-1 (January 19, 2007), 
at http://www.dhs.gov/xlibrary/assets/privacy/ 
privacy_policyguide_2007-1.pdf. DHS will continue that policy for 
aliens subject to any final rule.
    Question 5a. The Implementing Recommendations of the 9/11 
Commission Act of 2007 requires the implementation of an air exit 
system as a condition to allowing the Secretary of DHS to use the 
waiver authority to expand the Visa Waiver Program. As an interim step, 
the Act allows a biographic system that can ``verify the departure of 
not less than 97 percent of foreign nationals who exit through 
airports.'' GAO testified in February that the approach that DHS is 
taking for certifying an air exit system that can verify 97 percent of 
foreign nationals did not provide particularly useful information.
    Please explain how DHS will meet the requirement and certify an air 
exit system that can track the departure of 97 percent of all foreign 
visitors?
    Question 5b. When does DHS plan on notifying Congress that it can 
track the departure of 97 percent of all foreign visitors?
    Answer. Department of Homeland Security (DHS) continues to evaluate 
methodologies to verify the departure of at least 97 percent of foreign 
nationals who exit through U.S. airports. DHS is committed to ensuring 
the complete, accurate, and timely receipt of departure manifests and 
to improving the methodology underpinning air exit calculations. DHS 
expects to make this certification pursuant to the statute's 
requirement later this year.
    Question 6a. The US-VISIT biometric exit proposed rule outlined a 
number of biometric collection alternatives and even suggested that DHS 
is actively considering combining a number of the alternatives and 
using kiosks.
    What kind of role do you envision kiosks and mobile biometric 
collection devices playing in US-VISIT Exit?
    Answer. The Department of Homeland Security (DHS) has not precluded 
any options for the collection of biometrics; however, formulation of a 
final rule will not be completed until after review of the comments to 
the Notice of Proposed Rulemaking (NPRM). Under the proposed rule, 
carriers would be provided with substantial flexibility to use kiosks 
and only be required to meet performance standards.
    Question 6b. What kinds of costs would be associated with modifying 
or adapting existing air carrier kiosks with a biometric collection 
capability (i.e., ``sidecars'')? How much would such an alternative 
cost?
    Answer. Appendix F of the Regulatory Impact Assessment that was 
part of the NPRM, ``Assumptions Used in Conducting the Assessment,'' 
stated: ``The assessment of alternatives does not consider specific 
technical solutions.'' The complete Air/Sea Biometric Exit Project 
Regulatory Impact Analysis is available on the public docket through 
the administration's electronic docket system, regulations.gov at DHS-
2008-0039-0003. Therefore, the proposed rule did not prohibit a 
``sidecar'' approach to biometric collection, nor does it prohibit 
other configuration options, including counter-mounted, kiosk, gate 
devices, etc. This freedom of implementation approach for air carriers 
means there is a nearly infinite number of aggregate implementation 
configurations, including device choices and location combinations. To 
create an estimate, DHS assumed a specific combination of 
implementation approaches divided between gate and counter deployments 
with a certain number of post-screening point counter deployments; 
however, the implemented configuration of the proposed solution allows 
the airlines the flexibility to use any device at any appropriate 
location as long as the carrier meets performance standards.
    Question 6c. What kinds of costs would be associated with placing 
new DHS-maintained and -operated kiosks in airports for biometric 
collection? How much would such an alternative cost?
    Answer. Detailed cost estimates for a DHS-maintained and operated 
kiosk solution are provided in the Regulatory Impact Analysis, under 
Alternative 4.
    Questions From Chairwoman Loretta Sanchez for Douglas E. Lavin, 

Regional Vice President for North America, International Air Transport 
                              Association

    Question 1a. DHS's proposed rule for US-VISIT Exit at airports 
would require the airlines to collect, transmit, and store a 
passenger's biometrics. DHS maintains that air carriers will simply be 
collecting another ``data point.'' However, according to the Notice for 
Proposed Rulemaking, collecting this data point will require air 
carriers to ``upgrade their existing systems'' and ``create and enhance 
systems to handle the larger amount of data inherent in biometric 
transmissions,'' and will cost carriers roughly $3.5 billion over 10 
years.
    What will air carriers be required to ``upgrade'' or ``enhance'' 
and at what cost?
    Answer.
Systems Changes
    Carriers would be required to upgrade and enhance their departure 
control systems (DCS)--the systems that enable passengers to check in, 
allocate seats, transmit API data and issue boarding passes. However, 
many carriers' DCS systems reside on mainframes or on mini-computers. 
These legacy systems are character-based, complex and difficult to 
maintain. They are not designed to store or to display images. Indeed, 
many systems are not capable of such a function. Existing messaging 
formats, both within carriers' networks and for external transmission 
of data, are not designed for, or capable of, transmission of pictures 
of fingerprints (binary image) data.
    The NPRM indicates that carriers will be required to transmit the 
biometric portion of the passenger manifest data to US-VISIT in an XML 
data format that contains biometric images. What the NPRM fails to 
acknowledge is that the SITA and/or ARINC communication systems used by 
the large majority of airlines operating in the United States do not 
support XML data format messaging. We are also not aware of any 
communications systems used to support international airline operations 
that can accommodate image transmission. No industry standard XML 
format exists today to support transmission of API data. Absent 
detailed technical information from DHS, we are unable to effectively 
evaluate whether existing systems will be capable of upgrade to 
accommodate this new data transmission or whether new networks would 
need to be installed to support this program.

Costs
    For the reasons above, we believe that a wholesale upgrade to a new 
DCS platform would be required for many carriers, plus the acquisition 
of hardware capable of capturing fingerprint images, and the upgrade of 
all airport networks.
    The NPRM estimates that carriers would incur costs ranging from 
$3.5 billion to $6.4 billion to fund the proposed US-VISIT Exit 
program. Unfortunately, US-VISIT does not offer sufficient methodology 
or expense categories to fully explain their calculations, nor does the 
NPRM adequately spell out even the high level elements that would drive 
implementation costs to this range.
    IATA has worked with our member airlines, network service 
providers, and hardware manufacturers to scope the cost of both the 
NPRM and also the accompanying Privacy Impact Analysis (PIA). IATA 
believes that the proposed rule may cost the airline industry as much 
as $12.3 billion over 10 years. This represents $5.9 billion above the 
highest 10-year cost estimate by DHS. We believe that technical issues 
highlighted previously in this document and certain critical erroneous 
assumptions largely drive this estimate.
    One of the critical erroneous assumptions throughout the NPRM is 
the apparent DHS belief that airline networks have the same data 
transmission capabilities as Internet-based networks. As explained 
elsewhere in this document, airlines maintain or lease highly 
specialized networks optimized to transmit character-based data. 
Airlines do not transmit video or pictures as part of the reservation, 
booking, or departure control process.
    We are particularly concerned about three critical costs omitted 
from the NPRM, two of which are mandated by the PIA. These costs 
include data transmission, deployment of new global dedicated secure 
networks, and deployment of specialized secure data warehouses.
    Question 1b. If DHS publishes its final rule by December 2008, can 
air carriers make all the needed changes to their systems by June 2009?
    Answer. No. Capturing a fingerprint picture, storing it in a legacy 
system environment, and then adding that image file to the API message 
is in no way comparable to simply adding an additional data field and 
would require a major upgrade to many airlines' systems. To put this 
into perspective, the amendment to capture the passenger's address for 
US APIS (that did not require new hardware or storage of anything other 
than character data) took airlines in excess of a year to complete. Any 
modifications to include biometric collection would take substantially 
longer and be significantly more expensive.
    In addition to DCS upgrades, hardware would need to be acquired in 
all locations (which may not even be readily available in the 
quantities required to equip all points of check-in, transfer and 
boarding). Airport networks and power supplies would need to be 
upgraded and systems installed at all locations. The upgraded systems 
would need to be re-certified and tested, not only by airlines and DHS, 
but by network and systems providers, as is required of all systems in 
the airport environment.
    We estimate that this may take in the region of 2 years; 6 months 
is in no way realistic for a project of this magnitude.
    Question 2a. DHS outlined a number of alternatives in its proposed 
rule for US-VISIT Exit at airports and even suggested that it would 
consider combining a number of alternatives, including the use of a 
kiosk.
    Is there a biometric collection alternative or combination of 
alternatives that IATA favors?
    Answer. The centralized collection by DHS of biometric data at a 
single point in the passenger flow is far more efficient, secure and 
cost-effective than making significant amendments to every point of 
passenger contact (check-in desks, kiosks, gates and transfer desks.) 
The collection of data through DHS-supplied, stand-alone, dedicated 
kiosks positioned within the passenger flow is the preferred 
alternative.
    Question 2b. If DHS publishes a final rule that is closely related 
to IATA's preferred alternative, do you believe it would be 
technologically feasible to implement it by June 2009?
    Answer. Most likely not, but this is the fastest option available 
to Congress. DHS is asking to implement a significant program in 
unrealistically limited time frames. Feasibility would depend on the 
availability of hardware to create a sufficient number of kiosks, the 
ability to install kiosks in the airport environment, and the 
availability of the airline and airport resources needed to make 
changes to accommodate passengers affected by US-VISIT Exit. One major 
benefit in terms of deployment time is the existence of the DHS 
software developed for stand-alone DHS kiosks used in the US-VISIT Exit 
pilot trials. We believe that this could be immediately used with 
little modification by DHS in the kiosk model under consideration. 
Certainly, advantages of DHS kiosks would include the deployment of a 
fewer number of kiosks and the need to develop only a single software 
and hardware platform--as opposed to the many variations that would 
need to be produced if 120 individual airlines took on this task.
    On this topic, the committee should note that the airline industry 
is committed to working with DHS to efficiently and effectively 
implement the 9/11 law. Once the industry receives sufficient 
information on any DHS kiosk alternative, we will be better-positioned 
to provide realistic time frames on hardware availability and 
programming needs.
    Question 3a. Over the last few years, air carriers have been tasked 
with implementing a number of Federal security initiatives, including 
US-VISIT, the Electronic System for Travel Authorization (ESTA), Secure 
Flight, and APIS Quick Query, to name a few.
    What are the different requirements of these five programs and what 
impact does each program have on your day-to-day operations?
    Answer.

API
    Advanced Passenger Information is required to be sent by airlines 
to CBP for each passenger on an international flight to or from the 
United States. Information is screened for customs, immigration, and 
border control purposes. In addition, it may be passed to TSA for 
additional security screening. API is also provided for crew.
    The impact of API has been two-fold. Firstly, the iterative nature 
of the development of the program has meant that carriers have had to 
repeatedly make system changes to keep up with new requirements. For 
example, the project to gather address and other new data elements and 
to change the previously existing API messaging format to UN/EDIFACT in 
2005 took many carriers in excess of a year to complete and incurred IT 
costs of up to $3 million U.S. per carrier. Systems changes were 
required to departure control systems, check-in kiosks, Internet check-
in applications, messaging standards and networks for transmission of 
data between airlines. Indeed, some networks are still not capable of 
enabling API collection for through check-in of international 
passengers on multi-leg journeys involving more than one airline in the 
itinerary.

AQQ
    No sooner than the project for enhanced API collection was 
complete, the APIS pre-departure program was initiated to gather API 
information, whether through the real-time AQQ system or in a batch 
transmission sent 30 minutes in advance of departure. The AQQ program 
provides real-time processing and response to API information. 
Passenger data is automatically screened for immigration, customs, and 
no-fly purposes, and a board/no board decision is then sent the 
airline.
    This has meant either for another significant upgrade to airline 
departure control systems to transmit and receive API on a per-
passenger real-time basis, or for carriers to close flights 30 minutes 
before departure (which is not, in most circumstances, possible for any 
scheduled carrier.)
    Operationally, the impact remains untested, as most carriers are 
not yet live with AQQ--passengers will need to wait at check-in for a 
real-time response from the AQQ system. CBP has set a service standard 
of sub-four seconds response time. For transit passengers, many 
carriers will no longer be able to through-check international 
passengers to their connecting flight into the United States, as the 
initiating carrier will not be able to receive an AQQ response.
    For international carriers, a positive step is that responsibility 
for watch list vetting will be undertaken by CBP when AQQ becomes live.
ESTA--Electronic System for Travel Authorization
    Data will be collected via a web portal up to 2 years in advance of 
travel. This will be mandatory by January 2009. All visitors to the 
United States under the Visa Waiver program will need an ESTA in order 
to board an aircraft to the United States.
    The ESTA rule fails to address the issue of how to respond to 
passengers who have not established an ESTA prior to initiating travel 
to the United States or whose ESTA might have been canceled or have 
expired. Absent an effective mechanism that addresses the need for 
Government-supported day-of-departure applications at airports outside 
of the United States, including smaller regional airports feeding into 
the primary transfer hub locations, IATA anticipates that full 
implementation of this proposal will result in thousands of visitors 
being prevented from traveling each month.
    Infrastructure (public internet access, etc.) at most, if not all, 
international airports is insufficient (if not non-existent) to respond 
to a significant number of individuals at any single airport who are 
attempting to travel without having previously filed for and obtained 
an ESTA.
    Detailed technical information relating to ESTA and its 
requirements was published in the revised U.S. Consolidated Users Guide 
only in late July. The industry has insufficient time to develop and 
implement changes in the specified time frames. ESTA will require all 
carriers serving the U.S. market to develop an automated capability 
within Departure Control Systems necessary to receive and understand 
the ESTA status indicator relating to each passenger, at a time when 
programming resources are fully allocated to responding to additional 
U.S. and other governments' mandates. ESTA seriously disrupts carriers' 
efforts to develop systems necessary to implement CBP's Pre-Departure 
Passenger Manifest (AQQ) functionality.
    The majority of ESTA data requirements are duplicative in nature, 
such as the collection of an address in the United States provided as 
part of the initial ESTA application. Since an ESTA is valid for 2 
years, it makes no sense to collect an address for the initial visit as 
that address would likely not be known or would be subject to change. 
It also duplicates entirely the purpose of API, the address collection 
being a major enhancement made only 2 years ago. In addition, inclusion 
of the security questions as part of the data collection process (such 
as passenger's involvement in criminal or political activity and 
presence of communicable disease) precludes any opportunity for 
carriers to collect data on behalf of passengers due to privacy issues. 
IATA questions the relevance of the collection of these data items in 
relation to today's international travel environment.

PNR
    Data collected by airlines during the reservation process is 
supplied to CBP for prescreening of passengers. There are numerous 
legal implications regarding the supply of PNR data--carriers are only 
just developing a ``push'' mechanism to provide data to CBP in 
accordance with EU data protection rules. However, CBP requires four 
individual timed pushes of the same data per flight, plus the ability 
to acquire ad-hoc data. Since reservation data rarely changes, this 
requirement seems duplicative and disproportionate and incurs high 
transmission costs for carriers.
    In addition, international carriers are required to perform their 
own screening of PNR data to meet TSA's domestic selection criteria for 
passengers departing the United States. This requirement has restricted 
the use of on-line check-in and issuance of home printed boarding 
passes for many passengers, as international (non-U.S. flag) carriers 
are not permitted to use TSA's CAPPS screening systems.

Secure Flight
    The Secure Flight program will enable TSA screening of all domestic 
and international passengers against the watch lists and no-fly lists. 
PNR and APIS information is used to select passengers for additional 
screening measures (secondary) and, in some cases, even denial of 
boarding. Secure Flight, AQQ and ESTA requirements have been published 
in a ``consolidated'' user guide. However, in reality this document 
reflects three different sets of requirements.
    Secure Flight proposes transmission of select API data elements, 
using an entirely new message format and differing data submission 
timelines in contrast to those that will continue to be required under 
the AQQ program. Secure Flight will also include additional 
transmissions of PNR data supplemental to those already provided to 
CBP. For international carriers (both U.S. and foreign-flagged), this 
will mean another round of programming effort, duplicative data 
transmissions, and zero coherence between programs.
    Question 3b. How can the different requirements of these programs 
be better integrated to prevent unnecessary or duplicative efforts?
    Answer. We strongly recommend that the only option available to 
avoid the needless duplication, increased costs, and inefficiencies 
associated with different passenger information programs is to work 
together across all the relevant agencies to develop a single 
harmonized program. The program should draw together components from 
Secure Flight, API/AQQ, CAPPS and US-VISIT Exit to utilize a 
combination of all data sources to verify the passenger's identity and 
that he/she is genuinely allowed to travel. In addition, ESTA should 
use API data to determine entry eligibility rather than duplicating 
data collection.
    We suggest that biometric data for US-VISIT Exit should be 
collected by DHS using a dedicated, secure, Government-run system 
inserted directly into the existing passenger flow (for example, at a 
kiosk during wait time for the security check point).
    Using Secure Flight and/or API data, TSA would be able to validate 
that a passenger should be traveling, therefore removing any concerns 
regarding falsified boarding passes. The same validation process could 
also determine whether a passenger needed to have their biometric 
collected (according to their destination and nationality) and, at the 
same time, perform immigration and watch list checks.
    Question 4a. DHS and the air industry worked very closely to 
implement US-VISIT entry at airports, but the partnership apparently 
deteriorated when DHS began developing its biometric exit system and 
ESTA.
    Please describe the dialog IATA had with DHS as it was developing 
its plans to implement US-VISIT Exit and ESTA.
    Answer. There has been little to no two-way dialog regarding US-
VISIT Exit between IATA and DHS since the inception of the program. 
IATA hosted a meeting in July 2007 between DHS and carriers to discuss 
concerns with the US-VISIT Exit program and to make proposals on how 
biometric capture could best be approached, but DHS was not willing (or 
able) to openly discuss these issues. It should be noted that a full 
year passed between when US-VISIT made its initial declaration that 
carriers would be forced to implement biometric data capture under US-
VISIT Exit and when the agency published its NPRM. Carriers were 
categorically told, as recently as June 19, 2008, that it would be 
their obligation to meet US-VISIT Exit requirements and that DHS did 
not have the funding or the ability to fulfill that role.
    To reiterate, during the past 16 months, IATA has repeatedly made 
representations to DHS but has been unable to set up a meaningful 
dialog.
    In terms of ESTA, the CBP program team has been very open in 
discussing options, issues and listening to proposals from carriers. 
However, it has been clear that in moving to an interim final rule with 
no opportunity to comment on the proposed rule, CBP is under pressure 
to implement the program regardless of carriers' concerns about lack of 
systems and public preparedness.
    Question 4b. Your cost estimate for US-VISIT Exit ($12 billion) is 
significantly higher than the number DHS provided ($3.5 billion). Why 
is there such a disparity between the two cost estimates? Did DHS reach 
out to IATA to better understand the costs involved with US-VISIT Exit?
    Answer. The NPRM makes several critical erroneous assumptions that 
dramatically drive up the cost of an airline-operated US-VISIT Exit 
system.
    First, DHS assumes that airport networks are designed to transmit 
large image files and work like the Internet connections many of us 
have in our homes. Nothing could be further from reality. Airport 
networks are low-bandwidth, highly optimized networks designed for 
transmitting small text files. It is highly likely that major upgrades 
or replacement of airport networks would be necessary. The NPRM also 
assumes that airline check-in systems can simply be changed to include 
a further data item (the fingerprint image) in the API transmission. 
However, airlines' systems are not designed to capture, store or 
transmit image data; a major upgrade or even replacement of many 
airlines' systems would be required to accommodate this requirement. 
This upgrade would include hardware acquisition, installation, testing, 
and certification at every check-in, transfer and gate facility in the 
United States serving the international market.
    The US-VISIT Exit data requirement would also overwhelm existing 
networks by increasing message volume 350-800 times and would 
dramatically increase transmission costs paid to providers. We estimate 
that the average size of an API passenger manifest requirement under 
US-VISIT Exit would increase from today's 100KB (for 400 passengers) to 
approximately 31.35 MB for the same flight. API transmission costs are 
based on the size of the transmitted block of data; if data 
transmission costs increased proportionately, this would lead to costs 
in the region of millions of additional dollars per month for most 
airlines.
    It is IATA's conclusion, based on consultation with airlines and 
service providers, that a wholesale rework of carriers' legacy 
departure control systems and data networks would be required to 
capture, store and transmit image data. As there is a wide variety of 
network systems and airline Departure Control Systems in use, this 
would involve many different integrators and many IT suppliers across 
the globe.
    Secondly, DHS has added additional encryption requirements for 
collection, storage, and retention of fingerprint images. We do not 
believe that DHS's calculations factored in costs associated with this 
requirement. As indicated in our comments submitted in response to the 
NPRM, airlines today do not operate with systems or data transmission 
lines that would meet the requirements of a ``secure'' system as 
envisaged in the DHS Regulatory Impact Analysis. Such systems, if 
ultimately required under a final rule, would need to be designed and 
put into service--with first-year costs likely exceeding $1 billion 
across the industry.
    There was little detailed discussion of the proposals that US-VISIT 
was developing, including any frank and open discussions of costs that 
might be incurred by the industry under the US-VISIT Exit program. 
Certainly, IATA was not party to any discussions concerning existing 
airline system capabilities, or costs that might be incurred to expand 
those capabilities to respond to US-VISIT Exit's operational 
requirements.
    Our first indication of US-VISIT's projections for costs to 
industry came only with the publication of the NPRM. We immediately 
questioned the validity of the financial projections contained in the 
NPRM due, in large part, to the conspicuous absence of methodologies 
used to establish the figures presented in the filing. We found the 
same absence of explanatory justification in the associated Regulatory 
and Privacy Impact Analysis supplements.
    IATA provided a cost analysis in its submission to the NPRM. 
Without necessary information detailing what DHS used to establish its 
estimates for both immediate and longer-term costs over 10 years, it 
would be speculation on our part to try to establish the cause of 
differences in our projections.
    Question 5a. It is my understanding that the air travel industry is 
regulated by a number of international agreements.
    What types of international agreements must DHS consider when 
implementing programs like US-VISIT and ESTA?
    Answer. DHS must consider ICAO's Annex 9 to the Chicago Convention, 
which prescribes standards for the provision of passenger data. Annex 9 
also refers to the WCO/ICAO/IATA Guidelines for passenger data, and to 
the UN/EDIFACT PAXLST message standard (adopted as an Annex to the WCO/
IATA/IACO Guidelines) which describes the method and form of 
transmission allowable.
    Since its original adoption in 1993, the United States has 
repeatedly ignored the agreed international standard for API message 
construction, and has made unilateral changes to that format. The 
result has been that in addition to airlines, the WCO and the other 
governments that have adopted the WCO's API messaging standard have 
been forced to retroactively modify the standard (and in many cases, 
their own API systems).
    This unilateral approach has led to a series of modifications to 
existing API systems at significant costs to parties (both public and 
private) other than the U.S. Government and, ultimately, to a non-
standard U.S.-centric API and AQQ application.
    However, it should be noted that CBP has actively engaged with IATA 
in terms of PNR data standards and is working cooperatively on a new 
standard for a push mechanism. It will be imperative that TSA takes the 
same approach for Secure Flight.
    Question 5b. Will the implementation of US-VISIT or ESTA, as 
currently proposed by DHS, contradict any of the industry's 
international agreements and require subsequent modifications?
    Answer. ICAO's Annex 9 does not envisage collection of a biometric 
as a requirement for departing passengers and, therefore, sets forth no 
guidance in this matter. If, however, biometric data were considered 
part of API (as suggested by the NPRM), then the US-VISIT Exit 
requirement would be in contravention of the industry standards in 
place for passenger data as described in Annex 9 section 3.47.1. 
Amendments to the WCO/ICAO/IATA guidelines and the UN/EDIFACT messaging 
standards would be required to accommodate the additional data, if it 
were even possible to include image data in the standard message.
    International agreements and standards do not preclude electronic 
application for visa applicants (as in the ESTA program), and indeed 
this is a positive step forward in terms of facilitation, if 
implemented correctly. However, the program is duplicative in nature 
and is likely to cause severe disruption and denied boarding for many 
passengers at many airports, as adequate preparation has not been made 
for the introduction of the program.
    The Annex makes specific references to Contracting States being 
required to use applicable technology and multi-channel inspections 
systems to expedite clearance inspections, to secure the highest 
practical degree of uniformity in regulations, and to ensure that 
facilities are provided on terms no less favourable than those which 
apply to the operators of other modes of transport. The Annex also lays 
down a goal time of 60 minutes for processing of passengers, including 
check-in, aviation security and outbound border controls. Introducing 
both US-VISIT Exit and ESTA is likely to significantly add to current 
passenger processing time, taking it well beyond this recommendation. 
Although it is subjective whether US-VISIT Exit proposal is in direct 
contravention of these Annex 9 standards and recommended practices, is 
does appear to fly in the face of the principles laid down.
    Within the airline industry itself, we would anticipate that 
implementation of new requirements under the US-VISIT Exit and ESTA 
initiatives would drive a need for sweeping changes to existing 
industry standards (Passenger Conferences Resolutions) and interline 
policies and practices bearing on the relationship between two or more 
carriers involved in single itineraries. As much of what both new 
programs would require of airlines is entirely new--it is hard to say 
that any specific provisions would conflict with existing industry-
agreed standards. On the other hand, the proposals would require 
significant modification to industry standards relating to:
  <bullet> Interline Message Construction;
  <bullet> Origin Carrier Responsibilities in Interline Itineraries;
  <bullet> Ground Handling Agreements;
  <bullet> Denied Boarding and Compensation;
  <bullet> Involuntary Rerouting--Processes and Handling.

    Questions From Chairwoman Loretta Sanchez for Greg Principato, 
        President, Airports Council International--North America

    Question 1a. With respect to the previous US-VISIT air exit pilots, 
DHS has indicated that it encountered numerous problems with airport 
authorities regarding space and signage. For example, in certain 
airports DHS was unable to place as many exit kiosks as it would have 
liked or in the locations it would have liked. According to the Notice 
for Proposed Rule Making (NPRM) for US-VISIT air and sea exit, 
compliance with biometric exit collection ``depended on the convenience 
of the process.''
    Can you describe the space and signage challenges that DHS refers 
to in the NPRM?
    Answer. DHS has not discussed with ACI-NA the problems that it has 
indicated it encountered at U.S. airports. DHS may be referring to U.S. 
airport regulations and facility constraints. Numerous parties seek 
access and signage at airports for a wide variety of governmental, 
commercial, charitable and other purposes. Each airport has regulations 
and procedures in place to manage access and signage requests at their 
facilities. When considering such requests, airports must take into 
account available space, which is often limited; existing contractual 
obligations for space with airlines, concessionaires and others; and 
the financial implications of various uses of its facilities as 
revenues generated from concessions contribute greatly to the economic 
viability of airports and, in some cases, reduce costs to the airlines. 
Airports also need to ensure that signage is clear and uncluttered so 
that passengers can actually find what they are seeking. The 
requirements for implementing the US-VISIT Exit pilot program differed 
on an airport-by-airport basis depending on the layout, space 
availability, types of traffic, types of equipment used, and existing 
legal obligations.
    Question 1b. How can DHS move beyond these challenges to ensure US-
VISIT Exit has the necessary signage and space it needs to be 
implemented successfully at airports?
    Answer. ACI-NA recommends that part of the solution is the use of 
mobile kiosks and other mobile devices, which are not hard-wired, to 
perform the collection function. Mobile devices will permit quick and 
easy redeployment of the collection process should airport or airline 
operations necessitate a change of gate. Mobile devices would reduce 
costs and increase efficiency for DHS while minimizing the impact on 
airports. After the implementation of US-VISIT Exit, changes may be 
necessary to take account of experience to improve the process. 
Therefore, DHS should not take an approach that will require structural 
changes.
    ACI-NA believes that a mobile approach will allow airports to be 
more flexible in their dealings with DHS. However, each airport must 
take into account differing regulations, contractual obligations and 
facility constraints. We believe that U.S. airports will want to assist 
their departing passengers in complying with a mandatory U.S. travel 
requirement which could affect their ability to catch their flights and 
to visit the United States again. It is critical that DHS consult with 
airports and airlines as the program is implemented to ensure that it 
operates as smoothly and efficiently as possible and does not result in 
alienating foreign visitors to the United States.
    Question 2. DHS and the air industry worked very closely to 
implement US-VISIT entry at airports, but the partnership apparently 
deteriorated when DHS began developing its exit system and the 
Electronic System for Travel Authorization (ESTA).
    Please describe the dialog ACI-NA had with DHS as it was developing 
its plans to implement US-VISIT Exit and ESTA.
    Answer. There was good communication between the US-VISIT Program 
Office and the aviation industry during the rollout of the US-VISIT 
Exit pilot program. However, DHS did not share its June 14, 2005 
evaluation of the US-VISIT Exit pilots, as we had repeatedly urged, 
until 3 years after it was completed (June 12, 2008). While DHS and US-
VISIT Program Office staff have briefed us on their decisions in 
various venues, there have been no substantive consultations over the 
last few years about which approaches to US-VISIT Exit would be most 
appropriate, effective, and efficient.
    U.S. Customs and Border Protection (CBP) has provided briefings on 
ESTA in various settings. ACI-NA would not characterize such briefings 
as a dialog regarding the implementation of ESTA. We were particularly 
disappointed that CBP did not issue a Notice of Proposed Rulemaking 
(NPRM) on ESTA, but rather moved directly to issue an Interim Final 
Rule (IFR) on June 9, 2008 on which it sought comments. We believe the 
NPRM process would have allowed for more thorough consideration of and 
input by the public on critical implementation and operational issues 
in developing the ESTA program.
    Question 3a. DHS outlined a number of alternatives in its proposed 
rule for US-VISIT Exit at airports and even suggested that it would 
consider combining a number of alternatives, including the use of a 
kiosk.
    Is there a biometric collection alternative or combination of 
alternatives that ACI-NA favors?
    Answer. ACI-NA maintains that DHS should fund, staff and operate 
the US-VISIT Program. The collection of the biometrics of departing 
foreign visitors should take place in the sterile area at the airport 
where the traveler is ultimately departing the United States (i.e. last 
airport of departure), using mobile kiosks or other mobile wireless 
devices, rather than static, hard-wired devices. To ensure the program 
is as effective as possible, DHS should consult on an airport-by-
airport basis with the airport authority and airlines about the 
deployment of US-VISIT Exit. DHS should not divert CBP and TSA staff 
performing existing security procedures, but rather should add staff to 
implement the US-VISIT Exit function.
    Question 3b. If DHS publishes a final rule that is closely related 
to your preferred alternative, do you believe it would be 
technologically feasible to implement it by June 2009?
    Answer. ACI-NA believes that it would be technologically feasible 
to implement our recommended approach by June 2009 because the 
technology is available. Mobile devices would minimize the need for 
structural changes to airports and allow for flexibility to respond to 
different and changing operating environments. However, we do not know 
whether a sufficient number of mobile devices would be available to 
implement the exit procedures. We also do not know whether the DHS 
budget and procurement process would make it possible to implement the 
approach by June 2009.

                                 <all>

</pre></body></html>
